<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       WEDNESDAY, MARCH 31, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Craig, Reid, and Murray.

                          DEPARTMENT OF ENERGY

                   Office of Environmental Management

STATEMENT OF JESSIE H. ROBERSON, ASSISTANT SECRETARY

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The meeting will come to order. I 
understand Senator Reid, Senator Craig will be along, but I 
want to explain to you what's going on here and I haven't 
decided yet what I'm going to do, but there's a briefing by Mr. 
Tenet, a closed briefing for Senators, and I haven't heard him 
yet and I may get started and just recess and you'll have to 
wait. Sorry for the audience. We'll wait and come back, but 
we'll get you finished before noon.
    So good morning, and for all of you the hearing is going to 
come to order. The subcommittee is going to take testimony on 
the fiscal year 2005 budget request. We're going to take 
testimony from Jessie Roberson, Assistant Secretary, Office of 
Environmental Management; Beverly Cook, Assistant Secretary of 
the Office of Environmental Health and Safety; Dr. Margaret 
Chu, Director of Civilian Radioactive Waste Management. I 
appreciate your participation here today and I look forward to 
your testimony.
    The President's request for the Office of Environmental 
Management provides $7.4 billion. This is the largest request 
ever made for environmental cleanup. I applaud the efforts of 
the Assistant Secretary Roberson and the efforts to reform the 
DOE cleanup program. I intend to carefully evaluate all the 
cleanup responsibilities.
    The administration has succeeded in reducing the total cost 
estimates for 35 years by focusing on risk-based cleanup as a 
strategy and seeking accelerated cleanup agreements with the 
States. The DOE now believes that cleanup of the remaining 39 
sites will finish by 2035 and will cost $142 billion down from 
$192 billion which we were looking at in 2001. While the 
achievement that we're going to work towards is remarkable, I'm 
concerned by the Department's overriding determination to close 
out cleanup by 2035.
    This budget proposes shifting a number of cleanup 
responsibilities to other offices and creating an entirely new 
office to manage future cleanup of any ongoing DOE activities 
that are not currently managed by EM.
    It seems absurd to think that waste generated after a 
certain date shouldn't be handled in the same aggressive manner 
that EM has applied to existing cleanup. The budget process, 
creation of an office of future liability--and I'm not at all 
convinced that creating a new office and bureaucracy makes 
sense--EM has worked very hard to minimize waste cost and it 
would be a shame to lose the experience and knowledge created.
    I intend to evaluate all the cleanup responsibilities EM 
has proposed shifting to other programs in this budget, 
including the proposal to saddle NNSA with the added cleanup 
burden. Since we don't ask EM to test our nuclear stockpile, it 
seemed inconsistent to expect NNSA to perform environmental 
cleanup. Now maybe I got it wrong, but I don't think so.
    The President's budget requests $880 million for Yucca. The 
President proposes tapping the mandatory fees assessed to 
utility customers to pay for developing the waste repository. 
These fees amount to $749 million this year. The budget 
proposes that an annual receipt be reclassified as 
discretionary funds and appropriated. I'm not optimistic that 
this reclassification can be accomplished.
    I know that the Senate budget resolution does assume $577 
million as a minimum level of funding, the same level that was 
provided in 2004. I remain hopeful that more will be provided 
this year in order to keep Yucca on schedule to open by 2010. 
For the Office of Environmental Safety and Health, the 
President's budget provides $139 million. This office has the 
important responsibility of ensuring that DOE facilities across 
the complex maintain the highest levels of worker safety and 
abide by proper environmental standards.
    I was disappointed to read in the Washington Post of a 
draft DOE inspector general report that indicates that there 
has been significant underreporting of worker inquiries by the 
Department of Energy's Office of Environmental Safety and 
Health.
    According to the IG, the audit disclosed instances of 
inaccurate and incomplete data entry and the Department's 
safety performance was overstated. The audit found that the 
Department's reporting of restricted work, but that the 
contractor had actually reported 1,113 days of restricted work, 
a figure more than twice that which DOE has figured. If true, 
these accusations indicate that this Office has not addressed 
worker safety consistent with the mission and the 
responsibility. We'll be asking about that. You may have a 
different version. We want to hear that.
    The Office also funds the Energy Employees Occupational 
Illness Compensation Program which has failed to expedite 
worker compensation claims. Now, I understand that that statute 
is not very easy to interpret and not very easy to implement. 
Nonetheless, we don't have any other statute and that means 
we've got to do better.
    In my opinion, the claims that we failed in that regard 
need to be thoroughly discussed. Those who are waiting around 
for coverage are making a lot out of the fact that they are 
waiting and waiting, and that's difficult and it's very hard 
for us, too. I'm sure it's very hard for Senator Craig to 
gather enormous amounts of data to validate the worker claims 
that exist and I understand the Department has prepared new 
legislation as well as $33 million for reprogramming in 2004. 
That's going to be tough, but we ought to get started.

                           PREPARED STATEMENT

    I will evaluate both requests to ensure that these 
proposals will help DOE improve its ability to process worker 
claims. Now, I was going to yield to Senator Reid who is 
tremendously interested in what's going on and I appreciate 
working with him. Senator Reid.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

    Good morning--this hearing will come to order.
    Today, the subcommittee will take testimony on the fiscal year 2005 
budget request from Jessie Roberson, Assistant Secretary, Office of 
Environmental Management; Beverly Cook, Assistant Secretary, Office of 
Environment, Safety and Health; and Dr. Margaret Chu, Director, Office 
of Civilian Radioactive Waste Management.
    I appreciate your participation here today and I look forward to 
your testimony.
    The President's request for the Office of Environmental Management 
provides $7.4 billion. This is the largest request ever made for 
environmental cleanup. I must applaud the efforts of Assistant 
Secretary Roberson for her efforts and the efforts by the Department of 
Energy to reform the DoE cleanup program.
    This administration has succeeded in reducing the total cost of EM 
cleanup by $50 billion and shortening the estimated timetable by 35 
years. By focusing on risked-based cleanup strategies and seeking 
accelerated cleanup agreements with States, DoE now believes that clean 
up of the remaining 39 sites will finish by 2035 and will cost $142 
billion. Down from $192 billion estimated in 2001.
    While this achievement is remarkable, I am concerned by the 
Department's overriding determination to close-out cleanup by 2035. 
This budget proposes shifting a number of cleanup responsibilities to 
other Offices and creating an entirely new Office to manage the future 
cleanup of any on-going DOE activities that are not currently managed 
by EM. It seems absurd to think that waste generated after a certain 
date shouldn't be handled in the same aggressive manner EM has applied 
to existing cleanup.
    This budget proposes the creation of the Office of Future 
Liability. I am not at all convinced that creating a new office and 
bureaucracy makes any sense. EM has worked very hard to minimize waste 
and cost and it would be a shame to lose the experience and knowledge 
created within EM.
    I intend to carefully evaluate all the cleanup responsibilities EM 
has proposed shifting to other programs in this budget, including the 
proposal to saddle NNSA with the added burden of cleanup. Since we 
don't ask EM to test our nuclear stockpile, it seems inconsistent to 
expect NNSA to perform environmental cleanup.
    The President's budget requests $880 million for Yucca Mountain. 
The President proposes tapping the mandatory fees assessed to utility 
customers to pay for developing the waste repository. These fees amount 
to $749 million this year. The budget proposes that the annual receipts 
be reclassified as discretionary funds and appropriated. I am not 
optimistic that this reclassification can be accomplished this year. 
However, the Senate Budget Resolution does assumes $577 million as a 
minimum level of funding--the same level that was provided in fiscal 
year 2004. I remain hopeful that more will be provided this year in 
order to keep the Yucca Mountain on schedule to open by 2010.
    For the Office of Environment, Safety and Health, the President's 
budget provides $139 million. This Office has the important 
responsibility of ensuring that DoE facilities across the complex 
maintain the highest levels of worker safety and abide by proper 
environmental standards.
    I was disappointed to read in the Washington Post of a ``draft'' 
DoE Inspector General Report that indicates that there has been 
significant under-reporting of worker injuries by the Department of 
Energy's Office of Environmental, Safety and Health.
    According to the IG ``the audit disclosed instances of inaccurate 
and incomplete accident and injury data'' and the ``Department's safety 
performance statistics were overstated.'' The audit found that the 
Department's reporting at the Waste Treatment facility at Hanford 
reported 552 days of restricted work, but that the contractor had 
actually reported 1,113 days of restricted work--a figure more than 
twice has high as the DOE figure. If true, these accusations indicate 
that this office has failed to address worker safety consistent with 
its mission and responsibility.
    This Office also funds the Employee Compensation program has failed 
to expedite worker compensation claims. The existing program has been 
plagued by challenges in putting together enormous amounts of data to 
validate workers claims. I understand the Department has prepared new 
legislation as well as a $33 million reprogramming in fiscal year 2004 
to increase the effectiveness of the program.
    I will carefully evaluate both requests to ensure that these 
proposals will help DoE improve its ability to process worker claims.
    Now, I will yield to Senator Reid for any opening statement he 
would like to make.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Thank you very much, Mr. Chairman. I 
apologize for being a little bit late, but you always start 
promptly for which I am grateful. I am pleased to welcome the 
panelists here today. I think, Mr. Chairman, it's a mere 
coincidence that three of the witnesses here that are appearing 
today--anyway, I think it's good that you are appearing here 
today.
    We generally mix these panels from year to year and I'm not 
sure that I am personally aware of your office having testified 
before, but if you have, I missed that. I'm glad that you're 
all here. I think this has been arranged well. I want to make a 
point about how history tends to repeat itself at the 
Department generally with results that I have to say haven't 
been good for the employees and the contractors.
    Dr. Chu, as you know, this subcommittee held a hearing in 
Las Vegas earlier this month to address the issue of Yucca 
Mountain mining workers being exposed to silica dust and other 
problems, other compounds I guess would be the right word, 
during the boring of the experimental tunnel.
    The experimental tunnel is 5 miles long. The Department 
didn't provide respiration equipment for ventilation--I'm 
sorry. I thought I turned it on. I must have turned it off.
    Only after workers began getting sick recently has the 
Department begun to try to identify and find these workers, 
many of whom have no idea that the Department in essence has 
sent many of them to an early death. The Department knew of the 
presence, I should say, of silica in the rock being bored. The 
link to silicosis has been known for thousands of years and in 
that area it's been known for more than 100 years.
    To make matters worse, the Department waited 10 years 
before lifting a finger to determine the extent of damage done 
to workers' health, only after workers began getting sick. Dr. 
Chu, you were gracious to send your Yucca Mountain site manager 
and your safety advisor to the field hearing and we appreciate 
that very much. You have been candid in my estimation.
    I was, though, concerned with both of them. I thought they 
would say that we as an organization didn't do the right thing, 
didn't do a good job. We are going to do everything in our 
power to find the people who are sick and take care of them, 
but we didn't get that. We got a lengthy discussion of how the 
Department now has policies and procedures in place to make 
sure something like this will never happen again. It shouldn't 
have happened in the first place, and we really have to do 
everything we can to find out the condition of the people that 
have been exposed there.
    The present-day environmental management and environment 
safety and health programs--perhaps you will see that I am not 
comforted when I am told that DOE has policies and procedures 
in place. They do not have procedures in place to protect 
workers nationwide.
    Ms. Roberson, you have the largest budget and one of the 
most important jobs in the entire department. For all intents 
and purposes, you are in charge of cleaning up the 
environmental catastrophe of winning the Cold War. This is a 
huge, technically difficult and extremely expensive job. I 
don't envy you this task. I think by and large, you've done a 
good job with your program of accelerated cleanups. Shaving 
decades and billions of dollars from these cleanup programs is 
a noble and important goal. Everyone involved wants these tasks 
completed, but we want them done right and the only way they 
can be done right is by keeping the workers who are doing it 
healthy and safe.
    I am concerned when I read about what seems to be a very 
high injury and exposure rate among workers at cleanup sites. 
This was reported in the press over the weekend. I get more 
than upset when I read that DOE's own inspector general is 
reporting that the Department maintains ``inaccurate and 
incomplete accident and injury data'' even when its contractors 
have completely accurate data.
    When the Department's database indicates that 166 days were 
lost to injury at the Idaho National Engineering Laboratory and 
the contractor, Bechtel, reports 463 days lost during the same 
reporting period, something's really wrong and this is 
particularly in light of the fact that Bechtel has received 
incentives and as contractors, discourages them from reporting 
too many injuries.
    There are only two possible conclusions to draw from such a 
disparity: first, incompetence. Based on the Yucca Mountain 
Program experience and other monitoring of site workers that I 
have seen and heard over the years, this is plausible, 
unacceptable but plausible.
    Second, the Department has been deliberately downplaying 
the risks associated with doing this cleanup, either to meet 
schedule or contain costs. Incompetence of keeping health 
records, particularly an organization that has roots dating 
back over 50 years, upsets me. However, if the final IG's 
report contains even a whiff of a notion that DOE has been 
systematically underreporting injury and exposure in order to 
meet deadlines and to contain costs, there are going to be some 
serious consequences.
    None of us here are willing to trade lives and long-term 
life of our citizens in order to meet these milestones. Ms. 
Roberson, Ms. Cook, I desperately want to believe that there is 
a simple and plausible explanation for what the IG has found, 
and if you have one, I hope you'll share it with us. My long 
association with the Department through administrations, both 
Republican and Democratic, is that worker safety has never been 
the priority that it should be. Frankly, the Department's first 
crack at an explanation gives me no faith that you're going to 
be able to convince me that everything is as it should be.
    Whenever a department spokesman's first line of defense is 
that it's just a draft report and B, anyone who thinks we have 
a problem is just being political, as Joe Davis said this 
weekend, the Press Secretary for Secretary Abraham, my 
confidence level sinks. This is typical. Any professional doing 
his or her job who has the audacity to agree with their point 
of view is by nature a partisan or political hack. In my view, 
this is a flimsy defense when compelling answers and solutions 
are called for.
    Dr. Chu, as you might imagine, I have some things I want to 
discuss. This is something that you may want to respond to in 
writing, but let me just say that you recently announced that 
you retained the Virginia-based law firm of Hunton & Williams 
at the sum of $45 million to defend your license application. 
That seems like a lot of money to me, in light that the firm 
and its employees have had no involvement to date in the 
drafting of the license application. Your staff should be 
competent enough to draft and assemble the application itself, 
and it would seem to me they're in a good position to answer 
the questions and defend its contents.
    Given the incredibly technical nature of this application, 
how is it possible for a bunch of lawyers to add $45 million of 
value to this process? But I am hopeful that Hunton & Williams 
will not have any of the obvious conflicts of interests that 
the previous law firm did, Winston & Strawn. I'd be keeping a 
close eye on the staffing and billing of this legal team.
    In the trade press, I've noted that you've settled the 
lawsuit filed by the loser in the original firm bidding process 
for almost $5 million. That's a lot of money for a law firm 
that didn't do one single minute of work for American taxpayers 
in this matter.
    So I have a series of questions that I will submit with the 
chairman's permission. I would hope that you would answer them 
as quickly as you can. One more thing. You were unable to 
attend the field hearing in Las Vegas early this month and hear 
what some of those workers had to say. We have to really take a 
look at that, and I hope that you'll go back and look at how 
the workers have been treated and how sick they are until we 
get to the bottom of this.
    As I indicated earlier, not only am I concerned about the 
silicosis, but we had expert testimony there that one of the 
formations that they went through is something called ironite 
which is worse than asbestos and causes mesothelioma. We had a 
doctor come and testify to that fact, so it's a serious 
situation.

                           PREPARED STATEMENT

    I appreciate very much, Mr. Chairman, your patience in 
allowing me to make this statement. I am going to, as I 
indicated, with your permission, submit a number of questions 
and ask the witnesses to respond to those to the full committee 
at their earliest convenience.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Mr. Chairman, I appreciate you holding this hearing today to 
discuss the budget for the Environmental Management, the Yucca Mountain 
program, and the Office of Environment, Safety and Health.
    Like you, I am pleased to welcome Ms. Jessie Roberson, the 
Assistant Secretary for the Office of Environmental Management; Dr. 
Margaret Chu, the Director of the Office of Civilian Radioactive 
Nuclear Waste; and Ms. Beverly Cook, the Director of the Office of 
Environment, Safety, and Health.
    It is a mere coincidence that the three of you are appearing 
together here today. We generally mix these panels up a little bit from 
year to year. Additionally, I am not sure that we hear from your office 
each year, Ms. Cook.
    However, I am glad that all three of you are here together, so I 
can make a point about how history tends to repeat itself at the 
Department of Energy, generally with bad results for the health of 
employees and contractors.
    Dr. Chu, as you know, this subcommittee held a field hearing in Las 
Vegas earlier this month to address the issue of Yucca Mountain mining 
workers being exposed to silica dust during the boring of the 
Experimental Tunnel in the mid-1990's. The Experimental tunnel is 5 
miles long. The Department did not require or provide adequate 
respiration equipment for ventilation during the drilling of the first 
3 miles, a period of about 2 years.
    As many as 1,500-2,000 Test Site Workers may now be facing 
silicosis, a deadly respiratory disease. The number may be higher or 
lower. The Department is not really sure yet and did not keep accurate 
records of who was on the work site at the time and have made no effort 
until recently to try to figure it out.
    Only after workers began getting sick recently has the Department 
begun to try to identify and find these workers, many of whom have no 
idea that the Department's negligence has potentially sentenced them to 
an early death.
    The Department knew of the presence of the silica in the rock being 
bored. The link to silicosis has been known for THOUSANDS of years, yet 
the Department knowingly allowed its employees and contractors to toil 
for 2 years in such an environment before fixing the problem.
    Then, to make matters worse, they waited for 10 years before 
lifting a finger to determine the extent of the damage done to workers' 
health, and then only AFTER workers began getting sick.
    Dr. Chu, you were nice enough to send your Yucca Mountain Site 
Manager and your Senior Safety Advisor to the field hearing. However, I 
got pretty upset with both of them because, frankly, I expected them to 
say clearly and without equivocation, ``We, as an organization, screwed 
up, but we are going to do everything in our power to find these 
workers and TAKE CARE OF THEM.''
    Instead, I got a lengthy discussion of how the Department now has 
policies and procedures in place to make sure something like this will 
never happen again.
    Wrong Answer. It never should have happened in the first place.
    Unfortunately, it happens a lot at DOE.
    Let's fast forward to the present day Environmental Management, and 
Environment, Safety and Health Programs and perhaps you will see why I 
am not comforted when I am told that the DOE has policies in procedures 
in place to protect workers nationwide.
    Ms. Roberson, you have the largest budget and one of the most 
important jobs in the entire Department: For all intents and purposes 
you are charged with cleaning up the environmental catastrophe 
associated with winning the cold war.
    This is a huge, technically difficult, and extremely expensive job. 
I do not envy you this task, Ms. Roberson. I think, by and large, you 
have done a good job with your program of accelerated clean-ups. 
Shaving decades and billions of dollars from these clean-up programs is 
a noble and important goal.
    Everyone involved wants these tasks completed.
    However, we want them done right. And the only way they can be done 
right is by keeping the workers healthy and safe.
    I am certainly concerned when I read about what seems to be a very 
high injury and exposure rate among workers at clean-up sites as I read 
over the weekend. But I get downright angry when I read that the DOE's 
own Inspector General is reporting that the Department maintains 
``inaccurate and incomplete accident and injury data'' even when its 
contractors have completely accurate data.
    When the Department's database indicates that 166 days were lost 
due to injury at the Idaho National Engineering and Environmental 
Laboratory and the contractor, Bechtel, reports 463 days lost during 
the same reporting period, something is wrong, particularly in light of 
the fact that Bechtel has incentives in its contract to discourage them 
from reporting too many injuries.
    In my view, there are only two possible conclusions to draw from 
such a disparity:
  --First, utter incompetence on the part of the Department in 
        maintaining records. Based on the Yucca Mountain Program 
        experience and other monitoring of Test Site Workers that I 
        have seen and heard about over the years, this is entirely 
        plausible. Unacceptable, but plausible.
  --Second, the Department has been deliberately downplaying the risks 
        associated with doing this clean-up work, either to meet 
        schedule or contain costs.
    Incompetence at keeping health records, particularly in an 
organization that has its roots dating back over 50 years, makes me 
very angry.
    However, if the final IG's report contains even a whiff of a notion 
that DOE has been systematically under-reporting injury and exposure 
rates in order to meet deadlines or contain costs, there is going to be 
hell to pay.
    None of us up here are willing to trade lives and long-term health 
of our citizens in order to meet milestones.
    Ms. Roberson and Ms. Cook, I desperately want to believe that there 
is a simple and plausible explanation for what the IG has found. If you 
have one, I hope you will share it with all of us.
    However, my long association with the Department, through 
administrations both Republican and Democratic, is that worker safety 
has never been the priority it should be.
    Frankly, the Department's first crack at an explanation gives me no 
great faith that you are going to be able to convince me that 
everything is as it should be: whenever a Departmental spokesman's 
first line of defense is that (A) It is just a draft report and (B) 
Anyone who thinks we have a problem is just being political, as Joe 
Davis, Secretary Abraham's press secretary did this weekend, my 
confidence level sinks quickly.
    This is pretty typical for this administration, though. Any 
professional doing his or her job who has the audacity to disagree with 
their point of view is, by nature, a partisan political hack.
    In my view, that is a pretty flimsy defense when compelling answers 
and solutions are called for.
    Enough on all of that for the moment.
    Dr. Chu, as you might imagine, I have a further thought or two for 
you: first, you recently announced that you had retained the Virginia-
based law firm of Hunton and Williams, for the sum of $45 million, to 
defend your license application for Yucca Mountain before the Nuclear 
Regulatory Commission.
    That seems like a huge sum for me, particularly in light of the 
fact that the firm and its employees have had no involvement to date in 
the drafting of the licence application. If your staff is competent 
enough to draft and assemble the application itself, are they not in a 
better position to answer questions about it and defend the its 
contents? Given the incredibly technical nature of the application, how 
is it possible for a bunch of attorneys, even ones with some knowledge 
of the regulatory process, to add $45 million in value to this process?
    While I am hopeful that Hunton and Williams will not have any of 
the obvious conflicts of interests that your previous law firm did, I 
will be keeping a close eye on the staffing and billing of this legal 
team.
    I further note that I saw in the trade press that you have settled 
the lawsuit filed by the loser in the original law firm bidding process 
for $4.5 million. That is a lot of money for a law firm that did not 
one single minute of work for the American taxpayers on this matter.
    I have a series of questions for all of you that I will either ask 
at the appropriate time or will submit for the record. I hope all of 
you will respond in a timely fashion.
    Thank you for allowing me to take up a little more time than usual, 
Mr. Chairman. You were unable to attend the field hearing in Las Vegas 
earlier this month and hear what some of these former workers had to 
say. I am still stunned and angry at the way the Department treated its 
workers back then and apparently still are. The Department is charged 
with doing important things for this country, many of them dangerous, 
and, unfortunately, I am no longer convinced that worker safety is a 
high enough priority. Perhaps we should consider slowing clean-ups down 
for a short period to allow the Department to take a comprehensive, 
across-the-board look at its safety policies and procedures.
    Thank you, Mr. Chairman.

    Senator Domenici. I would like to hear from Senator Craig. 
Senator Craig, before you do that, I want to share with you, in 
the event you haven't seen this, an announcement today by a 
consortium of American companies to start a process of seeing 
how the new licensing procedures will help them in the event 
they want to build a nuclear power plant.
    Now, they haven't said they're going to build one, but 
they've said they're going to join together and apply in an 
effort to determine whether it is true that this new process 
expedites licensing or not. I'm very thrilled. That's not the 
end of the road, but I would assume with your advocacy for 
nuclear power, that you would probably think this is a very 
important event.
    Senator Reid. Who's going to do that, Mr. Chairman?
    Senator Craig. The companies are Exxon Energy, Nuclear 
Southern Company, Constellation Energy Baltimore, EDF 
International, which is a subsidiary of a large French firm.
    Senator Domenici. Senator, I want to make sure that you 
understand that there is no site. This is just to see if it 
works.
    Senator Craig. There's nothing wrong with that.
    Senator Domenici. And I think we just need that. Senator 
Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Well, thank you very much, Mr. Chairman, and 
thank you for mentioning that. I think what is important here 
is to, as the companies are attempting to do, demonstrate the 
U.S. Nuclear Regulatory Commission's new what they call the COL 
or COL process, which is a combination I think of construction 
and operating license end process. I think that might work 
well. Thank you all for being here today. We have a variety of 
important questions to ask of you and to look at the budget for 
the coming year. Let me say, and Senator Reid, let me echo your 
concern about worker safety.
    There is a field report in each one of the field offices, 
and in the conversion of that report to a headquarters report, 
nothing should fall through the cracks, and I think that is 
what is being suggested that something might. To say that there 
is not full reporting, to go to the field offices and look, I 
think we see a different story, and it's important that there 
be full transparency here as it relates to reports and 
realities in worker safety. All of us are extremely concerned 
about that as we should be, as I know certainly all of you are.
    Mr. Chairman, I've got a variety of issues that I will 
discuss and questions today, but let me say at the outset that 
I'm going to be very direct for a few moments on items 
associated with environmental management and that budget 
request. I'm going to be, I hope, very clear as to where I 
stand and what I'm going to ask of you, Mr. Chairman, and of 
the Ranking Member to support as we craft this budget bill.
    For the second budget request in a row, DOE is asking that 
a number of responsibilities be transferred out of EM and into 
other programs. I guess I have to ask this, then. Is there a 
larger design here and is Congress only seeing it in a 
piecemeal fashion by a year-to-year budget proposal. It almost 
appears that DOE is reducing the scope of the EM program so 
that it can be finished and victory declared by a date possible 
and then, oh by the way, we aren't done with high-level waste 
and we transfer the spent fuel storage to another program and 
we haven't addressed buried waste and we've created a new 
office of future liabilities.
    In other words, Mr. Chairman and to all of you assembled, 
environmental management is focused on completion as DOE's 
budget states, but only completion of all the things that 
aren't transferable somewhere else. So do I sound concerned? 
You bet I'm concerned. I'm very concerned about the position 
and the reorganization that DOE is proposing.
    Here is what I have to ask the chairman and the ranking 
member to consider. I believe we should put these piecemeal 
transfers on hold in the fiscal year 2005 budget. I asked DOE 
to come back to the authorizing committees and to this 
committee with a comprehensive plan for all of these changes 
along with a mapping from the old budget to the new proposal 
and to submit all that within the 2006 budget request.
    DOE is also asking to fence off $350 million related to 
cleanup of high-level waste in Idaho and Washington, South 
Carolina until Congress passes legislative language related to 
waste reclassification. Let me be clear. I do not support the 
language DOE submitted. It may be that given DOE's loss in the 
court in Idaho, we may need to clarify what we mean in terms of 
tank closure.
    If DOE and the State of Idaho can come to an agreement on 
the shape of that, what shape that clarification should take in 
law, I will work with my colleagues here to support that effort 
and to support the Department's effort.
    I will not allow DOE to hold this work hostage or to hold 
this budget hostage with these kinds of tactics. DOE's own 
budget makes reference to the sole-source aquifer in Idaho, 
that most of the waste sits over the top of, that provides 
Idaho's drinking and irrigation water. Now, I notice that DOE's 
fiscal year 2005 budget at Rocky Flats in Colorado is asking 
for the funding to remove every last bit of radioactive 
material or waste, low-level waste, from Rocky Flats for off-
site disposal. I find it very difficult to reconcile that with 
DOE's continued innuendoes that the States like Idaho and 
Washington are insisting on ``gold-plated cleanup'' just 
because they want some say in how DOE defines how clean is 
clean.
    DOE knows I have been open to proposals that are 
alternatives to current proposals if they make sense to all 
parties involved. At Rocky Flats, DOE spent over 5 years 
working with the State of Colorado and other stakeholders in 
developing how clean is clean. They call it their soil action 
levels. Well, they were taking 5 years to develop those 
standards, they kept clunking along on the cleanup.
    So I find it completely unacceptable that DOE thinks it 
can, if you will, hold hostage $350 million and refuse to 
continue high-level waste cleanup while demanding that DOE have 
it their way in Idaho and Washington and South Carolina, or to 
spend money to remove all the radioactive waste at Rocky Flat 
but tell Idaho that DOE doesn't have to address any of our 
buried waste, some of which is transuranic, that stuff that is 
customarily, as we know, going to the facility in Carlsbad.
    We know on this committee that resources are limited and 
that we don't have an open access to the U.S. Treasury, but 
we're going to be looking for some equitable treatment when it 
comes to risk. We're also going to be asking for what I would 
suggest needs to be a clearly transparent approach to what the 
end game is and what the procedures are, and I don't feel at 
this time, frankly, we understand it nor are we gaining that 
kind of transparency. I hope that's about as clear as it can be 
said.
    But Mr. Chairman, this is one Senator that is not at all 
happy with the current proposal and the current budget.
    Senator Domenici. Thank you very much, Senator Craig. Let 
me say you have had to sit there and accept as we do in the 
Congress, the feelings of Senators. You have your opportunities 
to answer all this, but I'm going to do the following.
    Senator Murray is willing to stay. I don't know if you want 
to go to Tenet? You don't. Well, Senator, you preside, and then 
Senator Murray has a series of questions, so if you would let 
her go, and I will try to get back. When I come back, I do want 
to ask if you have had a chance to explain the allegations, 
especially in the safety and health area, but four or five 
areas, because I am interested and I don't necessarily share 
the same opinion of the Senators who have spoken, but that's 
too bad. They may have more votes than I have.
    But the important thing is to try to figure out how we can 
do it, and to do that, we've got to know facts, so with this, 
I'm going to yield to Senator Murray, and then Senator Craig is 
going to take over. I'm going to walk quickly to hear Mr. 
Tenet. I will stay until noon. If we are not finished, we'll 
just have another hearing because there are three or four 
issues that have to be answered or we're going nowhere.
    You haven't talked much, Dr. Chu, and we want to hear from 
you also. Before I leave, I want to say that it is rare indeed 
to look at this problem of Yucca and the disposal of waste. 
We've been sitting around looking at a graph. At one point, we 
had 300, 400 billion on these graphs, and it's amazing that all 
the men that tried didn't make any headway. So now we've 
decided the women will take the lead, and I'm very pleased with 
you, Dr. Roberson, and with you, Dr. Chu. You came from one of 
our laboratories. It is absolutely amazing what you have done, 
regardless of the criticism. Your activities have been very, 
very interesting and I will leave now and try very much to come 
back. Okay.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much. I assume that's an 
endorsement for women to take over the Senate as well.
    Senator Craig [presiding]. I am now clearly in the minority 
in this room. Please proceed.
    Senator Murray. Well, I do want to make an opening 
statement. I want to thank Senator Domenici. And other 
challenges are completed or well underway. The funding the 
administration has been requesting and this subcommittee has 
been providing is making a real difference. Unfortunately, that 
is not the full story at hand for today. It seems time and 
again, the Department makes decisions that raise questions 
about its commitment to full cleanup, partnership with Federal 
and State regulators, communication with the community, and 
concern about safety.
    We can all agree with the Department's goal of accelerated 
cleanup, but as I said 2 years ago, this cannot occur at the 
expense of worker safety or the environment. The recent events 
raised this very fear. First, the Department is seeking 
unilateral authority to reclassify high-level waste at Hanford, 
Idaho and South Carolina. Those three States plus New Mexico, 
New York and Oregon are opposing this effort in court.
    Secondly, workers are being exposed to potentially 
dangerous tank vapors at Hanford.
    Third, there are accusations that medical care is being 
manipulated to reduce the number of days not worked due to 
work-related injuries. These and other injuries raise real 
questions about the Department's commitment to full and 
faithful cleanup and worker safety.

                           PREPARED STATEMENT

    I believe the Department can achieve full cleanup and cost 
and time savings while keeping faith with regulators, 
communities and workers. In fact, I believe the cleanup program 
can be a nearly unquestionable success if it addresses all 
those issues. We will not solve this today, but the Department 
needs to take some considerable steps to rebuild good faith 
with these partners in cleanup. Thank you, Mr. Chairman. I do 
have questions and I will wait until after the witness' 
testimony. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Mr. Chairman, I would like to make a brief opening statement.
    First, I'd like to express my appreciation to you and Senator Reid 
for both of your steadfast support of the Environmental Management 
Program. This program is obviously vitally important to my State and 
I'm very appreciative of your help.
    I'd like to say that I'm pleased with most of the recent cleanup 
activities at Hanford. Significant actions on spent fuel, the plutonium 
finishing plant, and other challenges are completed or well underway. 
The funding the administration has been requesting and this 
subcommittee has been providing is making a real difference.
    Unfortunately this is not the full story at Hanford.
    It seems time and again the Department makes decisions that raise 
questions about its commitment to full cleanup, partnership with 
Federal and State regulators, communication with the community, and 
concern about safety.
    We can all agree with the Department's goal of accelerated cleanup, 
but as I said 2 years ago, this cannot occur at the expense of worker 
safety or the environment.
    But recent events raise this very fear.
    First, the Department is seeking unilateral authority to reclassify 
high-level waste at Hanford, Idaho, and South Carolina. Those three 
States, plus New Mexico, New York and Oregon are opposing this effort 
in court.
    Second, workers are being exposed to potentially dangerous tank 
vapors at Hanford.
    Third, there are accusations that medical care is being manipulated 
to reduce the number of days not worked due to work related injuries.
    These and other issues raise real questions about the Department's 
commitment to full and faithful cleanup and worker safety.
    I believe the Department can achieve full cleanup and cost and time 
savings, while keeping faith with regulators, communities and workers. 
In fact, I believe the cleanup program can be a nearly unquestionable 
success if it really addresses these issues.
    We will not solve this today, but the Department needs to take some 
considerable steps to rebuild good-faith with these partners in 
cleanup. Thank you Mr. Chairman.

    Senator Craig. Well, thank you very much, Senator. Now that 
we've had our say, it's more than appropriate for you all to 
have your say before we go to questions, and with that in mind, 
let me first turn to Jessie Roberson, Assistant Secretary for 
Environmental Management. Jessie, again, as the chairman has 
said, welcome before the committee.

                    STATEMENT OF JESSIE H. ROBERSON

    Ms. Roberson. Thank you, sir, and good morning, Senator 
Murray and Senator Craig and staff for the subcommittee. I'd 
like to begin by conveying the Department's appreciation to you 
for your investment in the accelerated cleanup program. Your 
support is allowing us to achieve the dramatic results we 
forecast before this subcommittee a short 2 years ago.
    I'm here today to discuss President Bush's fiscal year 2005 
budget request for the Environmental Management program and its 
goal of sustaining the momentum that our work force has labored 
so hard to achieve, a momentum that benefits the vibrancy of 
our communities, our environment and our economy. In the last 2 
years, we've introduced dynamic reforms, delivered fundamental 
change and achieved significant improvements in health, safety 
and environmental protection.
    With your support, these reforms have become ingrained in 
our operations and our business processes, and with your 
continued support and our continued keen focus on risk 
reduction and cleanup, the momentum can and will continue. I'd 
like to take a moment to underscore the impacts of refocusing 
the Environmental Management program.
    We have improved safety performance. We are committed to 
instilling the appropriate philosophy in every worker's day-to-
day decisions from start to finish of every project. To that 
end, we are demonstrating that we can accelerate work and 
improve safety performance at the same time. We are focused on 
continuous safety improvement. We have institutionalized the 
behaviors of a learning organization in our organization. We 
invest in system safety training and leadership training. We 
demand a healthy inquisitiveness. We stick to the basics, 
allowing a disciplined conduct of operations, and we are 
focusing our environmental and operational safety efforts on 
prevention first.
    And I look forward to responding to the issues raised in 
the opening statements regarding challenges to our safety 
performance. We have not nor will we stop paying attention to 
safety. We will continue to ``raise the bar'' and hold 
ourselves accountable to the highest standards.
    Second, we have demonstrated real cleanup results and risk 
reduction. Last year we set a new floor of performance not yet 
seen in the history of this program, and I say floor because we 
see this as a level of performance that we will continue to 
build upon. Over the last 2 years, for example, six of nine 
nuclear fuel basins completely deinventoried. None of those 
were in our plan before. Four thousand, one hundred of 5,900 
containers of plutonium, approximately 80 percent, have been 
packaged, we're almost complete. Over 1,300 of 2,400 metric 
tons, more than half, of the spent nuclear fuel is repackaged. 
Our workforce has accelerated that work, too.
    Our corporate performance measures, detailing our 
performance, which I have included in my written statement, 
further demonstrates our progress and in combination with our 
safety performance, we have accomplished consequential outcomes 
important to the public, the communities that host our sites, 
and for the generations that follow us.
    Three years ago, the Environmental Management program was 
described as lacking a risk-based cleanup approach and the 
hazards at the DOE sites and the liability associated with them 
did not appear to dictate the need for urgency. Innovative 
actions in all elements of the cleanup program were needed to 
transform EM's processes and operations to reflect an 
accelerated risk-based cleanup paradigm.
    We believe that by providing an atmosphere that encourages 
innovation, we can reduce risk to workers and the environment 
more effectively and save resources to be reinvested in 
furthering the cleanup priorities of each of the sites. Tying 
all these accomplishments together has been our driving force 
to improve performance in our acquisition strategy 
specifically.
    Legal actions and court decisions may direct us to alter or 
modify our activities from the accelerated cleanup and closure 
path. We are committed to work diligently with all concerned 
parties to avoid interruptions in reducing risk where we can. 
This year has seen dramatic results demonstrating our steadfast 
belief that continuing on the accelerated path will resolve the 
problems that lie before us. We must not lose our momentum that 
has so earnestly been established by the work force.
    As with all new enterprises, impediments will be many, but 
we are committed to employ our resources to continue to show 
meaningful results and we're taking a very critical view of 
those results. The job is not done until it's done. We can't be 
complacent. We must continue to do better. It's not done when 
we develop a plan. It's not done when we agree on a milestone. 
It's not done when we ask for funding. It's not done when we 
sign a contract. It's not done when we get money. It's not done 
until it's done and there is positive and measurable risk 
reduction for the investment made.

                           PREPARED STATEMENT

    I ask for your support of our fiscal year 2005 budget 
request of $7.43 billion to continue this momentum. We are 
safer today than we were last year, and we must stay the course 
so that we are safer next year than today. We have accelerated 
cleanup by at least 35 years, saving over $50 billion. The 
potential is there to lose what we have gained should we fail 
to stay focused on our commitments. Thank you, sir.
    [The statement follows:]

                Prepared Statement of Jessie H. Roberson

    Mr. Chairman and Members of the subcommittee, I am delighted to be 
here today to convey the Department's appreciation for your support of 
the Environmental Management (EM) program, without which the dramatic 
results in accelerating the cleanup of the legacy of the Cold War would 
not be possible. I welcome this opportunity to sit before you and 
report on our progress, the potential gains and risks that lie before 
us, and the importance of sustaining the momentum that our workforce 
has labored so hard to achieve--a momentum that benefits the vibrancy 
of our communities and the environment.
    Two eventful years have passed since the release of the Top-to-
Bottom Review of the EM program. In these last 2 years, we have taken 
decisive steps to transform a program focused on managing risk to a 
core mission-focused program that is accelerating risk reduction and 
cleanup. We have introduced dynamic reforms, delivering fundamental 
change and achieving significant improvements in health, safety, and 
environmental protection but more was needed to be done.
    Last year when I spoke with you, I stated that I was not 
``satisfied'' with our progress. We must continue to better our 
performance and to look beyond the status quo to achieve results that 
are truly groundbreaking for the benefit of the generations that follow 
us. I challenged our workforce, our partners, and myself and all those 
interested in joining us in our vision of accelerated cleanup to put 
their most innovative ideas and people forward. I am proud to announce 
that with our combined efforts, our objective of accelerating 
environmental cleanup and risk reduction by 35 years and reducing 
estimated program costs in excess of $50 billion has become a reality. 
As cited in the recently released U.S. Department of Treasury 2003 
Financial Report to the United States Government, ``the recognized cost 
of cleaning up environmental damage and contamination across Government 
programs was estimated to be $249.9 billion, a decrease of $23.1 
billion or 8.5 percent from September 30, 2002. The most significant 
component of this reduction relates to the Department of Energy 
(Energy). Energy has reduced its environmental liability by $26.3 
billion or 12.5 percent in fiscal year 2003; this is the second year in 
a row that Energy's environmental liability decreased''. Along with the 
environmental liability reduction in fiscal year 2002 of $28.7 billion, 
the Department has reduced its environmental liability by $55 billion 
over the last 2 years. A reduction mostly due to employing a cleanup 
approach that focuses on accelerating risk reduction to public health. 
With your support and our continued keen focus on cleanup and closure, 
the momentum can continue.
    For fiscal year 2005, the President's Budget includes a record 
$7.43 billion for the accelerated cleanup program, the peak year in our 
funding profile. As we identified last year, the administration 
believes that this investment is crucial to the success of accelerated 
risk reduction and cleanup completion. We anticipate funding will then 
decline significantly to about $5 billion in 2008.
    The EM portion of the fiscal year 2005 Congressional budget is 
structured analogous to last year. The budget structure focuses on 
completion, accountability, and visibility; institutionalizes our 
values; and integrates performance and budget. Requested funding can 
clearly be associated with direct cleanup activities versus other 
indirect EM activities.
    Within the Defense Site Acceleration Completion Appropriation, the 
budget reserves $350 million for a High-Level Waste Proposal. With the 
Idaho District Court decision on Waste Incidental to Reprocessing, the 
Department's ability to proceed prudently with accelerated risk 
reduction for some activities is drawn into question. The decision 
makes it difficult, if not impossible, for us to undertake planned 
actions at Idaho, Hanford and Savannah River Site to aggressively 
reduce risks posed by wastes stored in tanks at those sites--actions we 
had committed to take, in agreement with our host States, before the 
court decision. The decision now means we are likely to leave tank 
wastes in place longer while we try to resolve issues created by the 
decision--a course that has significant societal and monetary costs. 
This $350 million supports activities normally funded from the 2012 
Accelerated Completions account and from the 2035 Accelerated 
Completions. These funds will be requested only if the legal 
uncertainties are satisfactorily resolved.
    In alignment with ongoing Departmental missions, this budget 
reflects a transfer of multiple activities that are not core to the EM 
mission to other Departmental elements. These transfers provide the 
responsible and accountable mission programs with the resources and 
tools to achieve their objectives at the expected performance level. 
This accountability model is the key to moving each of the enterprises 
or missions of the Department forward in attaining the desired outcomes 
and results important to the administration and supporting our 
accelerated risk reduction and closure initiative. Transfers include:
  --Transferring Federal staff at the Pacific Northwest National 
        Laboratory to the Office of Science and Federal staff at 
        Headquarters to the Office of the Chief Information Office.
  --Transferring the EM portion of the Offsite Source Recovery Program 
        to the National Nuclear Security Administration.
  --Transferring spent fuel storage responsibilities at Idaho National 
        Laboratory, the Foreign Research Reactor Spent Fuel Program, 
        management of NRC-licensed spent fuel, and the National Nuclear 
        Spent Fuel Program to the Office of Civilian Radioactive Waste 
        Management.
  --Transferring Formerly Utilized Sites Remedial Action Project 
        records management, responsibility for cost liability and 
        recovery reviews, and Environmental Justice and the Massie 
        Chairs of Excellence Program to the Office of Legacy Management 
        (LM).
    We will also be transferring sites, as they are completed, either 
to the landlord or to LM. The latter will occur if the site has no 
further DOE mission. EM is working with LM to ensure smooth site 
closure and transition by:
  --Ensuring that site baselines identify functions and elements beyond 
        contract closure to meet all internal requirements;
  --Conducting assessments of site readiness for transfer and closure 
        in tandem with LM;
  --Having joint teams at each site (Rocky Flats has 2 LM employees) 
        and supported by HQ LM personnel who were once EM personnel and 
        EM personnel at sites are transferring to LM positions;
  --Holding quarterly meetings between EM and LM senior management to 
        address key issues and make decisions;
  --Developing a communication plan defining roles and responsibilities 
        between EM and LM staff.
    The administration considers this budget request a critical step on 
the accelerated risk reduction and cleanup path. Without these 
resources, we could face higher risk to the environment and the public 
and lose the momentum we have gained in changing the paradigm. With 
your support, we have the opportunity to succeed in producing historic 
results that will last for many years to come.

                         DEMONSTRATING RESULTS

    With the October 2003 release of the Report to Congress on the 
Status of Implementation of the Top to Bottom Review, we have 
demonstrated that the direction we took 2 years ago is showing real 
results. I wish to take a moment and expound the impacts of the far-
reaching accomplishments that are underpinning the developing momentum 
of the program.

Improved Safety Performance
    We believe in order to accomplish our accelerated risk reduction 
and cleanup mission, we must continue to do work safely. We are 
committed to instilling this philosophy in every worker's day-to-day 
decisions from start to finish of every project. To that end, with top-
quality safety standards, we are demonstrating that we can accelerate 
work and improve safety performance at the same time. For example in 
August 2001, EM's Total Reportable Cases (TRC) and Lost Workday Cases 
(LWC) were 1.9 and 0.8 respectively, per 100 workers (TRC and LWC are 
standard tools used to measure safety performance). In September 2003, 
we had reduced our TRC to 1.2 and LWC to 0.5. These rates are 
significantly better than private industry, which OSHA reported in 
2002, had a TRC of 5.3 and LWC of 1.6. The construction industry alone 
had rates of 7.1 for TRC and 2.8 for LWC in 2002. We have not nor will 
we stop paying attention to safety. We will continue to ``raise the 
bar'' and hold ourselves accountable to the highest standards. 
Complacency is not acceptable in our advance to the safe conclusion of 
our cleanup objectives.

Cleanup Results and Risk Reduction
    Prior to the Top to Bottom Review, EM had lost focus of the core 
mission, the mission that the program was established to solve--address 
the environmental legacy of the Nation's Cold War nuclear weapons 
research and production. With a program responsible for the management 
of millions of gallons of liquid radioactive waste and thousands of 
tons of spent nuclear fuel, the unhurried pace of cleanup and risk 
reduction was unacceptable. If immediate actions were not taken the 
risks associated with the EM program would continue to grow to 
unpardonable levels.
    Last year set a new floor of performance not seen before in the 
history of the program. Our investment has born amazing results. For 
example: three spent nuclear fuel basins were de-inventoried at Idaho 
National Laboratory, along with two at the Savannah River Site and one 
at Hanford. And in regard to Hanford, we have removed 70 percent of the 
spent nuclear fuel from the K-Basins. These basins located less than a 
quarter of a mile from the Columbia River have the potential to leak 
and cause costly environmental harm both to the health of the river and 
the public--this is a significant gain in risk reduction. Another 
example is at Rocky Flats. This site, once responsible for nuclear 
triggers, has shipped all plutonium off site and closed the last 
remaining material access area. These visible, risk reducing results 
that have demonstrated our ability to accelerate schedule and reduce 
life cycle cost while showing to our public and surrounding communities 
the Department's commitment to improve worker safety, reduce health 
risks and eliminate environmental hazards.
    So you may have a better comprehension of the magnitude of our 
cleanup results, I would like to insert for the record a copy of our 
recent corporate performance measures. EM's Performance Measures is a 
compilation of the program's 16 complex wide performance measures. As 
you can see, we can deliver significant risk reduction and cleanup and, 
as I stated earlier, in combination with improved safety performance. 
Accelerating risk reduction and cleanup, in concert with exceptional 
safety performance, accomplishes consequential outcomes important to 
the public, our communities, and for the generations that follow us.

Innovations in Ideas, Processes, and Practices
    Two years ago, the Top-to-Bottom Review described the EM program as 
lacking a project completion mindset, internal processes were 
inconsistent with a risk-based cleanup approach, and the hazards at the 
DOE sites and the liability associated with them did not appear to 
dictate the need for urgency in the cleanup decisions. The Top-to-
Bottom Review team emphasized that the EM mission cannot be 
accomplished by continuing business as usual. Innovative actions in all 
elements of the EM program would need to be taken to transform DOE's 
processes and operations to reflect the new accelerated risk-based 
cleanup paradigm.
    To foster innovation, we identified ideas and processes from 
successful projects that had delivered accelerated results and conveyed 
the information across the EM program. For example, at Rocky Flats, we 
drew from their experience in project planning and delivery along with 
technology advancements. Sharing the innovative practices allowed for 
similar outcomes at other sites. If I may take a moment to share a few 
ideas and practices:
    (a) Establish a clear end-state vision and risk-based cleanup 
levels in conjunction with specific future land/site use and in 
consultation with regulators, stakeholders, and affected and interested 
governments.
    (b) A ``best-in-class'' management team is recruited and sustained 
with the result of team focus and retention of key staff.
    (c) Senior management emphasis is placed on key safety issues of 
keeping workers working, minimizing the risk of possible high-impact 
events, quick recovery after accidents, safety ``pauses'' as 
appropriate, and improved safety training.
    (d) Projects are managed in an environment that provides 
significant incentives for real cost savings.
    (e) New and innovative equipment and methods are being used for 
size reduction (e.g. plasma cutting torch, engineered enclosures, 
water-jet cutting of components), significantly improving safety and 
effectiveness.
    (f) Improved decontamination techniques coupled with new radiation 
instrumentation.
    We continue to encourage innovation in our processes and practices 
to further enhance safety performance, accelerate risk reduction, 
reduce health impacts, and save resources to be reinvested in 
furthering the priorities of each of the sites.

Acquisitions Driving Performance
    Tying all these accomplishments together has been our continued 
drive to improve performance from our new acquisition strategy. These 
accomplishments serve as indicators of the level of performance we are 
expecting from our contractors now as well as into the future. When we 
reviewed our contracts over the past year--as you may remember I said 
we formed a Contract Management Advisory Board last year--we identified 
a short list of significant findings that did not prove advantageous to 
the overall success of the program. We concluded that DOE tends to 
manage the contractor not the contract, that project baselines needed 
improvement along with project management and the associated reporting, 
incentives for meaningful risk reduction were lacking, more emphasis 
was needed on cost-efficient performance, and there seemed to be 
insufficient competition and small business participation.
    To address these weaknesses, we have instituted three business 
models that we believe will vastly improve our acquisition process and 
opportunities for success. Our reform strategy is to accelerate the 
reduction of risk from the legacy of the Cold War safely and 
efficiently and at a cost savings for the taxpayer. One model focuses 
on improving incumbent contractor's performance, while another aims to 
increase competition and small business participation. The third 
concentrates on the establishment of national Indefinite Delivery/
Indefinite Quantity (IDIQ) contracts for remediation and 
decontamination and decommissioning. All three are on the fast track. 
In fact, in September, as a first step we announced the selection of 
five 8(a) businesses that will perform work at our small sites across 
the country. And in fiscal 2004, we have six new contracts--two at 
Paducah, two at Portsmouth, one at the Fast Flux Test Facility at 
Hanford, and one at the Idaho National Laboratory along with the IDIQ 
contracts that will be competed. We expect these new contracts will 
challenge the contractor community, a challenge that is healthy for all 
involved.

We Have Our Challenges Too
    As we continue to challenge the status quo, we may be confronted 
with legal actions and court decisions that will direct us to alter or 
modify our activities from the accelerated cleanup and closure path. We 
will continue to work diligently with all concerned parties to avoid 
interruptions in reducing risk and advancing cleanup for the public.
    We expect to be challenged on our delivery of Government Funded 
Services and Items, or GFSI. We are accountable on delivery of GFSI and 
we expect to be held to our commitments.
    Also, we have challenged our managers at all levels to stay true to 
our commitment and employ our corporate performance measures as an 
accountability and success gauge assessing our progress as well as a 
tool that alerts us when management action or intervention is 
warranted.

                  THE FISCAL YEAR 2005 BUDGET REQUEST

    The fiscal year 2004 budget was the first budget that fully 
reflected the initiatives undertaken by the administration to transform 
and revitalize the cleanup of the former weapons complex. The EM 
program has been refined and fortified with management reforms, which 
have led to accelerated risk reduction and a decrease in life-cycle 
costs surpassing previous expectations. The investment we have 
requested in our fiscal year 2005 budget will contribute to EM's 
continued success in achieving its mission of accelerated risk 
reduction and site closure.
    The EM fiscal year 2005 budget request represents the peak year of 
our investment strategy to accelerate cleanup and reduce risk. This 
budget fully reflects each site's accelerated risk reduction and 
cleanup strategy. The fiscal year 2005 budget request is pivotal to 
keep the momentum going and to achieve even greater risk reduction and 
cost savings than ever before.
    The 2005 budget request for EM activities totals $7.43 billion to 
accelerate risk reduction and closure. The request includes five 
appropriations, three of which fund on-the-ground, core mission work, 
and two of which serve as support. The five appropriations and 
associated requested funding are:
  --Defense Site Acceleration Completion ($5.97 billion),
  --Defense Environmental Services ($982 million),
  --Non-Defense Site Acceleration ($152 million),
  --Non-Defense Environmental Services ($291 million), and
  --Uranium Enrichment Decontamination and Decommissioning Fund ($500 
        million).
    Within the Defense Site Acceleration Completion Appropriation, $350 
million is tied to the Idaho District Court decision on Waste 
Incidental to Reprocessing. These funds will only be requested upon 
satisfactory resolution of the recent court decision that affected the 
Department's plans for some waste streams.
    In building the request, the Department applied the following 
principles and priorities:
    Protect workers, public, and the environment.--The budget request 
continues to place the highest priority on protecting workers, the 
public, and the environment. The implementation of EM's cleanup 
strategies allows for an overall improvement in safety and reduction in 
risk because cleanup will be completed sooner, reducing the extent to 
which workers, the public, and the environment have the potential to be 
exposed. Over the past 2 years, dramatic improvements in safety 
performance have been demonstrated.
    Ensure the appropriate levels of safeguards and security.--Due to 
heightened security levels throughout the Nation, it is crucial that we 
maintain vigilance in our domestic security to protect our citizens. 
The EM program is responsible for many tons of surplus nuclear 
material. This budget request reflects our increased safeguards and 
security needs, including the new Design Basis Threat requirements. 
Overall, the budget has decreased from fiscal year 2004 because we have 
been able to consolidate materials into fewer, more secure locations, 
and we have reduced the footprint of secure areas. The sites with the 
largest remaining funding needs are the Savannah River Site and 
Hanford. Savannah River Site's funding supports the security of nuclear 
materials, maintenance of uniformed protective force personnel, 
information security and operations security for the protection of 
classified and sensitive information, cyber security for the protection 
of classified and unclassified computer security, and personnel 
security. Hanford's funding supports security for shipment of special 
nuclear materials and elimination of one Material Access Area within 
the Plutonium Finishing Plant, enhancement of cyber security, Hanford 
site security clearances and other security activities.
    Accelerate risk reduction.--Accelerated risk reduction requires a 
pragmatic approach to cleanup. Risk reduction occurs in various stages, 
which involve the elimination, prevention, or mitigation of risk. 
Because safe disposal of many materials will take a number of years to 
complete, our major focus of risk reduction is stabilization of high-
risk materials.
    The following categories of materials are considered to pose the 
highest risk:
  --High-curie, long-lived isotope liquid waste,
  --Special nuclear materials,
  --Liquid transuranic waste in tanks,
  --Sodium bearing liquid waste in tanks,
  --Deteriorating spent nuclear fuel in leaky or poor integrity basins,
  --Remote-handled transuranic waste and high transuranic content 
        waste,
  --Transuranic waste stored on the surface, and
  --Decommissioning of highly-contaminated facilities.
    Although all of these items are to be considered when setting 
priorities, their relative ranking may vary from site to site. Risk 
reduction is a major consideration in the development of the site 
baselines. Examples of planned activities/milestones for fiscal year 
2005 that correspond to site-specific risk categories are:

Hanford
    Complete cleanout of K East and K West basins (fuel, sludge, 
debris, and water).--The K basins are located less than 1,000 feet from 
the Columbia River. This project involves packaging and removing 
degrading spent nuclear fuel and radioactive sludge, debris, and water 
from wet storage in the K Basins to safe, dry interim storage away from 
the Columbia River. The K Basin facilities are well past their design 
lives and are a major threat to the environment due to the potential 
for basin leakage to the surrounding soil and the Columbia River. Their 
cleanout will prevent potential leakage of 55 million curies of 
radioactivity to the soil and the River and will decrease the risks 
posed by the basins to human health and the environment.
    Complete transfer of nuclear material to the Savannah River Site or 
DOE approved interim storage facility, and complete legacy holdup 
removal and packaging/disposition of material/waste.--The Plutonium 
Finishing Plant (PFP) consists of several buildings that were used for 
defense production of plutonium nitrates, oxides and metal from 1950 
through 1989. Completion of the transfer of the stabilized materials 
and legacy holdup material from PFP allows the cleanout and demolition 
of these facilities to slab on grade. It results in a reduced National 
security threat by consolidating nuclear materials into fewer 
locations.
    Ship all above-ground transuranic waste to the Waste Isolation 
Pilot Plant.--Hanford has several thousand containers of previously 
generated transuranic waste in above-ground storage buildings. 
Characterization and shipment of this waste to the Waste Isolation 
Pilot Project for final disposal will reduce the risks to facility 
workers as well as reduce the safeguard and security vulnerability 
associated with this waste. This action represents final disposal of 
this waste in an environmentally protective repository.
    Complete installation of In Situ Redox Manipulation Barrier in the 
100-D Area.--Chromium-contaminated groundwater is reaching the Columbia 
River in the 100-D Area. The contamination levels are above 20 times 
the aquatic life water standard, and the area is adjacent to potential 
salmon spawning locations. To address this, a series of wells will be 
drilled and a chemical that detoxifies chromium will be deposited into 
the matrix in which the groundwater travels to the river. As a result, 
the groundwater reaching the Columbia River will once again meet the 
aquatic water standards, thereby protecting human health and the salmon 
population in the River.
    Initiate waste retrieval from eleven single-shelled tanks.--
Radioactive liquid waste stored in older single-shelled tanks has the 
potential of leaking and contaminating soil and groundwater that flows 
to the Columbia River, presenting a risk to human health and the 
environment. Waste will be retrieved from the single-shelled tanks and 
moved to safer double-shelled tanks.

Idaho
    Disposition 34 containers of special nuclear material containing 
uranium, completing 75 percent of shipments offsite; initiate transfer 
of spent nuclear fuel from CPP-666 wet storage to the Irradiated Fuel 
Storage Facility; and maintain a running average of 2,000 cubic meters 
per year of TRU waste shipped out of Idaho.--Idaho sits over a major 
sole source aquifer, the Snake River Plain Aquifer, which is used to 
supply water to the people of southeastern Idaho as well as irrigation 
water for the significant agricultural activities. These actions will 
reduce the potential risk to human health by preventing the migration 
of contamination into the aquifer. It also will reduce the national 
security threat by consolidating materials into fewer locations.

Paducah
    Disposition 875 cubic meters of low-level/mixed low-level legacy 
waste, allowing for a 37 percent completion of work.--The packaging and 
disposal of low-level waste stored outdoors will reduce the waste 
inventory and eliminate the potential release into the environment that 
could result from deterioration of the storage drums. Outside storage 
of this material in some cases leads to additional surface water and 
soil contamination. Removal of these materials further reduces the 
continued exposure to workers performing surveillance and maintenance.
    Disposition 12,400 tons of scrap metal.--Scrap metal is a suspected 
source of continued surface water and possible soil contamination. This 
action contributes to the continued source term removal of contaminants 
leaching into the environment. Reduction in the massive quantities of 
scrap metal continues to improve the potential safety concern to our 
workers.
    Continue decontamination and decommissioning of C-410 complex.--The 
C-410 Complex is a large chemical complex in a shutdown condition. 
Removal of contaminated materials and equipment reduces potential risk 
to onsite workers and represents a key step in stabilizing the facility 
such that contaminants are prevented from release to the environment.

Portsmouth
    Disposition 9,089 cubic meters of legacy waste.--The continued 
shipment and disposal of legacy waste will proportionally reduce the 
risk such wastes present to the health and safety of workers and reduce 
the on-going potential for release to the environment.
    Process approximately 42 million gallons of water through 
Groundwater Pump and Treat facilities.--Plume control keeps 
contaminants from reaching surface streams and off-site drinking water 
supplies. Trichloroethylene (TCE), which was an industrial solvent, is 
the main groundwater contaminant at the site.

Pantex Plant
    Complete Zone 11 soil vapor extraction for removal of contamination 
from the vadose zone and protection of the groundwater.--Removing the 
soil gas contamination will avoid potential migration to a fresh water 
supply, thereby reducing the risk posed to human health and the 
environment.
    Complete Burning Grounds landfills interim corrective measure 
(engineered covers) to secure wastes and protect groundwater.--The 
covers will mitigate the vertical transport of contaminants, which will 
reduce the potential impact to the fresh water supply.
    Complete demolition of Zone 10 Ruins.--The Zone 10 ruins have 
suspected high explosives contaminants in the numerous disintegrating 
structures. Removal of high explosive will avoid further contamination 
of soils, and demolition of the ruins will reduce safety risks to 
persons in the area.
    Complete decontamination and decommissioning of Building 12-24 
Complex.--There is evidence that this complex contributed to the high 
explosives plume that migrated to the southeast and off-site. 
Decontamination of the 12-24 Complex will mitigate the migration of 
this plume.

Oak Ridge
    Complete East Chestnut Ridge Waste Pile Closure.--Risks associated 
with industrial safety will be reduced by eliminating the need to 
excavate and transport the material to treatment subsequent to 
disposal.
    Complete disposition of legacy low-level waste.--Approximately 40 
percent of the low-level waste was stored outdoors in deteriorating 
containers. Disposition of this waste will decrease the risks 
associated with their potential environmental release.
    Complete processing and stabilization of transuranic waste tanks.--
This action will eliminate the potential for the waste's migration to 
groundwater.
    Initiate contact-handled transuranic waste processing at the Waste 
Processing Facility.--This waste is stored in above grade-storage 
trenches and in earthen trenches. Processing the waste prevents the 
risk of release to the environment and a continued cost of waste 
storage and monitoring.
    Complete treatment of liquid low-level waste supernate at the Waste 
Processing Facility and disposal of the dried supernate product at the 
Nevada Test Site.--Treatment and disposal of the supernate decreases 
the risks posed by these highly radioactive fission products.
    Complete Atomic City Auto Parts.--This action will reduce the risks 
posed to workers and the surrounding community from uranium and 
polychlorinated biphenyls contamination in the soil.
Savannah River Site
    Begin processing neptunium solutions.--SRS has approximately 6,000 
liters of Neptunium-237 nitrate solution in H-Canyon. Through 
processing, the neptunium solutions are converted into a more stable 
form, and the risks they pose to human health and the environment are 
reduced.
    Complete bulk waste removal in Tank 5.--Tank 5 is 1 of 49 
underground tanks currently used to store radioactive liquid waste at 
the Savannah River Site. This waste represents one of the highest risk 
to human health and the environment. Current plans call for the removal 
of the waste from Tank 5 for treatment, stabilization and disposal. A 
new approach, the Waste-On-Wheels (WOW) system, will be utilized to 
remove the waste from Tank 5 and other tanks. The Waste-On-Wheels is a 
portable method of performing bulk sludge waste removal from the tanks. 
The WOW system will reduce the project schedule for waste removal and 
therefore reduce the risk to human health and the environment imposed 
by the highly radioactive waste.
    Complete decommissioning of seven industrial and radioactive 
facilities.--Decommissioning excess radioactive facilities will reduce 
the footprint of the site, and therefore collectively reduces risk to 
the worker by eliminating the need to enter the facilities to perform 
required, routine surveillance and maintenance activities. Risk of 
worker exposures while performing these activities is eliminated. 
Decommissioning excess radioactive facilities also eliminates the 
potential environmental and human health risk of accidental releases 
from these facilities. Decommissioning industrial facilities eliminates 
the risk to workers associated with having to maintain old facilities 
which are no longer needed but which require regular inspections or 
maintenance activities, such as roof work.

Lawrence Livermore National Laboratory--Livermore Site
    Construct, install, and operate a portable treatment unit at 
Treatment Facility D Hotspot, Treatment Facility E Hotspot, the 
northern portion of the East Traffic Circle Source Area, and the 
Treatment Facility 406 Hotspot area.--These actions will further 
prevent the release of trichloroethylene (TCE), thereby reducing risks 
to the public from exposure to contaminated groundwater.
    Remove contaminated surface soil and contaminated sandpile at 
Building 850.--These actions will mitigate risk to onsite workers, and 
will prevent further impacts to groundwater above health-based 
standards.
    Construct, install, and operate groundwater extraction and 
treatment facility.--Remediation of the high-explosive process area is 
a high priority due to the offsite migration of contaminant plumes, 
current impacts to onsite water-supply wells, and the inhalation risk 
to onsite workers. These actions will impede the migration of plumes, 
protecting offsite water-supply wells from contamination.
    Maintain closure schedules.--Three major sites, Rocky Flats, 
Fernald, and Mound, have accelerated closure schedules. In addition, 
two smaller sites, Ashtabula and Battelle-Columbus are scheduled to 
close in 2006. Funding in the fiscal year 2005 budget will allow these 
sites to remain on track toward project completion and site closure.
    At Rocky Flats, fiscal year 2005 funding provides for:
  --Completing site deinventory of legacy low-level/mixed low-level and 
        transuranic waste to off-site disposal; completing remediation 
        of 30 release sites.--During fiscal year 2005, Rocky Flats will 
        be approaching completion of their commitment to closure and 
        conversion of the Rocky Flats site for future beneficial use. 
        The buildings where plutonium and other hazardous materials 
        were used in support of the nuclear weapons deterrent will be 
        under various stages of demolition, the final quantities of 
        radioactive wastes will be removed from the site, and the 
        grounds will be receiving the necessary remediation action. 
        These actions, when complete, will allow the Department of 
        Energy to release the site to the U.S. Fish and Wildlife 
        Service to become the Rocky Flats Wildlife Refuge with little 
        or no further risk to human health or the environment.
    At Fernald, fiscal year 2005 funding provides for:
  --Completing decontamination and dismantlement of the Waste Pits 
        Complex and the East Warehouse Complex, and completion of waste 
        pits remedial action operations.--Completing the Waste Pit 
        Remediation Project will result in over 1 million tons of waste 
        pit material having been transported off-site via rail for 
        safe, compliant disposal and the D&D of the treatment facility 
        and other waste pit infrastructures. Completing these 
        activities represents a substantial risk reduction to human 
        health and the environment for the entire Fernald Closure 
        Project site. This remediation activity is being conducted in 
        an extremely safe manner considering the industrial hazards 
        involved.
  --Completing Silos 1 and 2 operations, including removal of waste 
        material, and beginning disposition of the waste for off-site 
        disposal.--Silos 1 and 2 Extraction and Treatment Operations 
        represent the greatest risk to human health and the environment 
        at the Fernald Closure Project. Silos 1 and 2 contain the 
        highest levels of radiological activity residing in any waste 
        stream at the site. The Silos 1 and 2 project constitute the 
        Site Closure Critical Path. Their successful completion is a 
        prerequisite for a timely and safe closure.
  --Completing construction of the On-Site Disposal Facility Cell 3 and 
        Cell 4 caps.--Capping Cells of the On-Site Disposal Facility 
        (OSDF) will insure the reduction in risk to human health and 
        the environment during post closure. Overall, the OSDF will be 
        composed of 8 cells, containing 2.5 million cubic yards of 
        waste soil and debris. The OSDF has been designed and 
        engineered to possess a 5-foot thick liner and a 9-foot thick 
        cap. The OSDF has a design life of 1,000 years.
    At Mound, fiscal year 2005 funding provides for:
  --Completing remediation of 37 potential release sites (65 percent of 
        remaining), including the restoration of potential release site 
        (PRS) 66.--Completing the PRS's in fiscal year 2005 decreases 
        risk by preventing any further radioactive contamination from 
        migrating into clean soil areas and ground water, by reducing 
        potential exposure to site workers and other personnel located 
        on site, and by precluding any potential environmental impacts 
        to off site areas.
    At Ashtabula, fiscal year 2005 funding provides for:
  --Completing remediation of the Waste Management Unit.--Remediating 
        the Waste Management Unit significantly reduces the remaining 
        risks of organic and inorganic chemical exposure to both soil 
        and groundwater at the RMI site.
    At Battelle-Columbus, fiscal year 2005 funding provides for:
  --Completing decontamination/stabilization of the fuel storage pool 
        and transfer canal and the high-bay area surfaces in JN-1.--
        Removing this source term will reduce the risk of 
        contamination, both internal and external, to the workers 
        during building de-construction. Removal of the source term 
        would also reduce risk to off-site areas and members of the 
        general public.
    Integrate technology development and deployment.--An integrated 
technology development and deployment program is an essential element 
for successful completion of the EM cleanup effort and for fulfilling 
post-closure requirements. The EM Technology Development and Deployment 
(TDD) program provides technical solutions and alternative technologies 
to assist with accelerated cleanup of the DOE complex.
    EM technology development and deployment investments are focused on 
high-payoff site closure and remediation problems through a two pronged 
approach: Closure Projects and Alternative Projects.
    Closure Projects.--Principal near term closure sites (such as Rocky 
Flats, Fernald and Mound) will be provided with technical support and 
quick response, highly focused technology development and deployment 
projects. The goal is to ensure that accelerated site closure schedules 
are achieved.
  --At Rocky Flats closure site, technical assistance teams will assess 
        critical technical issues and provide technology alternatives 
        including the treatment and disposition of orphaned waste 
        streams and improved methods of beryllium decontamination.
  --At Mound, innovative technologies will be developed to determine 
        and enable treatment of radioactive contaminated soil beneath 
        buildings.
  --At Fernald, the vacuum thermal desorption demonstration will be 
        completed to provide a technical solution for an orphaned waste 
        stream, and technical support to the Silos No. 1, 2, and 3 
        waste removal and disposition will be successfully completed.
  --At Oak Ridge, delineation of contamination and definition of 
        treatment feasibility for subsurface contamination will be 
        completed.
    Alternative Projects.--Alternative approaches and step improvements 
to current high-risk/high cost baseline remediation projects are our 
second focus. The goal is to enable cleanup to be accomplished safely, 
at less cost, and on an accelerated schedule. EM is focusing funds for 
fiscal year 2005 on:
  --Alternatives For Tank Waste Pretreatment and Immobilization 
        (Hanford Site, Office of River Protection);
  --Alternatives for Carbon Tetrachloride Source Term Location (Hanford 
        Site, Richland);
  --Alternatives for Disposition of High-Level Salt Waste (Savannah 
        River Site);
  --Alternatives for Remediation of Chlorinated Ethenes using Monitored 
        Natural Attenuation (Savannah River Site);
  --Alternatives for Deposit Characterization and Removal at Gaseous 
        Diffusion Plants (Portsmouth);
  --Alternatives for In situ Transuranic Waste Delineation and Removal 
        (Hanford Site, Richland); and
  --Alternatives for Non-Destructive Assay and Examination of Large 
        Transuranic Waste Containers (Savannah River Site/Carlsbad).

                               CONCLUSION

    This year has seen dramatic results demonstrating our steadfast 
belief that continuing on the accelerated path will provide the 
direction and framework to resolve the problems that lie before us. As 
with all new enterprises that seek to challenge the status quo, 
impediments will be encountered. We must not lose our momentum that has 
so earnestly been established through collaboration and a singular 
focus of delivering meaningful results for the American public.
    We are committed to employ our resources to show meaningful results 
and we are taking a very staunch view of results. The job is not done 
until it is done. We cannot be complacent, we must continue to do 
better. It is not done when we develop a plan--it is not done when we 
agree to a milestone--it is not done when we ask for funding--it is not 
done when we sign a contract--it is not done when we get money. It is 
not done until it's done and there is positive and measurable risk 
reduction for the investment.
    The only measure of success will be positive, measurable 
accomplishments of public safety and environmental protection. The 
longer we wait, the greater the potential risk. We must not lessen our 
commitment to the American people to do the ``right thing''. I ask for 
your support to continue this important work. We must avoid losing the 
opportunity to rid this legacy from our children's inheritance. We are 
safer today than we were last year and we must stay the course so we 
are safer next year than today. We have accelerated cleanup by at least 
35 years reducing lifecycle cost over $50 billion. The potential is 
there to lose what we have gained should we fail to stay true to our 
commitments.
    I look forward to working with Congress and others to achieve this 
worthy goal. I will be happy to answer questions.

                                                       EM'S COMPLEX WIDE PERFORMANCE MEASURES \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                   Actual
                                                                                                                                 Lifecycle
            Performance Measure                           Unit              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year    Through     Lifecycle
                                                                            2003 Target  2003 Actual  2004 Target  2005 Target  Fiscal Year     Scope
                                                                                                                                    2003
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pu packaged for long-term disposition......  No. Cont.....................        2,836        3,065        1,323          165        4,549        5,850
eU packaged for disposition................  No. Cont.....................          277          201          925          669        2,054        9,101
Pu/U residues packaged for disposition.....  kg Bulk......................          934        1,140          254           76      107,659      107,782
DU&U packaged for disposition..............  MT...........................        1,815        4,551  ...........  ...........        7,651      742,149
Liquid Waste eliminated....................  gallons (1000s)..............          700  ...........        1,300        1,900  ...........       88,000
Liquid Waste Tanks closed..................  No. Tanks....................            1  ...........            9            9            2          241
HLW packaged for disposition...............  No. Cont.....................          130          115          250          250        1,727       18,735
SNF packaged for disposition...............  MTHM.........................          857          807          633            1        1,446        2,420
TRU disposed...............................  m3...........................        4,522        6,372       12,952       13,678       14,092      141,314
LL/LLMW disposed...........................  m3...........................       75,030      118,362       89,815      107,067      402,568    1,155,360
MAAs eliminated............................  No. MAA's....................  ...........            1            1            1            6           14
Nuclear Facility Completions...............  No. Facs.....................            2            4            5           14           21          523
Radioactive Facility Completions...........  No. Facs.....................            7           24           45           67          148          804
Industrial Facility Completions............  No. Facs.....................           49          107          110          187          617        2,423
Geographic Sites Eliminated................  Sites........................            2            1  ...........            2           76          114
Remediation Complete.......................  No. Rel. Sites...............          214          260          200          283        5,186       10,374
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Each of EM's 16 corporate performance measures is quantitative and focuses on those materials, wastes, environmental media, and facilities that
  comprise the majority of the risk to environment, public health, and safety. When these measures are completed, the EM program has accomplished its
  mission. Each measure is tracked in the context of the total life-cycle on 2035 accelerated schedule. The corporate performance measures are under
  strict configuration control, thereby establishing performance expectations and accountability. Through strict configuration control, EM is able to
  make crucial corporate decisions that will keep the program on track, monitor and control costs, and manage site closure expectations.

    Senator Craig. Secretary Roberson, thank you very much. Now 
let me turn to Beverly Cook, Assistant Secretary, Environmental 
Safety and Health. Bev, it's great to see you in this capacity. 
I saw you more often in Idaho. I think that I saw you here, but 
at any rate, welcome to the committee. Please proceed.

                Office of Environment, Safety and Health

STATEMENT OF BEVERLY COOK, ASSISTANT SECRETARY
ACCOMPANIED BY BOB CAREY, SENIOR POLICY ADVISOR, OFFICE OF THE 
            SECRETARY, DEPARTMENT OF ENERGY

    Ms. Cook. Thank you, Senator Craig. It's good to see you 
again, too, and thank you, also, Senator Murray, for having me 
here. I appreciate this opportunity to discuss the fiscal year 
2005 budget request for the Office of Environment, Safety and 
Health. It's sometimes not very clear exactly what the EH 
organization does, so I wanted to discuss it in a little bit of 
detail.
    The mission of the Office of Environment Safety and Health 
is to ensure that the Department of Energy performs work in a 
safe, environmentally compliant manner. We fulfill that role by 
assuring that considerations of safety and health and the 
environment are integrated into all parts of the work that is 
done, in all the planning and all the execution of all the 
Department's work.
    Our budget request in fiscal year 2005 is $135 million. 
It's approximately level with that in fiscal year 2004 
appropriations. In fiscal year 2005, we will partner with the 
line management, and we will establish programs that promote 
safe and environmentally compliant conduct, work and determine 
the effectiveness of those programs, and provide improvements 
and regulations where possible and where necessary to make sure 
that those improvements happen.
    The EH budget programs are split between both Energy Supply 
and Other Defense Activities accounts, which is a little bit 
confusing at times within the energy and water development 
appropriations. However, the scope of the work in both of those 
accounts are applicable across the Department, across what we 
say and across everything that we do.
    Our activities are split in areas of program and policies 
and standards and guidance and also corporate safety programs, 
health studies, and employee compensation. In addition, we have 
a program direction account in both of those accounts that 
cover our Federal staff, and that also sometimes gets to be a 
bit difficult. Under Energy Supply account activities, we issue 
policies, standards, and guidance to assure that the people, 
property and the environment are adequately protected.
    For most DOE facilities, the DOE assumes the regulatory 
authority for safety and health as provided in the Atomic 
Energy Act. These requirements must take into account the 
unique nuclear, chemical and industrial hazards posed by the 
DOE operations, must be current with worldwide technologies, 
knowledge and experience, which is a large part of what we do, 
making sure that we stay current. We use the best available 
information.
    In 2005, our nuclear safety policies and standards will be 
enhanced to reflect updated commercial codes and standards, the 
changing DOE missions and work environments and emerging safety 
issues that are always encountered when we are working with 
hazardous materials in aging facilities. We will continue our 
interface with other agencies and organizations to ensure that 
these policies and standards are consistent with other Federal 
agencies and with the industrial regulations. We will use the 
results of the many health studies that have taken place over 
several decades to make sure that we have modified our policies 
as appropriate to protect our workers.
    Our environmental protection policies will also be enhanced 
to reflect new and emerging environmental issues and 
regulations and allow for compliance with external 
environmental protection requirements in a cost-effective 
manner. We review and provide comments on regulations developed 
by other agencies to assure that DOE's unique operations are 
fully considered and comply with those regulations, and we also 
provide them the required documentation of the Department's 
compliance with environmental standards and progress toward 
meeting those environmental goals and radiation protection and 
pollution prevention goals.
    In our DOE-wide environmental safety and health programs, 
we design programs to encourage and improve worker and nuclear 
facility safety and protect the public and environment, and 
that goes everywhere from things like the Department of Energy 
laboratory accreditation program which provides assurance that 
workers' records, exposure radiation records, are accurately 
measured and documented, and also things like the VPP program, 
the Voluntary Protection Program, which is highly recognized, 
DOE's work in that, to make sure that workers are involved in 
providing protection for themselves in their work place.
    In fiscal year 2005, EH will develop the new DOE pollution 
prevention goals for the next 5 years, and we will make sure 
that we meet DOE's responsibilities under executive orders 
related to pollution prevention and implementing of 
environmental management systems within all of our work.
    Environmental management systems are required of all 
Federal agencies and must be in place by 2005. Those require 
that you consider all environmental issues when you plan the 
work, so that you make sure they are effectively implemented. 
We will also provide cost-effective centralized environment, 
safety and health information to the DOE complex through online 
access to Environment Safety and Health industry standards, 
programs, policies and activities. We want to make sure that 
there is access to everyone to commercial standards and access 
to historical Environmental Safety and Health information to 
all people at all sites.
    One of the things that we do now, one of the things that I 
looked at this morning, is a ``rollup'' or summary of all the 
occurrences that happen within the complex every 24 hours. The 
rollup is communicated electronically throughout the complex, 
and is available to everyone. The rollup is done weekly to 
inform the Headquarters senior managers and the senior managers 
throughout the complex about what's going on, what kind of 
trends, what people are running into, and to make sure that 
they learn from the lessons of others.
    Under our Other Defense Activities account in the corporate 
safety programs, we spend much of our time looking at the 
synthesis of operational information, and through that, setting 
ESH expectations, through our contracts, through performance 
measures, and implementing of these ``lessons learned'' 
programs. Consolidating existing databases is a big part of 
what we're doing right now and will continue to do through 
2005. I will talk more later about the draft IG report.
    The Computerized Accident/Incident Reporting System (CAIRS) 
was a way of summarizing the OSHA-type statistics although it 
is not our only way of collecting information. In the past, 
information was shared by circulating paper reports. We 
recognized that over a year ago that was not effective and that 
there was a great time delay between the occurrences and 
entering the paper information into the electronic system. 
We've made a concerted effort over the last year to make sure 
that we move to a fully electronic system with daily input and 
weekly checks to make sure that the information is accurate. 
We're working with the IG so that they fully understand the 
changes that have happened to those systems and to make sure 
that we no longer have a time delay in sharing information.
    We have consolidated the quality assurance responsibilities 
of the Department within the Office of Environment Safety and 
Health and are making sure that we strengthen our quality 
assurance methodologies. The RESL Program at Idaho, the 
Radiological Environmental Science Laboratories, is now under 
the purview of the Office of Environment Safety and Health.
    In that laboratory we do analytical chemistry and radiation 
exposure assessments, environmental sampling and certification, 
and quality assurance. We also ensure that the data are 
accurate as well as technically and legally defensible. We 
continue to provide immediate environment safety and health 
support, everything from accident investigations to 
authorizations on a facility authorization basis. We 
investigate safety allegations, perform special reviews on 
nuclear hazards, fire protection, and a wide range of 
operations.
    EH also carries out the statutory mandate for the Price-
Anderson Amendments Act, where we enforce compliance of the 
Code of Federal Regulations' nuclear safety requirements. In 
fiscal year 2005, we will begin enforcement of worker 
occupational safety and health requirements.
    Our health responsibilities, which are under the Other 
Defense Activities account, cover a wide range of issues. They 
include occupational health, public health and epidemiological 
studies and international health studies; international studies 
make up the largest part of the EH budget. Under occupational 
health, we will provide the medical screening that we provide 
to our former workers at the Defense nuclear complex. We will 
also try to upgrade our occupational medical services by 
integrating it throughout the complex by including it in our 
contracts, to make sure that we've got consistent and reliable 
occupational medicine services across the complex.
    We also will continue to support the Radiation Emergency 
Assistance Center training site at Oak Ridge, the REAC/TS, 
which provides rapid response for medical expertise and 
training to address radiological accidents. Supporting REAC/TS 
is critically important, especially when we move into concerns 
about terrorist events.
    Under public health, we will continue to fund the 
independent program of energy-related epidemiological studies 
that are done by HHS for us at DOE facilities. Many of those 
studies, however, are coming to an end. In fiscal year 2005 
some of those studies will require fewer dollars as they come 
to the end. We document and publish the studies that have been 
done. This concerns not only the communities surrounding our 
sites but also our current and our former workers included in 
those studies.
    Finally, EH supports several international health programs. 
Those include studies in Russia and in Japan of radiation-
exposed populations. The Russian studies are very relevant and 
very interesting because they concern the kinds of exposures 
that we've seen in some of our more exposed populations within 
the DOE complex in the past. We also provide the support for 
medical surveillance and environmental monitoring in Spain and 
the Marshall Islands.
    The Energy Employees Occupational Illness Compensation 
Program is funded within the EH budget, and as you have seen in 
our fiscal year 2005 budget submittal, there is a significant 
increase. This is because we have recognized that the number of 
applications greatly exceeded our original expectations, and 
the Department is actively and aggressively pursuing a 3-year 
program to completely eliminate the backlog of applications by 
the end of fiscal year 2006. It will require significant 
funding to do that. We have also implemented some reforms to 
effect those improvements to get to that point.
    Finally, let me just say a few words about our program 
direction funding. As I said, it's in two different accounts. 
We perform critical functions with Federal staff to directly 
support the missions of the Department. It requires expertise 
in developing overall environmental safety and health policies 
for the DOE sites and the facility operations. We've taken 
many, many steps over the last year and a half to streamline 
our operations.
    We've developed efficient processes such as reducing travel 
or other fixed costs through use of video conference 
capabilities to provide the training and information that's 
necessary in the complex in everything from consolidating 
office space to anything else we could think about. The number 
of Federal employees in EH has decreased by almost half over 
the last 5 years; that's a huge decrease.
    Large funding reductions in fiscal year 2004 put at risk 
EH's ability to meet the demands of the DOE complex. We have to 
prioritize what we do and where we assist the program offices.
    The requested funding level in fiscal year 2005 will 
restore the level of resources commensurate with the 
responsibilities of the office, and I think that is critical to 
do.

                           PREPARED STATEMENT

    So thank you for this opportunity. I believe our 
administration's 2005 budget request for the Office of 
Environment Safety and Health reflects the level of funding 
that is needed to protect the workers and the public in our DOE 
sites in a cost-effective manner. I'd be happy to answer any 
questions that you have.
    [The statement follows:]

                   Prepared Statement of Beverly Cook

    Mr. Chairman, Members of the subcommittee, I appreciate the 
opportunity to testify on the fiscal year 2005 President's Budget 
request for the Office of Environment, Safety and Health (EH).
    The mission of the Office of Environment, Safety and Health is to 
ensure that the Department of Energy (DOE) performs work in a safe and 
environmentally compliant manner. EH fulfills that role by assuring 
that consideration for the safety and health of the DOE workforce and 
members of the public and protection of the environment are integrated 
into the planning and execution of all Departmental activities.
    The Office of Environment, Safety and Health fiscal year 2005 
budget request is $135 million, approximately level with the fiscal 
year 2004 appropriation. This level of funding allows EH to leverage 
its resources and personnel to provide DOE's line management programs 
with essential environment, safety and health performance expectations; 
management tools to promote the safe conduct of work; environment, 
safety and health performance measures and analysis; and guidance for 
the protection of the environment in and around DOE sites. Integral to 
the Department's success is EH's skill in fostering increased awareness 
and providing support to line management throughout the Department 
using open and easily accessible communications tools. Our goal is to 
provide the safety infrastructure that allows for and promotes the safe 
and environmentally responsible conduct of work.
    EH has traditionally filled the role of setting regulations and 
standards, and then providing independent oversight and enforcement to 
ensure the Department's compliance with those standards. The 
independent oversight functions were moved from EH in 2002, allowing EH 
to provide corporate environment, safety and health services. EH now 
serves as a partner with DOE Line Managers to establish programs that 
promote the safe and environmentally compliant conduct of work, to 
determine the effectiveness of those programs and to improve the 
programs and regulations when necessary.
    In support of the President's Management Agenda, EH underwent a 
dramatic restructuring in 2003 to better perform its new role within 
the DOE. The restructuring allowed for cutting management layers, 
placing greater emphasis on corporate performance and quality 
assurance, and focusing more on e-government initiatives by 
consolidating databases and other electronic information management 
functions. The implementation of the new organization is continuing 
through 2004. The major challenge in 2005 will be succession planning. 
It is the responsibility of EH to assure appropriate technical 
expertise is available to support environment, safety and health 
concerns. As more of the DOE complex reaches retirement age, we are 
concerned that the necessary technical expertise may be lost, both in 
the headquarters and field operations, and in EH, where corporate 
expertise to support the program activities is required.
    The scope of work performed by EH staff is multifaceted. I will now 
provide you with a description of the specific activities identified in 
the President's request for the Office of Environment, Safety and 
Health.

     ENVIRONMENT, SAFETY AND HEALTH FISCAL YEAR 2005 BUDGET REQUEST

    The Environment, Safety and Health programs are split between the 
Energy Supply and Other Defense Activities accounts within the Energy 
and Water Development appropriation. However, the scope of work often 
cuts across these funding lines because of the generic nature and cross 
cutting applicability of the work performed by EH. It is important that 
a framework is in place that is clear and easily understood by the DOE 
Federal and Contractor workforce, and the overall safety and 
environment goals of the Department are consistent throughout the DOE 
complex.

                             ENERGY SUPPLY

    Fiscal Year 2004 Comparable Appropriation--$22,564,000: Fiscal Year 
2005 Request--$30,474,000.
    EH activities funded within the Energy Supply appropriation are 
concentrated into two programmatic areas: Policy, Standards and 
Guidance and DOE-Wide Environment, Safety and Health Programs. In 
general, work funded under this account is applicable to all of the DOE 
operations. In addition, a Program Direction decision unit includes 
funding for a portion of EH Federal staff and all of the EH Working 
Capital Fund.

Policy, Standards and Guidance
    Fiscal Year 2004 Comparable Appropriation--$1,799,000; Fiscal Year 
2005 Request--$4,205,000.
    Policy, standards and guidance are issued to assure that people, 
property and the environment are adequately protected from the hazards 
of DOE activities. For most DOE facilities, DOE assumes direct 
regulatory authority for safety and health as provided by the Atomic 
Energy Act of 1954, as amended. Safety and quality assurance policy, 
standards and guidance must therefore take into account the unique 
nuclear, chemical and industrial hazards posed by DOE operations and 
must be current with worldwide technologies, knowledge and experience. 
EH must establish nuclear and facility safety requirements and 
expectations for working with workplace hazards and safety issues 
unique to our operations.
    In fiscal year 2005, DOE nuclear and facility safety policies and 
standards will be enhanced to reflect updated commercial codes and 
standards, changing DOE missions and work environments, and emerging 
safety issues that are encountered continuously when working with 
hazardous materials and in aging facilities. We will continue our 
interface with the Occupational Safety and Health Administration, the 
U.S. Nuclear Regulatory Commission, the National Aeronautics and Space 
Administration, and Federal Departments of Transportation, Health and 
Human Services, Homeland Security, and the Defense Nuclear Facilities 
Safety Board to ensure DOE policies and standards are consistent with 
other Federal and industry regulations and are based on best available 
information. EH will also maintain close ties with national and 
international standards and regulatory bodies and various industry 
groups, such as the Institute of Nuclear Power Operations and the 
Energy Facilities Contractors Group. In fiscal year 2005, EH will 
continue to utilize the results of epidemiologic studies performed 
under other parts of the EH programs and modify worker safety and 
health policies as appropriate to improve protection of the workers. EH 
will also strengthen the Federal Employee Occupational Safety and 
Health program, which provides for protection of our Federal workforce.
    Environmental protection policies will also be enhanced to reflect 
new and emerging environmental issues and regulations. EH will assist 
Programs to comply with external environmental protection requirements 
in a cost-effective manner and continue to develop timely guidance to 
assure understanding of newly promulgated environmental requirements. 
We will review and provide agency comments on regulations under 
development by other agencies, to assure that DOE's unique operations 
are fully considered. EH will also provide the required documentation 
of the Department's compliance with environmental standards and 
progress towards meeting performance goals for radiation protection and 
pollution prevention.
    The increase in this account is due to moving the technical 
standards activities from DOE-Wide programs to Policy standards and 
guidance. This puts all of the policy and standards setting activities 
into one account. Increased membership fees for participation in the 
industry nuclear power group are also included.

DOE-Wide Environment, Safety and Health Programs
    Fiscal Year 2004 Comparable Appropriation--$5,068,000: Fiscal Year 
2005 Request--$5,795,000.
    EH's DOE-Wide Environment, Safety, and Health (ES&H) Programs are 
designed to encourage and improve worker and nuclear facilities safety 
and protect the public and the environment. EH has developed state-of-
the-art analysis tools and approaches, due to the unique nature and mix 
of radioactive, hazardous, and toxic materials at DOE facilities.
    EH has responsibility for the Department of Energy Laboratory 
Accreditation Program (DOELAP). DOELAP is an accreditation 
(certification) program that provides assurance that worker radiation 
exposures are being accurately measured. DOE's nationally recognized 
Voluntary Protection Program (VPP), managed by EH, has resulted in 
enhanced worker safety protection. In fiscal year 2005, DOE will 
continue to re-certify DOE contractor VPP status and evaluate new 
applications for VPP status.
    In fiscal year 2005, EH will develop new DOE pollution prevention 
goals for recycling and reduced toxic chemical use. Consistent with the 
new, Department-wide pollution prevention program plan to be developed 
during fiscal year 2004, EH will provide a roadmap for continuous 
improvement in DOE's pollution prevention efforts. We will also provide 
instruction and guidance to meet DOE's responsibilities under Executive 
Orders related to pollution prevention and implementation of 
environment management systems. EH will continue to guide all DOE 
programs in their planning and execution of complete National 
Environmental Policy Act (NEPA) analyses and conduct independent 
compliance assurance reviews for more than 15 major Environmental 
Impact Statements and related documents.
    EH provides cost-effective management of centralized environmental, 
safety, and health information to the DOE complex. We will provide on-
line access to environment, safety and health related industry 
standards, programs, policies and activities; access to a commercial 
standards subscription service; and access to historical environmental 
safety and health information for all DOE operations and sites.
    The slight increase in this account is the net result of a large 
increase in the resources required to implement the new Worker Safety 
and Health rule, coupled with a decrease from moving the technical 
standards work to the Policy, Standards and Guidance account.

Program Direction
    Fiscal Year 2004 Appropriation--$15,697,000; Fiscal Year 2005 
Request--$20,474,000.
    Program Direction in this account provides overall support for EH 
staff responsible for Energy Supply programs, includes salaries, 
performance awards and other benefits; all costs of transportation and 
expenses for Federal employees in accordance with Federal Travel 
Regulations; the EH Working Capital Fund for all EH staff, including 
those with salaries paid under Other Defense; and training for Federal 
staff. The Working Capital Fund provides for non-discretionary prorated 
costs for items such as space utilization, computer and telephone 
usage, mail service, and supplies. Also included is funding for 
competitive sourcing studies.
    EH performs critical functions which directly support the mission 
of the Department. The EH mission requires experts to develop overall 
environment, safety, and health policy for DOE sites and facility 
operations and to provide a central and coordinated source of technical 
expertise to all field elements. EH provides a central clearing house 
for information, and analysis and feedback regarding new efforts, 
present activities, and unforeseen occurrences taking place at the 
multitude of diverse facilities within the DOE complex.
    EH has taken many steps to streamline and develop more efficient 
internal processes in order to reduce costs. For example, EH has 
reduced travel and other fixed costs through the use of video 
conference capabilities and other innovative techniques. Furthermore, 
the number of Federal employees in EH has decreased by almost half in 
the last 10 years. However, the large funding reductions in fiscal year 
2004 put at risk EH's ability to meet the demands of the DOE complex. 
Therefore, the increase in fiscal year 2005 will restore the level of 
resources commensurate with the roles and responsibilities of the 
office.

                         OTHER DEFENSE PROGRAMS

    Fiscal Year 2004 Comparable Appropriation--$119,366,000; Fiscal 
Year 2005 Request--$104,519,000.
    The EH Other Defense Activities are concentrated into three 
accounts: Corporate Safety Programs, Health Studies and Employee 
Compensation. These activities address the needs and issues related to 
a variety of Defense related program activities being conducted by the 
Department. In addition, a Program Direction decision unit includes 
funding for the salaries and benefits of a portion of the EH Federal 
staff and their travel and training.
    The fiscal year 2005 budget request also includes funding for two 
Other Defense Activities programs that were transferred to EH from the 
Office of Environmental Management (EM) in fiscal year 2004. These are: 
(1) the Radiological and Environmental Sciences Laboratory (RESL) at 
Idaho, and (2) the Analytical Services Program. These programs help to 
ensure that analytical laboratory data and worker radiation exposure 
and environmental samples are of high quality and reliability. These 
programs support the quality of data used throughout the Department and 
are more closely aligned with EH's quality assurance function than EM's 
mission of accelerated risk reduction and site closure.

Corporate Safety and Health Program
    Fiscal Year 2004 Comparable Appropriations--$9,032,000; Fiscal Year 
2005 Request--$10,883,000.
    The Corporate Safety Program serve a crosscutting safety function 
for the Department and its stakeholders in assessing, achieving and 
assuring excellence and continuous improvement in safety management and 
performance in the conduct of its missions and activities. Several 
tasks are included in Corporate Safety Program.
    In fiscal year 2005, EH will provide analysis and certification of 
DOE's performance in protecting the public, workers, and the 
environment by synthesizing operational information. This supports 
decision-making and continuous ES&H improvement across the DOE complex. 
We will support the setting of ES&H performance expectations through 
contracts and performance measurements and implement a lessons learned 
program. Our ES&H web sites and web-based database systems will be re-
engineered in fiscal year 2005 to consolidate existing databases and 
utilize the most recent technology to distribute information in an 
efficient and effective manner. Because EH now has overall 
responsibility for DOE Quality Assurance, we will provide quality 
assurance information, corporate policy and guidance, and certification 
for activities such as Contractor Self-Assessment Programs. We will 
conduct performance evaluation and accreditation, technical support and 
measurements, and quality assurance methodologies through RESL. EH will 
also provide a process to ensure DOE environmental data is of high 
quality and reliability as well as technically and legally defensible. 
The increase in this account reflects the implementation of EH's new 
responsibilities related to Department-wide quality assurance.
    To address immediate environment, safety and health issues, EH will 
perform accident investigations, facility authorization basis reviews, 
and safety allegation investigations. We will also conduct special 
safety reviews of nuclear hazards, criticality safety, seismic 
analysis, fire protection, emergency operations, facility design, and 
the startup and restart of facilities upon request of the Program 
offices. EH will continue to carry out the statutory mandate of the 
Price-Anderson Amendments Act of 1988 to enforce compliance with Code 
of Federal Regulations nuclear safety requirements at DOE sites and 
begin enforcement of the Worker Occupational Safety and Health Rule.

Health
    Fiscal Year 2004 Comparable Budget--$67,335,000; Fiscal Year 2005 
Request--$45,222,000.
    The EH Health responsibilities are to establish and enhance the 
scientific bases for standards that provide levels of protection 
appropriate to the risk of the hazards present at DOE sites. This 
responsibility is included in four general areas: Occupational Health 
(corporate occupational medicine policy); Public Health (community 
bases health studies); Epidemiologic Studies (analysis and 
communication of worker injury and illness information); and 
International Health Studies.
    There are several activities related to occupational health. 
Targeted medical screening will be provided to former workers of DOE's 
defense nuclear complex. Standards, policies, and corporate resources 
will be provided to efficiently delivery quality occupational medical 
services in an integrated manner to the current DOE workforce. In 
fiscal year 2005, EH will work to implement occupational medicine model 
contract language to ensure adequate and integrated occupation health 
programs at all DOE sites. EH will continue to support the Radiation 
Emergency Accident Center/Training Site (REAC/TS), which provides rapid 
response medical expertise and training to address radiological 
accidents.
    Public health will be addressed through independent energy-related 
epidemiologic studies relevant to DOE workers and neighboring 
communities by the National Institute for Occupational Safety and 
Health, the National Center for Environmental Health, and the Agency 
for Toxic Substances and Disease Registry. These studies will inform 
the DOE and stakeholders of any adverse health impacts that DOE 
operations may have had on DOE workers and the public. In addition, DOE 
epidemiologic studies will be conducted that collect and analyze both 
medical and exposure data information for both current DOE workers and 
the public.
    EH will support several international health program studies in 
order to upgrade and validate our knowledge of radiation health effects 
among workers and populations exposed to ionizing radiation or 
environmental contamination. DOE and the National Cancer Institute will 
jointly sponsor international studies to determine if there are any 
adverse health effects from exposure to radiological contamination from 
Chernobyl on the populations of Belarus, Ukraine, and Chernobyl cleanup 
workers, and epidemiologic studies of Russian workers at the Mayak 
Production Facility and other facilities in Russia. These studies will 
identify the level of radiation exposure where adverse health effects 
can be demonstrated for a large worker population exposed to low and 
moderate levels of radiation over a working lifetime and support the 
establishment of international and national radiation protection 
standards and policy. The DOE and Spain jointly sponsored Project 
Indalo will provide support for medical surveillance and environmental 
monitoring of the spread of plutonium contamination on a few hundred 
acres of land in southern Spain. In addition, EH will provide special 
medical care for a specific group of radiation-exposed individuals in 
the Marshall Islands and support the Radiation Effects Research 
Facility (RERF) in Japan, which conducts epidemiologic studies and 
medical surveillance for the Hiroshima and Nagasaki exposed population.
    A decrease in this account reflects the absence of some programs 
that were congressionally directed in fiscal year 2004 and an 
assumption of reduced funding for certain international studies as they 
approach their conclusion.

       ENERGY EMPLOYEES OCCUPATIONAL ILLNESS COMPENSATION PROGRAM

    Fiscal Year 2004 Comparable Appropriation--$25,646,000; Fiscal Year 
2005 Request--$43,000,000.
    The Energy Employees Occupational Illness Compensation Program Act 
of 2000 (EEOICPA) authorized DOE to establish a process to assist 
employees of DOE contractors and their survivors with their 
applications for State workers compensation benefits. Around the time 
that EEOICPA was passed in 2000, and given the complexity of the 
process mandated in the authorizing legislation and the expected 
complexity of the physician panel reviews to be conducted, DOE had 
planned that it would take 10 years to completely review all 
applications. However, as the number of applications greatly exceeded 
original expectations, and the applicants' immediate need for this data 
to effectively pursue State workers compensation claims became clear, 
the Department has pursued a 3-year program to completely eliminate the 
backlog of applications by the end of fiscal year 2006.
    The fiscal year 2005 budget includes $43 million to maintain the 
accelerated schedule for EEOICPA activities. Together with additional 
funds reprogrammed from fiscal year 2003 and additional funds that have 
been requested to be reprogrammed in fiscal year 2004, this funding 
should enable DOE to significantly expedite the process through fiscal 
year 2004, complete the processing of all applications currently on 
file with DOE in fiscal year 2005, and completely process all of these 
applications through the Physicians Panels in fiscal year 2006. The 
Department has also implemented reforms that have already improved 
performance. In August 2003 the program processed 30 cases per week. 
But with process improvements and the final approval in fiscal year 
2003 of $9.7 million in transferred funds in September 2003, the rate 
has more than tripled to over 100 per week, and continues to rise. The 
Department also recently made changes to its regulations to expedite 
the processing of applications and currently is discussion with other 
Federal agencies and stakeholders possible legislative changes to 
address impediments to effective program implementation.
    The significant increase in this account for fiscal year 2005 
supports expedited processing of applications.

Program Direction
    Fiscal Year 2004 Comparable Appropriation--$17,853,000; Fiscal Year 
2005 Request--$20,414,000.
    Program Direction in this account provides for the salaries and 
benefits of a portion of the EH Federal staff, their travel and 
training. The Working Capital Fund, the non-discretionary prorated 
costs for items such as space utilization, computer and telephone 
usage, mail service, and supplies for all EH staff, is budgeted under 
the Energy Supply account. In this account, Program Direction also 
includes funding to support the Federal RESL and the Analytical 
Services Program staff. As with the Energy Supply account, the large 
funding reductions in fiscal year 2004 put at risk EH's ability to meet 
the demands of the DOE complex. Therefore, the increase in fiscal year 
2005 will restore resources commensurate with the roles and 
responsibilities of the office.

                               CONCLUSION

    Mr. Chairman, we believe the administration's fiscal year 2005 
budget request for the Office of Environment, Safety and Health 
reflects a level of funding to ensure protection of the workers and 
public near DOE sites and allows for the accomplishment of the critical 
work performed by DOE in a cost effective manner. It is critical that 
the Federal Government maintain the expertise to evaluate and direct 
operations to maintain a level of safety and environmental compliance 
the public and the Congress expects.
    This completes my prepared statement, and I am happy to answer any 
questions the subcommittee may have.

    Senator Craig. Secretary Cook, thank you very much for 
being before the committee this morning. Now let us turn to Dr. 
Margaret Chu, Director, Civilian Radioactive Waste Management. 
Doctor, welcome again before the committee.

            Office of Civilian Radioactive Waste Management

STATEMENT OF MARGARET CHU, DIRECTOR
    Dr. Chu. Thank you, Senator Craig and Senator Murray. I 
very much appreciate the opportunity to present our fiscal year 
2005 budget request from the Office of Civilian Radioactive 
Waste Management. Our key objective is to begin receiving waste 
at Yucca Mountain in 2010. The schedule is tight and the 
consequences of delay are enormous. Fiscal year 2005 is a 
critical year in which important activities must be initiated 
and start to converge. Our total budget request is $880 
million. While this is an increase over historical funding 
levels, it is one that has been understood and carefully 
planned for many years.
    We are positioned to commit funds responsibly and 
effectively. Out of the total budget request of $880 million, 
the amount requested for the Repository Project is $559 
million. Our foremost funding priority is to meet our 
longstanding goal of submitting a high quality license 
application to the NRC in December of 2004. We are on track.
    Quality and completeness are paramount. The application we 
submit will meet NRC's regulatory requirements and be 
docketable by the NRC. After the license application is 
delivered, we must be prepared to respond to queries and 
requests that NRC will make during the review. We expect that 
NRC's review would be very thorough and very rigorous, and our 
objective is to provide information in a timely and effective 
manner to support completion of NRC's review within the 
statutorily established time period.
    There will also be continuing technical work, including 
ongoing testing programs as part of the performance 
confirmation. In parallel with the licensing process, we must 
focus on detailed repository design and ensure that the site is 
ready to support construction as soon as it is authorized by 
the NRC. We will be initiating activities related to long lead 
time procurements, prototyping and testing of engineered 
components and equipment, and we are also requesting funds to 
address safety-related needs at the site.
    In the area of transportation, our request is $186 million. 
One of the key activities will be the first phase of 
acquisition of long lead-time transportation casks and 
equipment which must begin now to provide the capability for 
waste acceptance in 2010. We are working with industry to 
procure an efficient cask fleet with the minimum number of 
separate designs. We will support expanded institutional 
interactions as we begin to establish preliminary routes, 
operating protocols and safeguard and security activities. We 
will continue to work on policy for emergency response training 
and technical assistance as required by the Nuclear Waste 
Policy Act.
    State and tribal officials and other stakeholders will play 
an integral part in our transportation planning. In the area of 
Nevada transportation, we recently announced a preferred rail 
corridor and the proposed work in fiscal year 2005 includes 
completion of conceptual design and the beginning of 
preliminary design activities and issuance of the draft 
environmental impact statement for the rail alignment.
    Some of this is contingent on the Department's issuing a 
record of decision selecting a mode of transportation and a 
rail corridor as appropriate. We expect to issue the decision 
very shortly.
    Finally, many of us, including the Congress, have been 
aware for many years that funding requirements for Yucca 
Mountain would increase substantially as we approach 
construction and transportation system development. Historical 
appropriation levels will not be sufficient to meet these 
needs. Since 1995, the cumulative shortfall of funds between 
requested and appropriated amount exceeded $700 million. A 
mechanism must be put in place now to allow the program to have 
ready access to the Nuclear Waste Fund without being 
constrained by funding pressures from other programs.
    In accordance with the funding approach established in the 
Nuclear Waste Policy Act, the Department collects fees from 
nuclear utilities for the disposal of their spent nuclear fuel. 
In fiscal year 2005, an estimated $749 million will be 
collected. The resources are there and we should not delay in 
making them available for their intended purpose.
    Secretary Abraham has recently sent proposed legislation to 
the Congress that would reclassify the annual receipts that are 
deposited into the Nuclear Waste Fund as discretionary and 
credit them as offsetting collections. Under this proposal, the 
proposal will continue to be subject to an annual appropriation 
process and continue to be under Congress' oversight, however, 
without having to compete with other programs for funds.
    If sufficient appropriations are not available, the Nation 
will not have an operating repository in 2010. Delays will mean 
an additional cost of nearly a billion dollars per year for 
waste sites to continue to provide temporary storage. The 
country would be forced to spend billions of dollars in this 
scenario without solving the problem.

                           PREPARED STATEMENT

    In conclusion, we are ready to submit a high-quality 
license application to the NRC in December of 2004 and we are 
committed to begin operations at a licensed repository in 2010. 
We have reached a point where investment must be made in 
transportation, repository and waste acceptance readiness. I 
urge your support for our budget request to accomplish this 
vital national mission. Thank you very much.
    [The statement follows:]

                   Prepared Statement of Margaret Chu

    Mr. Chairman and members of the Committee, I am Margaret Chu, 
Director of the Department of Energy's (DOE) Office of Civilian 
Radioactive Waste Management (OCRWM). I appreciate the opportunity to 
present our fiscal year 2005 budget request and discuss our plans to 
license, build, and operate a geologic repository at Yucca Mountain in 
Nevada, and our efforts to develop the transportation system needed to 
deliver spent nuclear fuel and high-level radioactive waste to the 
repository.
    OCRWM implements our Nation's radioactive waste management policy, 
as established by the Nuclear Waste Policy Act of 1982, as amended. 
This policy requires safe, permanent geologic disposal of spent nuclear 
fuel and high-level radioactive waste resulting from the Nation's 
atomic energy defense activities. The disposal of this material in a 
geologic repository is required to maintain our energy options and 
national security, to allow the cleanup of former weapons production 
sites, to continue operation of our nuclear-powered vessels, and to 
advance our international nonproliferation goals. The Department's 
consolidation of spent nuclear fuel and high-level waste from 127 sites 
at a single secure, remote location is vital to our national interest. 
The Federal Government is contractually required to implement a 
permanent solution for management of commercial spent nuclear fuel, in 
return for which utilities and ratepayers have paid fees to cover the 
costs of disposal.

                           THE 2010 OBJECTIVE

    The Program's key objective remains to begin receiving waste at the 
Nuclear Regulatory Commission (NRC) licensed Yucca Mountain repository 
in 2010. To achieve that objective, the Program must, in less than 7 
years, seek and secure authorization to construct the repository from 
the NRC, begin constructing the repository, and receive a license 
amendment allowing receipt of waste and operation of the repository. We 
must also develop a transportation system to transport waste from 
civilian and defense storage sites to the repository. That is a tight 
schedule, and the consequences of delay are significant.
    For every year of delay beyond 2010, the cost of storing and 
handling Departmental defense waste alone is estimated to increase by 
$500 million. Regarding the nuclear utilities, the government's 
liability for damages for not beginning to take commercial spent fuel 
in 1998 already has been established by court decisions. While an 
accurate calculation of damages must await determinations by the 
courts, it is reasonable to assume that the amount of damages will be 
substantial and will increase with each year of delay.
    Meeting the 2010 objective will require much greater resources than 
the Program has thus far received. We estimate, for example, that from 
2005 to 2010 it will cost about $8 billion--more than 80 percent of the 
budget required to meet the 2010 objective--to construct the repository 
and develop the transportation system. That would average more than $1 
billion a year, which is much higher than our previous annual 
appropriations.

                  THE FISCAL YEAR 2005 BUDGET REQUEST

    Fiscal year 2005 is a critical year in which important activities 
must converge if we are to meet the 2010 objective. In fiscal year 
2005, we will be fully engaged in the licensing process. At the same 
time, we must initiate certain activities in the near term to permit 
timely construction and ensure readiness for operations. These 
activities, in the areas of repository readiness and detailed design, 
transportation system development, and waste acceptance readiness--
along with licensing activities--lead to our total budget request for 
fiscal year 2005 of $880 million. While this is a significant increase 
over historical funding levels, it is an increase that has been 
carefully planned and understood for many years. We are confident that 
we are positioned to commit funds responsibly and effectively to defend 
the license application; to accelerate repository surface, subsurface, 
and waste package design work needed for construction authorization; 
and to conduct conceptual and preliminary design activities for Nevada 
transportation. Moreover, a major portion of the increase represents 
procurements, including transportation cask acquisition and important 
repository site safety infrastructure upgrades.
    To set the stage for our fiscal year 2005 budget request, I would 
like to briefly describe OCRWM's fiscal year 2003 accomplishments, our 
ongoing activities based on our fiscal year 2004 appropriation, and our 
goals for fiscal year 2005.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    Having achieved Congressional and Presidential approval of the 
Yucca Mountain site in 2002, we successfully transitioned from a 
scientific study program to one focused on the regulatory requirements 
for obtaining a license from the NRC. We targeted five areas critical 
to licensing success in a broad Management Improvement Initiative: 
roles, responsibilities, authority and accountability; Quality 
Assurance; procedural compliance; the Corrective Action Program; and 
Safety Conscious Work Environment. We implemented a Program-wide 
functional realignment to create an organization focused on licensing, 
and we strengthened our Federal management team by bringing on board 
several senior managers with extensive experience in managing major 
Federal projects. These actions have positioned us to be a successful 
NRC licensee and to meet requirements for operating a repository 
safely, and will continue into fiscal year 2005.
    Fiscal year 2003 brought significant challenges to our Program. The 
limited funding provided during the continuing resolution and the final 
fiscal year 2003 appropriation of $457 million, which was $134 million 
below our request, required us to institute contingency plans, reduce 
near-term work scope, and further delay transportation activities that 
are directly tied to our ability to meet the 2010 objective. Rather 
than stretch our resources and risk the safety of our workers, we 
elected to partially close the Yucca Mountain site and to defer some 
work there. The focus of our efforts under these constraints was to 
maintain our goal of submitting a high-quality license application to 
the NRC in December 2004.
    The Program prepared a conceptual design and a detailed plan for 
repository licensing, construction, and operation, and focused on 
completing the license application to the NRC for authority to 
construct the repository. By the end of fiscal year 2003, the Yucca 
Mountain Project had accomplished the following:
  --Completed the conceptual design of the repository surface and 
        underground facilities and waste package elements sufficient 
        for development of the preliminary design for the license 
        application.
  --Completed materials testing and analyses required to support the 
        license application design for the waste package and surface 
        and subsurface facilities.
  --Completed testing data input for the Total System Performance 
        Assessment Post-closure Report, to be included in the license 
        application.
  --Initiated the development of the license application document.
  --Identified Project records and technical documents that will be 
        included in the licensing support network.
    In addition, during fiscal year 2003, the OCRWM National 
Transportation Project drafted the ``Strategic Plan for the Safe 
Transportation of Spent Nuclear Fuel and High-Level Radioactive Waste 
to Yucca Mountain'', which was issued in November 2003.
    Throughout the Program, we implemented management improvements 
identified in the President's Management Agenda. In fiscal year 2003, 
DOE was ranked number one among all Federal agencies in implementation 
of the President's Management Agenda.
    During fiscal year 2003, the Program launched its new and more 
rigorous Corrective Action Program (CAP) software system. The new CAP 
combined condition, nonconformance, and technical error reports, and 
the condition/issue identification and reporting/resolution system into 
a single entry point process.

                  FISCAL YEAR 2004 ONGOING ACTIVITIES

Yucca Mountain Project
    Consistent with Departmental and Program objectives, the Yucca 
Mountain Project's main focus in fiscal year 2004 is on completing the 
license application. The required elements of preliminary design, 
performance assessment, safety analyses, and technical data in the 
license application must be sufficient for the NRC to conduct an 
independent review and reach a decision to issue a construction 
authorization. The application must demonstrate that the repository can 
be constructed and operated with reasonable expectation that the health 
and safety of the public will be protected.
    By the end of fiscal year 2004, with the funds appropriated, we 
will:
  --Address all ``key technical issue'' agreements that the Department 
        and NRC agree the Program needs to address prior to license 
        application submittal.
  --Complete required elements of the preliminary design for the waste 
        package, surface facilities, and subsurface facilities in 
        support of the license application.
  --Complete the safety analyses for Department-owned spent nuclear 
        fuel and high-level radioactive waste, and Naval spent fuel for 
        the license application.
  --Complete the total system performance assessment postclosure report 
        in support of the license application. This report will reflect 
        increased understanding of how emplaced nuclear waste will 
        interact with the natural and engineered barriers after the 
        repository is closed.
  --Prepare tens of millions of pages of relevant documentation for 
        inclusion in the electronic Licensing Support Network (LSN) and 
        completed certification consistent with the requirements of 10 
        CFR Part 2, Subpart J.
  --Complete a draft of the license application.
    Even though site characterization is complete, in fiscal year 2004 
we are continuing to collect valuable scientific information for the 
Performance Confirmation baseline. The NRC requires Performance 
Confirmation to continue until the repository is permanently closed.

National and Nevada Transportation Projects
    As noted previously, we issued the ``Strategic Plan for the Safe 
Transportation of Spent Nuclear Fuel and High-Level Radioactive Waste 
to Yucca Mountain'' in November, which described the Department's 
process for working cooperatively with States, tribes, and other 
interested parties as the transportation system is developed. In early 
fiscal year 2004, the transportation program focused on selecting the 
transportation mode and corridor that would establish the 
transportation system's infrastructure requirements. In December 2003, 
we announced a preferred corridor for development of a branch rail line 
in Nevada to connect from an existing rail line to the Yucca Mountain 
site. The program is now defining infrastructure development projects 
to provide the capability for transporting spent nuclear fuel and high-
level waste to the repository. Funding in fiscal year 2004 represents 
initial investments in major transportation infrastructure needs, 
including transportation casks, rolling stock, the transportation 
system in Nevada, a fleet maintenance facility, and the business 
systems needed to manage multiple procurements and construction 
projects.

Program Management and Integration
    A key component of the Program Management and Integration budget 
element is Quality Assurance (QA). In the last year, we have made 
significant progress in the implementation of our QA program 
requirements. We have had several independent assessments that have 
determined that the QA program is being effectively implemented. We 
have also completed the actions and closed several of the significant 
QA issues that have been open for extended periods of time. Finally, we 
are preparing a major revision to our QA program document in support of 
the license application.
    During this fiscal year, we have taken several steps to ensure we 
are prepared to manage major capital projects efficiently and cost-
effectively. We submitted a detailed Capital Asset Management Plan for 
the Program to the Office of Management and Budget in November 2003, 
and are now working to complete a comprehensive program acquisition 
strategy that will be incorporated in the next update of the Plan next 
fall. We have strengthened our performance measurement and project 
management capabilities and systems, and are using them to monitor and 
manage all the activities that support license application completion.

                    FISCAL YEAR 2005 KEY ACTIVITIES

Yucca Mountain Project
    The amount requested for the repository project in fiscal year 2005 
is $558.9 million, an increase of $155 million over our fiscal year 
2004 enacted level. The primary drivers for this increase are 
repository facility design, prototype development and testing, 
procurement in preparation for underground excavation, design of 
offsite utilities and infrastructure, and support for responding to 
technical questions on the license application.
    Our initial focus will be on submitting the license application by 
December 2004. The license application, expected to be approximately 
10,000 pages, will include a description of site characteristics; waste 
package, repository surface and subsurface designs; the basis for 
development of operations and maintenance plans for surface and 
subsurface facilities; safety analysis results for the period prior to 
permanent closure; total system performance assessment results for the 
post-closure period; and a discussion of how the proposed waste package 
and repository will comply with applicable regulatory requirements. It 
also will address safeguards, physical security plans, the quality 
assurance program, and performance confirmation. We are closely 
managing the schedule for the remaining work. Quality and completeness 
are paramount: the application we submit will meet the NRC's regulatory 
requirements and be docketable by the NRC.
    After the license application is delivered, we must be prepared to 
respond to queries and requests that NRC will make during its technical 
review. We expect NRC's review to be thorough and rigorous, and our 
objective is to provide all required information in a timely and 
effective manner to support completion of the NRC's review within the 
statutorily established time period.
    In parallel with the licensing process, we must focus on design of 
the repository and ensure that the site is ready to support 
construction as soon as it is authorized by the NRC.
    By the end of fiscal year 2005, we will have:
  --Completed and submitted a license application for repository 
        construction authorization to the NRC.
  --Updated the LSN certification concurrent with license application 
        submittal.
  --Completed the preliminary design for the waste package, surface 
        facilities, and subsurface facilities, which requires 
        continuing performance assessment analysis.
  --Continued to refine the safety analysis as needed, in response to 
        NRC review and in accordance with NRC licensing regulations.
  --Completed the detailed work plan, cost estimate, and schedule, and 
        established a performance measurement baseline for the final 
        repository design and construction.
  --Initiated procurement activities for construction of the surface 
        and underground facilities.
  --Developed designs for offsite facilities and utilities needed to 
        support the start of construction.
  --Addressed safety-related needs at the site.
    We are requesting funding for payments-equal-to-taxes to the State 
of Nevada and to Nye County, Nevada; Yucca Mountain is located in Nye 
County. Our fiscal year 2005 request also includes funding for Affected 
Units of Local Government, as well as funding to the University System 
of Nevada and to Nye County and Inyo County, California for independent 
scientific studies.

National and Nevada Transportation Projects
    The amount requested in fiscal year 2005 for National and Nevada 
Transportation activities increases from the fiscal year 2004 enacted 
level of $63.5 million to $186 million, $163 million of which will be 
for the National Transportation Project. The significant increase in 
funding will support the initial procurement of transportation casks 
and auxiliary equipment and will accelerate operational capability.
    The initial procurement of truck and rail casks is needed to 
provide the capability for waste acceptance in 2010, given the lead 
time required for solicitation, evaluation of proposals, NRC package 
certification (for new designs), and fabrication of transportation 
casks. We are working with the cask vendor industry to procure an 
efficient cask fleet that maximizes the government's ability to support 
the full range of contents that need to be shipped with the minimum 
number of separate designs. These procurements will proceed towards 
cask fabrication in a step-wise manner to maintain flexibility on final 
procurements as long as possible. We will also continue to address a 
new railcar standard implemented by the American Association of 
Railroads for shipments of spent nuclear fuel and high-level waste. In 
addition, we have requested funds for equipment procurement and 
infrastructure preparation needed for full-scale cask testing by the 
NRC to enhance public confidence in the NRC's cask certification 
process.
    The National Transportation Project will support expanded 
institutional interactions with regard to establishing preliminary 
transportation routes, operating protocols, and safeguards and security 
activities. We will also continue support of State regional groups to 
facilitate development of the policy for funding State and tribal 
emergency response training and technical assistance as required by 
Section 180(c) of the NWPA. We will continue and expand our ongoing 
dialogue with State and tribal officials and other stakeholders who 
will play an integral role in our transportation planning.
    We have requested $23 million for Nevada transportation work, 
including completion of conceptual design and the beginning of 
preliminary design activities, issuance of the draft Environmental 
Impact Statement for the rail alignment, associated public hearings, 
and continued development of the land acquisition case file required by 
the Bureau of Land Management. Some of this is contingent upon the 
Department issuing a Record of Decision under the National 
Environmental Policy Act selecting a mode of transportation in Nevada 
and a rail alignment, as appropriate. We expect to issue the decision 
shortly.

Program Management and Integration
    Our fiscal year 2005 request includes $47.5 million for program 
management and integration activities, an increase of $17.8 million 
over the fiscal year 2004 enacted level. The request reflects the need 
to have the strongest possible nuclear Quality Assurance program as we 
move into the licensing phase. Quality Assurance is the cornerstone of 
assuring the NRC that the Program has implemented activities related to 
radiological safety and health and waste isolation that are required by 
NRC regulations. We will complete the institutionalization of 
improvements that were introduced through the Management Improvement 
Initiative to meet the NRC's expectations of its licensees.
    The fiscal year 2005 request also contains funding for system 
engineering and analysis activities to enable us to better evaluate and 
optimize the Program's component elements as they begin to converge 
into a single waste management system. In addition to the repository 
and transportation readiness, the third key piece that must be put in 
place is waste acceptance readiness--i.e., establishing the 
``pipeline'' of wastes destined for Yucca Mountain. (In prior years, 
waste acceptance was part of the Transportation budget request, but is 
now included in Program Management and Integration.) By addressing 
waste acceptance issues now, we can ensure that repository facilities 
and transportation infrastructure will be compatible with the 
commercial spent nuclear fuel and DOE-managed wastes that are planned 
for receipt in 2010 and beyond. OCRWM will work closely with the Office 
of Environmental Management on DOE spent nuclear fuel and high-level 
waste acceptance criteria to ensure that we have an integrated, timely, 
and cost-effective approach.

Program Direction
    The Program Direction budget request of $87.5 million supports 
Federal salaries, expenses associated with building maintenance and 
rent, training, and management and technical support services, which 
include independent Nuclear Waste Fund audit services and independent 
technical and cost analyses. These resources fund a small increase in 
support services related to Quality Assurance, and national 
transportation technical support activities. The request also reflects 
a small increase in Federal staff expenses to manage additional 
repository design/licensing activities and National and Nevada 
transportation work.

Assumption of DOE Spent Nuclear Fuel Management Functions
    OCRWM will be the organization ultimately responsible for disposing 
of spent nuclear fuel owned by the Department. Therefore, our fiscal 
year 2005 budget reflects OCRWM's assumption of responsibilities for 
the National Spent Nuclear Fuel Program, management within the United 
States of returned foreign research reactor spent nuclear fuel, 
domestic research reactor spent fuel management, and the management of 
Chemical Processing Plant-666 from the Office of Environmental 
Management. To fund these programs, we expect the Office of 
Environmental Management to transfer $22.3 million from its fiscal year 
2005 appropriation, funded from the Other Defense Activities account. 
Similarly, the Department's plans call for the Office of Environmental 
Management to transfer to OCRWM $5.2 million from the Energy Supply 
Research and Development account to support spent fuel management work 
at the Fort St. Vrain, Colorado, Independent Spent Fuel Storage 
Installation, and the Three Mile Island-2 Independent Spent Fuel 
Storage Installation at the Idaho Nuclear Technology Engineering 
Center, which will be transferred from the Office of Environmental 
Management, as well as domestic and university research reactor spent 
fuel management functions transferred from the Office of Nuclear 
Energy, Science and Technology.
    An Office of DOE Spent Fuel Management, reporting to the OCRWM 
Director, will be established to integrate and manage DOE spent nuclear 
fuel activities without interfering with the ongoing mission we perform 
under the Nuclear Waste Policy Act. The transfer of these functions 
will enable OCRWM to consolidate DOE spent nuclear fuel expertise and 
oversight effectively and efficiently.

          ENSURING ADEQUATE RESOURCES TO COMPLETE THE MISSION

    The Department of Energy and the Congress have been aware for many 
years that funding requirements for the repository program would 
increase substantially as we approach construction and transportation 
system development. In fiscal year 2005 and beyond, the Program will 
need significantly increased funding to pay for the design, 
construction, and operation of the repository, and for acquisition and 
development of the transportation infrastructure. Much greater 
certainty of funding is needed for such a massive capital project to 
ensure proper and cost-effective planning and acquisition of capital 
assets. Delays simply increase costs, without fulfilling the Federal 
responsibility for safe, secure disposal of the waste.
    In accordance with the funding approach established in the Nuclear 
Waste Policy Act, the Department collects annual fees from nuclear 
utilities for the disposal of their spent nuclear fuel. The fees are 
reflected in the utility bills that their customers receive. In fiscal 
year 2005, an estimated $749 million will be collected. The resources 
will be there and we should not delay in making them available for 
their intended purpose.
    The proposed appropriations language in the President's Budget is 
contingent upon enactment of legislation reclassifying the annual 
receipts that are deposited into the Nuclear Waste Fund as 
discretionary and crediting them as offsetting collections to annual 
appropriations. On February 27, 2004, Secretary Abraham sent proposed 
legislation to Congress that would accomplish this reclassification. By 
allowing the mandatory collections to be credited as discretionary, the 
net discretionary appropriation would be $0. The proposed legislation 
would be effective until construction is complete for surface 
facilities for the fully operating repository. Under this proposal, the 
Program would continue to be subject to the annual appropriations 
process and Congressional oversight. This proposal would simply allow 
the Appropriations Committees to provide funding sufficient for the 
Program's needs without interfering with other DOE programs.

                       COST REDUCTION INITIATIVES

    While access to the funds paid by ratepayers for nuclear waste 
disposal is nonetheless critical, we believe we can improve the funding 
outlook by reducing the total system life cycle cost of the repository 
system. With this goal in mind, we are looking at enhancements that can 
be achieved through phased development, technical alternatives, and 
acceleration of operations post-2010.
    Under a phased development approach to repository construction, we 
have divided the surface and underground facilities into several phases 
so that the repository can be constructed and operated in stages. The 
license application will address all facilities necessary to emplace 
70,000 metric tons of spent nuclear fuel and high-level radioactive 
waste, and will describe the incremental process for building those 
surface and underground facilities in modules and panels. In addition 
to controlling short-term cost spikes, this strategy will increase 
confidence in our ability to begin operations in 2010, allow experience 
from initial operations to guide later activities, and retain 
flexibility for future technology improvements to be incorporated.
    Present-day technology and technical information are adequate to 
support a robust license application, the transportation of waste to 
the site, and repository operations. However, within the decades-long 
time span during which the Yucca Mountain repository would be operated, 
advances in technology can lead to life-cycle cost savings, schedule 
efficiencies, and improved understanding of the safety and security of 
the repository system. To date, we have identified potential cost 
savings opportunities totaling several billion dollars over the long 
lifetime of repository operations in areas such as welding, advanced 
materials, techniques for excavating the underground tunnels, and low-
maintenance ground support. Activities to reduce life-cycle costs and 
allow for enhancements in the waste management system are integrated 
throughout the Program, and as such will be funded from all budget 
areas.
    Finally, OCRWM is developing plans for accelerating operations 
after 2010 to achieve steady-state waste receipt rates without 
diminishing safety or quality. As we gain experience, faster handling 
and underground emplacement will become possible, and as additional 
phased construction modules are completed, operational capacity will 
increase. In addition to lowering costs, accelerated waste receipt 
would enhance security by isolating spent nuclear fuel and high-level 
waste faster, and could have the added effect of allowing waste storage 
sites to be decommissioned sooner than currently planned.

                           CONCLUDING REMARKS

    We are committed to the goal of beginning to receive and transport 
spent nuclear fuel and high-level waste to an NRC-licensed repository 
in 2010. Toward that end, we intend to submit a high-quality license 
application to the NRC in December of this year.
    We are requesting a major increase in funding in fiscal year 2005, 
but a necessary one both to achieve the Program's goals and to begin to 
meet the Federal Government's responsibility for safe, secure disposal 
of spent nuclear fuel and high-level radioactive waste. After more than 
20 years of scientific study; a site approval process involving the 
Department, the State of Nevada, Congress, and the President; and 
purposeful efforts toward securing a license, we have reached the point 
where investments must be made in transportation, repository, and waste 
acceptance readiness, if we are to maintain the objective of commencing 
operations in 2010. We urge your support for our budget request, and we 
are pleased to be able to work with you on this important national 
issue.

    Senator Craig. Thank you very much, Dr. Chu, for that 
provocative testimony. Let me start the questioning process. 
I'll do five and turn to Senator Murray and we'll go back and 
forth in that time frame and the chairman will be back in a few 
moments, I trust, to join in with us so we all have a variety 
of questions to be asked of the three of you.

                    RISK-BASED END STATES INITIATIVE

    Let me turn to you, Jessie, and talk about the document 
published by your program for each large cleanup site called 
the Risk-Based End States, which is referred to as a vision 
document, I believe. The question from that would be what is 
the purpose of this document at a site which is a Superfund 
site and is controlled by CERCLA, the Superfund law and has 
NEPA records of decision of most cleanup actions?
    Ms. Roberson. Senator Craig, the Risk-Based End State 
initiative really is an effort to do exactly what you stated in 
your opening comments. It is an integration of some of the 
elements which are independent documents today--land use plans, 
our cleanup agreement, other documents that define our 
activities. It is an initiative to integrate those.
    It is exactly one of the steps that we went through that 
allowed us to make informed decisions about soil cleanup levels 
at Rocky Flats. We will have to go through the same process at 
the other sites. This is a process that mimics the same process 
we used there that allowed a clear understanding of the basis 
for decision-making regardless to what the actual regulatory 
process was. It does not change the regulatory processes, but 
it does provide information for those decisions and it also 
makes transparent the basis for those decisions.
    Many regulatory decisions are made relative to specific 
geographic areas without taking into consideration the context 
of our cleanup. We think it's a critical step. It does indeed 
mimic the same process that got us to cleanup levels at Rocky 
Flats, and we expect that it will be useful as a tool in our 
cleanup at Idaho.
    Senator Craig. Okay. I've seen a draft of Idaho's End State 
document dated January 2004, but it has draft written on every 
page. What is the path forward for this document?
    Ms. Roberson. Well, they will remain drafts for quite a 
while until we believe that we have adequately and openly 
addressed any issues or concerns with the public and with the 
regulators, so they may well be drafts for 6 months. We 
actually met with our field managers on Monday and Tuesday and 
went through site by site, and I think we still have not done 
an adequate job in that arena and we will be taking more time 
to do that.
    At some point, we would expect to conclude that discussion 
and then we will look at those documents. This doesn't overtake 
the regulatory process. What it does is provides a visible 
basis for us and for the public to understand why we may 
propose what we propose in the regulatory process.

                      BNFL CONTRACT COSTS OVERRUNS

    Senator Craig. Okay. Another question of you, earlier this 
week, trade publications reported that DOE has agreed to pay 
British-owned BNFL for cost overruns related to cleanups in 
Tennessee and Idaho. What can you tell us about the status of 
these negotiations between the U.S. and British officials and 
if there is any truth to the fact that DOE would provide $500 
million to compensate BNFL for what appears to be a bad 
investment?
    Ms. Roberson. What I can say with total confidence is that 
the Department has a contract with BNFL and we are living up to 
that contract and we expect them to live up to that contract as 
well. We continue to look at all of our work at Idaho and any 
of our other sites specifically when we're in a procurement 
mode. We are looking at that work and how it fits into the 
overall procurement. I read the same article. I was intrigued, 
but I can't offer you more than that.

              LABORATORY DIRECT RESEARCH FUNDING AT IDAHO

    Senator Craig. Okay. I'm intrigued, too. My last question 
of you and then I'll turn to Senator Murray. Jessie, you know 
that I'm very concerned about the potential loss of LDRD 
funding, and of course we all know that's Laboratory Direct 
Research at the new Idaho national lab, and I've told the 
Secretary very directly that I believe LDRD is vital to that 
lab and its future missions. Isn't EM funding tapped for LDRD 
at both Oak Ridge and Savannah River?

              LDRD FUNDING AT OAK RIDGE AND SAVANNAH RIVER

    Ms. Roberson. I will tell you honestly, Senator, I do not 
believe so, but I would like to validate that for the record if 
I might. As a result of your raising this concern, we are 
certainly looking very closely at the issue. To my 
understanding, EM is not contributing, but I would like to 
validate that.
    [The information follows:]

              LDRD Funding At Oak Ridge and Savannah River

    At the Oak Ridge National Laboratory (ORNL), EM funds the 
laboratory for work in Technology Deployment and infrastructure 
activities like bioassays and utilities. Of the overhead rate paid by 
EM, ORNL uses of a portion of the funding to support its LDRD 
activities. EM does not directly fund any LDRD activities at ORNL. 
Since the Savannah River Site has not established an LDRD program, no 
EM funds are used for LDRD at that facility.

    Senator Craig. Please do. Thank you. Let me turn to Senator 
Murray.

                        HANFORD 300-AREA CLOSURE

    Senator Murray. Thank you, Mr. Chairman. Ms. Roberson, the 
Pacific Northwest lab is a very valuable asset to the Federal 
Government, the State of Washington and to the tri-cities and 
in particular, as Hanford cleanup moves forward. As you know, 
there is a lot of concern over the schedule for cleaning up the 
300-Area and replacing the laboratory's ongoing research 
capabilities that exist in that area.
    I addressed those concerns when Dr. Orbach from the Office 
of Science testified on March 3, again in writing when 
Ambassador Brooks from NNSA testified March 23, and to date, no 
strategy has emerged from the Department of Energy.
    An accelerated cleanup plan in theory is a good idea, but 
it has to be implemented thoughtfully, and that seems to be the 
problem. For the first time in the history of the DOE cleanup 
program, facilities that have ongoing missions are being 
affected. I believe the Department doesn't help itself when it 
pursues a track of accelerated cleanup while at the same time 
ignoring the responsibility of replacing facilities that house 
critical programs for the Department and for other agencies. A 
good objective to not have a bad outcome.
    Today you reiterated the goal of dealing with high-risk 
materials first. No one would classify the 300-Area as high-
risk and frankly, it leaves the community really questioning 
DOE's choices. Ms. Roberson, can you tell the committee what is 
the current status of the river corridor contract proposal and 
efforts to address its current impact on the lab and what are 
the options for using anticipated savings from accelerated 
cleanup at Hanford to support replacement of facilities for the 
laboratory?
    Ms. Roberson. Senator Murray, I probably can't address all 
of those, but let me please take a shot at as many as I can. 
The facilities in question were transferred to the 
Environmental Management portfolio in 2001-2002. By definition, 
that meant they were excess to mission need. During the next 
couple of years as we readied ourselves through the procurement 
process to do the river corridor cleanup, there was indeed a 
growth in mission, both in NNSA as well as Homeland Security, 
and so the Department has taken a step back on the cleanup 
procurement to try to make sure there's no impact to those 
missions as well as to stay focused on the river corridor 
cleanup, because those are all important priorities.
    I would say, as I sit here today, we are engaged with our 
Deputy Secretary. We've looked at a number of alternatives. We 
do not have one that I can share with you, but I think we're 
very close. That procurement is awaiting action as a result of 
those discussions.
    Senator Murray. Okay. Do you have a time line on that?
    Ms. Roberson. No, I honestly do not have a time line as I 
sit here today. Since it's a multi-program initiative, my time 
line is as soon as we have a decision, to move forward, but I 
can't tell you when the Department will.
    Senator Murray. Is part of that what the options are for 
using the savings from the accelerated cleanup?
    Ms. Roberson. That's actually one. Unfortunately we don't 
achieve the savings until we achieve the cleanup, so I can't 
say that savings today are available for that purpose, but I 
also again can't tell you all of the options that the 
Department is looking at because we are simply one participant 
in that decision-making process.
    Senator Murray. Can you tell me, are we talking a couple 
weeks or a couple months or 6 months before we have an idea?
    Ms. Roberson. Actually, as I sit here today, I cannot tell 
you. We are inputing into the process. I'd be glad to get back 
to you as soon as we leave here today.
    Senator Murray. I would really like to know. Obviously the 
community is waiting. We all want to know where this is going 
and your response, timely response would be really appreciated.
    Ms. Roberson. Thank you.

                    WASTE INCIDENTAL TO REPROCESSING

    Senator Murray. Let me move on then to another question. 
The Department is still seeking unilateral authority to 
reclassify the high-level waste at Hanford, Idaho and Savannah 
River. Frankly that appears to a lot of us to just be another 
example of the Department not working with its Federal and 
State regulators. The Department lost the lawsuit in Federal 
court and it's now appealing and the President's budget 
proposes to hold $350 million from cleanup of those sites aside 
until this issue is resolved to the agency's satisfaction. You 
know, frankly, this proposal is being labeled as blackmail to 
some people.
    The proposal certainly seems similar to the Department's 
former accelerated cleanup account proposal that this 
subcommittee rejected last year and I hope it will reject again 
this year. The fact is that before the Department lost in court 
and after, it did have an opportunity to work with the 
litigants and States to resolve this issue.
    Can you tell me, Ms. Roberson, why the Department rejected 
offers of mediation by the NRDC and the States prior to trial 
and even more surprisingly rejected the court's request that 
all parties agree to mediation after the Department lost?
    Ms. Roberson. Actually, I would have to defer to our Chief 
Counsel on the specifics of the litigation. What I can say is 
that there was conversation among the parties to the lawsuit. I 
won't try to describe when or how that happened, because that 
process actually would have been managed by our General Counsel 
rather than by the Office of Environmental Management, but I 
would like to say a few things.
    I have heard the term being used that this looks like 
blackmail, but Senator Murray, I have to say to you, we haven't 
considered changing nary a cleanup agreement at any site. We 
are simply trying to implement what we've already agreed to in 
those cleanup agreements at every one of those sites.
    Senator Murray. But you lost the battle in court.
    Ms. Roberson. We are appealing the decision in court, but 
even before we lost the lawsuit in the Ninth District, we were 
implementing those agreements we have with our regulators in 
each State, and we are trying to continue to implement those 
agreements. We have not proposed a single change to a cleanup 
agreement in any of those States.
    Senator Murray. Well, it does appear to a lot of people 
that DOE's the only one who thinks legislation is necessary to 
resolve this issue. It seems even when our States attempt to 
reach common ground, they are just met with steadfast 
resistance to maintaining regulatory oversight on this matter, 
and it just is disheartening to all of us.
    Ms. Roberson. Well, we continue to have a dialogue and I 
think a fairly successful dialogue with the States even today.
    Senator Murray. They don't feel that way.
    Ms. Roberson. Well, that's unfortunate. I appreciate that 
insight. That's surprising to me.
    Senator Murray. Well, I think everyone I've talked to wants 
to resolve this issue, but they feel like the Department is 
just resisting any attempts to speak with the States, to work 
with them to find common ground. You're simply giving us 
legislation to override an issue and thus it is not acceptable.
    Ms. Roberson. We are working even today with the States on 
a path forward, we absolutely are. It's unfortunate if we have 
a State that doesn't believe that that's our goal.
    Senator Murray. Let me just give you a personal appeal. Can 
you make a concerted effort to sit down with them to really 
listen to their concerns and to find common ground on this 
issue?
    Ms. Roberson. Absolutely.
    Senator Murray. Okay. I take you at your word on that and I 
will wait to hear from our States that they feel that they are 
actually working with you.
    Ms. Roberson. Okay.

             HANFORD EMPLOYEES EXPOSURE TO TANK FARM VAPORS

    Senator Murray. Let me raise another issue and this is 
really a critical one for our State. Ms. Roberson, as you know, 
there has been a serious issue at Hanford related to continued 
exposures of workers to vapors escaping from the tank farms. 
It's causing workers to seek medical attention on-site and 
often being taken to local hospital emergency rooms.
    Related to that vapor issue but not confined to these 
medical problems is the Hanford Environmental Health Foundation 
which is under a DOE contract to provide medical care at the 
site who's now facing allegations of supervisor misconduct, 
fraud and medical record tampering. The fear is that this 
Hanford Environment Health Foundation has done these things due 
to financial considerations and/or perhaps pressure from 
contractors to limit the number of work days lost which can 
affect the contractor's own financial incentives.
    In fact, in last Sunday's Washington Post, it's reported 
that the DOE's own inspector general, as you know, found that, 
and I want to read from it, ``For 9 out of 10 private 
contractors that perform environmental cleanup at old bomb-
making sites from Washington State to South Carolina, the audit 
found that the Department of Energy maintained inaccurate and 
incomplete accident and injury data.''
    Frankly, given the significant coverage on these issues 
that we've received in the national and Washington State press, 
I was surprised you didn't address them in your own written 
statement, but I'm even more surprised that your written 
statement makes claims on improved worker safety by citing the 
lost work day cases when your own inspector general says the 
Department underreports such events. There are many 
investigations going on right now at Hanford related to the 
tank vapors and HEHF, and I hope we're going to get some 
answers from those investigations, but I really fear that the 
Environmental Management Program has lost considerable 
credibility with workers and their families on these issues.
    Cleanup of nuclear waste is a very difficult task. You and 
I both know that it involves many known and unknown dangers. We 
ask a lot of our workers who are on-site and it seems clear to 
me that we need to provide assurance that we know what we are 
doing, that we are taking real precautions and that we have 
reliable investigations when necessary.
    The National Institute of Occupational Safety and Health, 
NIOSH, has been on-site, but DOE limited its review authority 
to the vapor issue. I don't believe that DOE has requested OSHA 
or the NRC to play any role. It seems reasonable to consider if 
it would make sense to have OSHA and the NRC regulate health 
and safety.
    Do you believe that DOE is responsibly on top of these 
vapor and medical issues?
    Ms. Roberson. Senator Murray, actually, I do believe. 
Specifically on the tank farm vapors, I think our field 
operations has been fairly aggressive. They've had three 
external independent reviews from organizations that have 
expertise in the occupational medicine area and they've offered 
advice on improvements and we've moved forward with those 
improvements, and where we can get good advice to improve, 
we're going to continue to do that. That's our commitment.
    I won't speak on HEHF since that is an ongoing 
investigation. I don't think that I can speak on that, but what 
I can say is if there is a determination of any misconduct, the 
Department will react swiftly and strongly. There is no doubt 
in my mind that we will.

                    IG REPORT ON SAFETY PERFORMANCE

    I'd like to, if I could, respond to--and even though the 
system that is in question belongs to the Assistant Secretary 
for Environment, Safety and Health, I'd actually like to 
respond because the IG draft report was fairly specific to the 
Environmental Management program. I mean, I have to say 
unequivocally I disagree with some of the information presented 
as fact as well as the conclusions reached in that draft 
report.
    Senator Murray. You disagree with the IG?
    Ms. Roberson. Yes, and I have responded. There are two 
specific points I'd like to make. There are many others, but I 
would like to address two specific points. One assumption was 
that this database provided data that was used by Environmental 
Management to determine the status of its safety performance. 
That is incorrect.
    In 2002, OSHA changed the criteria for reporting in the 
system and to smooth the path for transitioning to the new 
criteria directed that nobody should spend time trying to catch 
up with the old system. DOE did the same. DOE took the same 
action.
    As the Assistant Secretary for Environment, Safety and 
Health said in her opening comment, this is a paper-intensive 
system and it's prone to quality assurance problems and lag 
time. In 2002, we identified this as an issue in our program 
and discontinued using it for that purpose. The very law that 
the IG cited in its draft report as being the basis for 
identifying what data was not being transferred, is the law 
that we also look at in our operations to make determinations 
as well, too.
    So the law that provided the basis of their assumption that 
there was underreporting, is the mandated law for the 
contractors to keep and in fact, based upon the IG's draft 
report, they are obviously keeping it up to date. That is the 
law that our facility representatives and our managers look at 
in the field and we also look at as well.
    The Department has undergone in the last year an initiative 
to simplify the translation of that data from the OSHA logs to 
its headquarters system, but that hasn't alleviated the 
requirement for us to look at their logs in the meantime which 
is what we have done.
    Senator Murray. I appreciate that. I would like to see your 
response back to the IG, but I also think that there's--don't 
you think there's something more we can do to make sure the 
workers and families feel that their----
    Ms. Roberson. Absolutely.
    Senator Murray [continuing]. Health and welfare is the 
Federal Government's first priority because that certainly 
doesn't feel like it today.
    Ms. Roberson. Absolutely, and I think you probably know in 
the tank farm even as late as last week, we talked with our 
site operations and our contractor and we've taken additional 
actions there. We are absolutely committed to doing this work 
and doing it safely, and we are interested in the expertise and 
advice of any that can help us to continue to improve it 
because that's what we have to do. So that is our commitment, 
and we will continue to be focused on that and look for 
improvement wherever.
    Senator Murray. Will we be seeing recommendations from your 
agency on what we can do perhaps to have OSHA and NRC regulate 
health and safety? Will you be making any recommendations like 
that?
    Ms. Roberson. I'm not personally familiar with whether the 
Department will make those recommendations, but I know the 
Secretary is looking forward to the results of the reviews and 
investigations he's initiated, and I think those will inform 
any decisions going forward from there.
    Senator Murray. Mr. Chairman, I see you've returned. I have 
one more question. I'm happy to wait until you----
    Senator Domenici [presiding]. Give it. Let's go.

       ENERGY EMPLOYEES OCCUPATIONAL ILLNESS COMPENSATION PROGRAM

    Senator Murray. Ms. Cook, your office has authority over 
the Energy Employees Occupational Illness Compensation Program 
Act. In fact, the Department makes a big deal about its efforts 
to implement the program and is currently opposed to efforts to 
move implementation from DOE to the Department of Labor which 
many of us would believe would be much more effectively 
operating the program and serving as the willing partner.
    Specifically related to Hanford, it's my understanding that 
you intend to end the medical screening program for former 
workers at Hanford at the end of this current fiscal year. It 
is estimated that there are 2,700 former workers with past 
exposures who have actively indicated an interest in an 
examination from the site and there are 600 who are awaiting 
appointments that won't be available due to budget cuts.
    Can you tell me why your budget proposes to end the Hanford 
former worker screening and how you justify such an action in 
light of such an incredibly big need?
    Ms. Cook. Yes. First off, the budget does not define that 
we are going to end the former worker program at all. What we 
are going to do, though, is make it more effective and 
efficient for exactly the reasons you just pointed out. The 
former worker program was started several years ago. At the 
current time, we have 14 different pilot projects out at 
different sites all around the complex. Many sites are waiting 
to participate in the former worker screening program.
    What we intend to do through this year and into 2005 is to 
move forward with a nationwide former worker screening program 
that provides more timely and more service without paying 
overhead for 14 projects throughout the complex, so at all of 
the sites, all of the former workers will have access to a 
screening program locally. And if local expertise isn't 
available, then we will connect them with someone nearby, but 
we do not intend to end any former worker program at any site.
    Senator Murray. So the screenings still go on at the 
Hanford site?
    Ms. Cook. Yes.
    Senator Murray. At the site?
    Ms. Cook. Yes, absolutely, but it will be part of the 
national program and not individual programs at each site, so 
it will be managed nationally.
    Senator Murray. And the 600 that are awaiting appointments 
will get appointments?
    Ms. Cook. Absolutely.
    Senator Murray. As well as the 2,700?
    Ms. Cook. Absolutely.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Domenici. Thank you very much, Senator. First let 
me say, and you've had a pretty good grilling today. I'm glad 
you got to offer your views, and let me say I wish we could be 
here predicting that your recommendations would be followed, 
but it seems to me that in some areas it will be very 
difficult.
    I have questions in each area, but if I don't get them done 
today, I'll get them to you and I would appreciate your 
answering them at your earliest convenience.

            PLUTONIUM TRACES AT WASTE ISOLATION PILOT PLANT

    I noted in a recent press article about the detection of 
microscopic traces of plutonium in the sampling at WIPP. I 
understand that the quantity is far below the regulatory 
concern, but I'm curious whether that detection could be 
indicative of more serious issues. My question is, please 
describe your understanding of this situation and address my 
concern about these samples that could indicate a more serious 
problem.
    Ms. Roberson. Senator Domenici, we have multiple 
independent monitoring sources and for the second quarter in 
2003, in some cases it's monthly; in some cases it's quarterly. 
This was monthly sampling, I think, for June of 2003. That 
sampling or that analysis was conducted using the most capable 
and sensitive equipment available to us.

                      NEW MEXICO CLEANUP AGREEMENT

    Senator Domenici. Thank you very much. Ms. Roberson, let me 
thank you for your willingness to return to the negotiation 
table to work out an acceptable cleanup agreement between DOE 
and New Mexico. As a result of these negotiations, $43 million 
in additional money can be applied toward meaningful cleanup. 
You can be sure that I will continue to watch the matter and I 
hope you will too, to ensure that cleanup stays on track.
    Does this agreement have enforceable deadlines and 
standards to ensure that cleanup is accomplished and we won't 
find DOE and the State fighting over the same old issues and 
compromising the cleanup?
    Ms. Roberson. Senator, it does indeed include enforceable 
milestones where Federal or State standards exist, and it would 
include those where they do not exist. It would include a 
process by which we would go through and work with our 
regulators to establish them.
    I'm sure this is not the end of the challenges that the 
parties will have to work together on, but it certainly 
establishes a process through which we can resolve those issues 
as we go forward and achieve the cleanup as we've laid out.

                      WORKER SAFETY SITE PROFILES

    Senator Domenici. Let me say, Ms. Cook, last year the DOE 
testified that it was in the process of developing site 
profiles and to pull together the necessary site data in order 
to speed up the case approval process for workers that were 
made sick while working for the Department. DOE's testimony 
stated that by developing a complete understanding of the 
occupational hazards at each of the DOE sites, it will help the 
doctors in developing the claims as to exposure hazards a 
worker may have been exposed to.
    The question to you is, where do we stand on the 
development of site profiles and how much is being spent in 
2004 and how much will you do in 2005?
    Ms. Cook. Yes, to answer that I need to introduce to Bob 
Carey that he really wanted to be closely involved, as did the 
Undersecretary in this program. And so what they did is bring 
in Mr. Carey to bring in the program as a whole with only that 
responsibility and directly reporting to the Undersecretary and 
to the Secretary, and Bob will tell you about where we are on 
the site.
    Senator Domenici. What is your name and what do you do?
    Mr. Carey. Sir, my name is Bob Carey. I'm a Senior Policy 
Advisor in the Office of the Secretary and this elevation of 
the Office of Worker Advocacy to a direct report to the Under 
Secretary Card happened to coexist, happened at the same time 
as my return to active duty, so I was assigned to this program.
    I think there may be some misunderstanding as to the 
relationship between the site profiles that NIOSH does as part 
of the dose reconstruction process and the site profiles that 
some people have been advocating for this program.
    For the site profiles that NIOSH does for the Part D 
Program for the dose reconstructions, it's regarding radiation, 
a relatively well understood, quantifiable and discrete program 
where the causal relationships are pretty well understood. For 
the other toxic substances that Part D also covers, the 
Department of Energy Program, those causal relationships are 
not nearly as well understood. A lot of these substances hadn't 
even become known to be toxic except in the last couple 
decades. Prior to that we didn't even have a lot of records on 
these issues.
    Because of that, the cost benefit analysis that we've done 
to date has not indicated that such large scale discrete site 
profiles would be beneficial. We believe they cost several 
million dollars and they take a year or 2 to complete and that 
they don't necessarily provide any additional data that would 
be that useful to the Physicians' Panels.
    And the fact of the matter is we believe we already have 
sufficient information for these Physician Panels. The statute 
requires that we provide all available information. It does not 
state that we are required to provide additional analysis like 
the statute requires NIOSH to do for dose reconstructions. With 
that available information we currently provide, we believe we 
provide more information than other compensation programs do, 
and we provide a large volume of information already to these 
physicians.
    The fact of the matter also is we have to look at this cost 
benefit analysis in terms of what we provide to the applicant 
with our positive determination. The Department of Labor's Part 
B Program has a 50 percent or greater standard of causation for 
the radiation-induced cancer, whereas ours is not as likely to 
be a significant factor in the causation, aggravation or 
contribution to an illness.
    So we've had positive determinations where we've had a 2\1/
2\ percent probability of causation. Given all those issues and 
the fact that we don't make a disability determination and we 
don't make a compensation recommendation in our physician panel 
process to the State worker's compensation boards, we do not 
believe that these large-scale site profiles that some people 
have been talking about would be beneficial in the net.
    Senator Domenici. Well, let me tell you, all that statement 
notwithstanding, we are in a mess because the claimants clearly 
don't believe us anymore, and things are going too slow and 
we're not getting anybody compensated. And I suggest while the 
bill is a little drawn, it doesn't provide that much per 
individual that we shouldn't get on with it. I think it's got a 
cap of $15,000, doesn't it?
    Mr. Carey. No, sir, our program does not have any cap. In 
fact, under the Part D Program, the one that the Department of 
Energy runs, we provide no direct Federal benefit. We provide a 
positive physician panel determination which we can then use to 
issue to a contractor----
    Senator Domenici. Who pays the money?
    Mr. Carey. The contractor or the insurance company that the 
contractor may have hired is the one that ultimately pays the 
money. If we have a current contract with that contractor, we 
can then reimburse them under those contracts, but the States 
are the ones that direct the money, the payment of the money, 
sir, under the Part D Program.
    Senator Domenici. Well, straighten me out. What are they 
complaining about?
    Mr. Carey. Sir, we initially vastly underestimated the 
scope of this program and because of that underestimation, we 
underestimated how long it was going to take to set up the 
program and how much we were going to have to invest in order 
to establish this program.
    We now believe that we have established this program, and 
since we received that $9.7 million reprogramming for fiscal 
year 2003, we received that in October of 2003, we've tripled 
our case processing up to the physician panels; we've increased 
our physician panel determinations approximately six-fold; 
we've also been able to put together a strategic plan based 
upon a top to bottom review to be able to eliminate the entire 
backlog of current and future backlog applications by the end 
of calendar year 2006.
    If we thought we could hire enough physicians in order to 
be able to panel these panels faster and in greater quantities 
than we currently believe, we'd want to do that faster.
    Senator Domenici. Who's in charge of the program now, the 
Secretary?
    Mr. Carey. Under Secretary Card is who I directly report 
to, sir.
    Senator Domenici. Well, I'll tell you, this isn't in the 
scheme of things, may not be for the Department a very big 
program or very significant.
    Mr. Carey. It's my life, sir.
    Senator Domenici. What?
    Mr. Carey. It's my life.
    Senator Domenici. Well, I'm glad it's somebody important's 
life because there's an awful lot of folks that don't think we 
know what we're doing.
    Mr. Carey. Sir, my father--I'm sorry, sir, go ahead.
    Senator Domenici. And we didn't know what we were doing. It 
was wrong for a long time. Now you tell me it's going to get 
right and I don't question you except you've got to understand, 
we know about the doctor issue, but you've got to understand 
that you've got to get going.
    Mr. Carey. Yes, sir.

             YUCCA MOUNTAIN FISCAL YEAR 2005 BUDGET REQUEST

    Senator Domenici. Okay, now let me talk a little with Dr. 
Chu. Let me first thank you and congratulate you. I wish we 
could tell you that we could move forward with dispatch, but 
you understand the problem and the President's budget requests 
$880 million for Yucca. A significant portion of this funding 
is to be paid from fees assessed which you're aware of. The 
fund will collect $749 million this year, the budget process 
that the annual receipts be reclassified as discretionary funds 
and then appropriated.
    As a former budget committee chairman, I know that you 
can't wave a magic wand to reclassify these fees. It requires 
legislation and some degree of cooperation.
    I'm not optimistic that we are going to accomplish that 
this year. However, if we fail to get the agreement and 
reclassify the fees, the Senate Budget Resolution assumes a 
level that you are not satisfied with of $577 million. Now, 
that's not the end because we've got to go to conference with 
the House. You're aware of that. If Congress only provides $577 
million, what activities will the Department be forced to defer 
and will this significantly delay the opening?
    Dr. Chu. Senator, thank you very much for your support all 
these years. We have looked at this budget situation very 
carefully, and the reason we ask for $880 million is we need 
the funding to open a repository in 2010. If we get a level of 
funding of $577 million in 2005, we will be able to deliver the 
application because that's our highest priority. That's our 
first milestone. But we will not be able to achieve our goal of 
2010 without getting the full funding.
    Senator Domenici. But when you get the first step that you 
just described, the licensing?
    Dr. Chu. Yes.
    Senator Domenici. You think you can do that?
    Dr. Chu. Yes. We will be able to do a license application 
because we are in the process of completing that in 2005. Since 
our schedule is December 2004, it's really the first quarter of 
2005 we intend to deliver the license application.
    Senator Domenici. I hope you can. Isn't that being 
contested also?
    Dr. Chu. That remains to be seen.
    Senator Domenici. That licensing is being contested also 
just like everything else?
    Dr. Chu. Not yet.

           TRANSPORTATION MODE AND ROUTES FOR YUCCA MOUNTAIN

    Senator Domenici. Okay. It's my understanding that the 
Department has not made a final decision as to whether it will 
use rail or truck as the transportation mode of waste to Yucca 
or decided on a specific route. When will the Department make 
this decision and begin the environmental impact study?
    Dr. Chu. In our final environmental impact statement, we 
have indicated that mostly rail is our preferred transportation 
mode, but we have yet to issue a formal record of decision on 
that. In my testimony, I say we expect to do that very shortly.
    And as to specific routing, this is part of a whole 
planning process with the stakeholders and the State and the 
local governments. And we are just starting that process right 
now and we do not anticipate to identify a suite of routes 
until probably fiscal year 2006. That's the preliminary plan, 
but we'll deal cooperatively with all the stakeholders.
    Senator Domenici. Well, I'm amazed, I mean if you think 
you're over the hurdles, you know, transportation is a big 
issue, too, among people. Routes will be a big issue. I want to 
suggest to you that I have found one of the most intriguing 
responses to be a detailed history of the U.S. Navy and its 
ships and where they are on a given day and how many nuclear 
reactors are floating around the oceans and seas of the world. 
There are lots of them. You know, some of them have two on 
board. They are now permitted to land, to dock at every dock in 
the world except New Zealand, and that's an old thing.
    Now, when we worry about safety, isn't it amazing that 
there's probably about 150 nuclear reactors traveling the 
waters of the ocean and from time to time docked in docks that 
are full of ships that are adjacent to them, to development, 
and nobody complains. I just tell you that it's pretty 
interesting.
    When we sit around and worry so much, the peoples of the 
world let these dock with, you know, a battleship has two of 
them.
    Dr. Chu. Senator, I totally agree with you. You know, 
worldwide, there's excellent safety records in transportation 
of nuclear materials.

                    WASTE INCIDENTAL TO REPROCESSING

    Senator Domenici. Let me talk a minute to you, Ms. 
Roberson. The budget provides $350 million that can be used to 
address the cleanup of waste incidental to reprocessing, WIR, 
located in Washington, Idaho and South Carolina. I understand 
that the Department is allowed to reprocess some of the WIR 
waste in Washington and Idaho. It would generate transuranic 
waste streams that DOE intends to send to WIPP. Thus far I'm 
correct, am I not?
    Ms. Roberson. The one adjustment I would make in 
Washington, it's not even waste from reprocessing. The source, 
the actual source is transuranic waste.
    Senator Domenici. Well, to date, the Department has 
discussed a strategy with Washington, Idaho and South Carolina, 
but the State of New Mexico was yet to be included in these 
discussions. Will you commit here to including New Mexico in 
these negotiations and work with the State in developing a 
solution?
    Ms. Roberson. Absolutely, Mr. Domenici, and we actually did 
start that a couple weeks ago with the workshop hosted by EEG 
and I think it was a very successful workshop in providing 
information to all the parties that allowed a platform for 
future conversations, so you do have my commitment.

                           TRANSURANIC WASTE

    Senator Domenici. Okay, what is the basis for determining 
what transuranic waste is and what is the process by which you 
believe you can remove the fission products? That would mean 
we're going to meet the criteria for permanent disposal at 
WIPP.
    Ms. Roberson. The basis for determining--TRU waste is 
actually defined by the permit for disposal at WIPP and we must 
satisfy the permit requirement before any such material can go 
there.
    Senator Domenici. Okay. We have about 20 other questions 
and I have about 20 other people lined up, so I'm just going to 
give you those.
    Ms. Roberson. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. I'd like to thank the witnesses. I'm 
sorry that we talked more than you, but that's the Senate. I 
think some chairmen do a better job than I and just say that 
only two people will talk. The rest of you can wait for your 
questions, but that's not so easy.
    I'd like to remind members that the subcommittee will keep 
the record open for 2 weeks for additional questions. And to 
our witnesses, you have 2 weeks upon receipt of the questions 
to provide answers. If there are too many and are too bulky, 
just tell us you need another week on some of them. Just don't 
let us think you're not cooperating.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to the Department of Energy

            Questions Submitted by Senator Robert F. Bennett

               REMOVAL OF MOAB URANIUM MILL TAILINGS PILE

    Question. The State of Utah has raised significant concerns 
regarding the instability of the Moab Atlas tailings pile over time and 
the need to remove the tailings from their current location on the 
banks of the Colorado River. Where is the Department with regard to its 
determination about whether to remove the tailings pile from the banks 
of the Colorado River?
    Answer. The Department is now preparing the draft environmental 
impact statement (EIS) for remediation of the tailings in cooperation 
with other Federal agencies, as well as State, Tribal, and local 
governments. The Department plans to issue the draft EIS for public 
comment in the fall and to identify a range of remedial alternatives 
including no action, stabilization in place, and disposal of the 
tailings at one of three potential off-site locations. The National 
Environmental Policy Act regulations require that the no action 
alternative be evaluated as well as all reasonable alternatives. We 
will allow adequate time for public review of the document; a minimum 
of 45 days is required by regulation, and more time can be granted if 
needed. The Department has not selected a preferred alternative at this 
time and would like to obtain public input on the draft as an aid in 
making our selection. We will identify a preferred alternative in the 
final EIS and will brief interested members of Congress at the earliest 
opportunity when we have made a selection. The Department's current 
schedule anticipates issuance of a Record of Decision for the selected 
remedial action in 2005.

              SALT CAVERN DISPOSAL REMEDIATION ALTERNATIVE

    Question. I understand that there is some interest in a new 
remediation alternative called salt cavern disposal because of the hope 
that it may be both protective of the environment and economically 
competitive with the other remediation alternatives already listed in 
the Draft EIS. Has DOE investigated this option and if so, what 
conclusions have been reached with regard to this alternative?
    Answer. The Department is considering an alternative to dispose of 
the uranium mill tailings in mined salt caverns. Conceptually, such 
disposal caverns would be created by solutions mining in the salt beds 
of the Paradox Formation beneath the Moab site or other possible 
locations, such as the commercial potash mine site approximately 6 
miles downstream from Moab. This alternative would involve withdrawal 
of significant quantities of Colorado River water (on the order of 
2,000 gallons per minute for 20 years). The water would be used as part 
of the solution mining process and would become saturated with salt, 
generating brine that would have to be disposed of by deep injection 
well, or solar evaporation pond, or other alternative methods for 
disposal of brine. Disposal for uranium mill tailings in mined salt 
caverns would be a unique, first of a kind methodology and is an 
unproven approach to uranium mill tailings disposal that could take at 
least 20 years to complete and for which there are several areas of 
technical, geological, and operational vulnerabilities and uncertainty. 
The National Academy of Sciences recommended that DOE ``take advantage 
of the experience gained from previous DOE projects and the UMTRA 
project.'' The Department has not yet reached a final conclusion 
regarding this alternative.
    Resolving these uncertainties sufficiently so the Department could 
be sure that this alternative is technically feasible would require 
significant investment in additional studies, including injection well 
testing, subsurface characterization, geological and salt cavern 
performance modeling, and an overall system performance assessment. 
Such studies would require a multi-million dollar investment and 
several years to complete, with no guarantee that the investment would 
demonstrate that this alternative is viable. The Department has not yet 
reached a final conclusion regarding this alternative.
                                 ______
                                 
     Questions Submitted to the Office of Environmental Management

            Questions Submitted by Senator Pete V. Domenici

                      WIPP DETECTION OF PLUTONIUM

    Question. I noted in a recent press article about the detection of 
microscopic traces of plutonium in the air sampling system at WIPP. I 
understand the quantity of plutonium is far below regulatory concern, 
but I am curious whether such detection of plutonium could be 
indicative of a more serious issue. Please describe your understanding 
of the situation and address my concern that these samples could 
indicate a more serious issue in the future.
    Answer. The detection of a few microscopic particles of plutonium 
during the spring of 2003 is not indicative of a more serious issue; 
rather, it indicates the sensitivity of one of the methods DOE uses to 
ensure serious issues do not arise. With DOE's support, the Carlsbad 
Environmental Monitoring and Research Center (CEMRC), the Environmental 
Evaluation Group (EEG), and Washington TRU Solutions (WTS) have 
developed sensitive radiochemistry capabilities that allow them to 
detect traces of plutonium in composite samples of air filters 
collected over weeks and months. The amounts detected were barely above 
the detection limits of these laboratories' analytical capabilities, 
and several of the samples analyzed from this period did not detect any 
traces of plutonium. The laboratories have analyzed samples taken 
subsequently during the summer of 2003 and have not detected any 
plutonium in them; they are continuing to analyze similar samples taken 
since the ones in which plutonium was detected. In light of the 
laboratories' extremely sensitive analytical methods, the environmental 
conditions around the site, and the Waste Isolation Pilot Plant's 
(WIPP) 5 years of operations, DOE anticipated that these types of 
particles would eventually be detected.
    Although these particles may be the result of WIPP's operation, 
their source is uncertain at this time. CEMRC, EEG and WTS are working 
to identify the source. The continuous air monitoring devices used to 
protect workers, the public and the environment did not detect anything 
of significance during this period. In addition, CEMRC's analysis of 
ambient air samples taken within 100 meters of the exhaust shaft and 
elsewhere did not detect any levels of plutonium during this period 
above those resulting from fallout from past nuclear weapons testing.

                           LOS ALAMOS CLEANUP

    Question. Ms. Roberson, thank you for your willingness to return to 
the negotiating table to workout an acceptable cleanup agreement 
between DOE and the New Mexico Environment Department for Los Alamos 
National Lab. As a result of these negotiations, $43 million in 
additional funding can be applied toward meaningful cleanup this year. 
You can be sure I will continue to watch this matter very closely to 
ensure that cleanup stays on track. Does this agreement have 
enforceable deadlines and standards to ensure that the cleanup is 
accomplished and we won't find DOE and the State of New Mexico fighting 
over the same old issues and compromising cleanup?
    Answer. The consent order as agreed upon by the Department and the 
State of New Mexico does indeed have specified enforceable deadlines 
and cleanup standards. Where standards do not exist, the consent order 
sets forth a process to establish appropriate risk-based standards.

                       OFFICE OF FUTURE LIABILITY

    Question. The budget provides $8 million to establish the new 
Office of Future Liability that will take over environmental cleanup 
not already assigned to the Office of Environmental Management. The 
budget indicates that this will include 2,000 contaminated sites that 
must begin cleanup by 2025. I believe that in DOE's zeal to close the 
EM program by 2035, it is ignoring significant waste streams that must 
be addressed. I am skeptical that creating an entirely new bureaucracy 
to address the future cleanup is the most cost effective means of 
achieving cleanup. How much does the Department expect the Office of 
Future Liability will spend for cleanup over the next 20 years and how 
many people will the new office need to manage this massive cleanup 
effort?
    Answer. The Office of Future Liabilities (FL) was established as a 
planning office to develop comprehensive estimates of the Department's 
future environmental liabilities, including decommissioning and 
decontamination of excess facilities and disposition of excess nuclear 
materials in order to assist DOE in developing the best organizational 
structure for managing that cleanup. FL will work with the line DOE 
science, energy, and defense organizations to develop the scope, cost 
and schedule for all the requirements and identify organizational 
options for managing these requirements. For the near-term budget 
window, four full-time equivalents are requested to support the 
planning responsibilities of the office. DOE has not decided what line 
office will be charged with managing future liability.
    Question. Has the Department determined whether or not creating 
this new office and bureaucracy will lower the cost of cleanup, and is 
there any data to validate this decision; and will there be a 
transition plan for experiences staff from one office to another?
    Answer. The Department's Top-to-Bottom Review of the Environmental 
Management program recommended the accelerated cleanup of the legacy of 
the Cold War, the mission the Office of Environmental Management was 
designed to carry out. Defined, finite work scope has been key to 
focusing the active cleanup mission on accelerated completion with the 
benefits of reducing risk and life-cycle cost while accelerating 
schedule and cleanup. However, long-term waste treatment and disposal 
will continue beyond the completion of the current EM baseline (scope) 
program. So that we do not diminish the momentum we have gained with 
accelerated EM cleanup, the Department has proposed the new planning 
office to look at options for managing the long-term liabilities and in 
so allowing the accelerated pace in achieving near-term cleanup results 
to continue unabated. We believe these are prudent steps to effectively 
manage our near-term cleanup responsibilities while establishing a 
visible process to address future liabilities.
    We do not foresee a need for a transition plan at this planning 
stage as longer-term liabilities may involve different issues and 
different skill mixes compared to the near-term cleanup activities.

                      MANAGING FUTURE WASTE COSTS

    Question. EM is negotiating with other DOE offices to require that 
they take over all environmental responsibilities for waste they 
generate in the future. I have many concerns with this approach, 
because EM is the only office qualified to deal with the waste cleanup. 
On the other hand, I recognize that every Office in the Department must 
be more sensitive to the costs of managing waste streams they create. 
It seems to me there could be better ways to force each office to make 
a serious effort to reduce these costs. One option might be to require 
that an office which generates wastes set aside sufficient funds that 
would be used by EM to manage the cleanup. Has the department 
considered this option and would it make program managers more 
considerate of waste management costs?
    Answer. The Department has considered the option of a waste 
generator charge-back program. Our assessment has indicated that 
implementation of a charge-back program is difficult to manage and has 
the potential to increase costs because of the additional accounting 
burden. In addition, the Department has the risk of augmenting an 
appropriation if the charge-back program does not collect the exact 
funding necessary for operations. Should the generating program exceed 
the level of appropriated funds, EM will be required to supplement the 
remaining cost of newly generated waste operations. Compounding this 
approach, a charge-back system would not enable EM to focus its efforts 
strictly on its core mission of accelerated risk reduction and site 
closure for legacy activities.

                         WASTE DEPOSITS AT WIPP

    Question. The budget provides $350 million that can be used to 
address the cleanup of Waste Incidental to Reprocessing (WIR) located 
in Washington, Idaho, and South Carolina. I understand that if the 
Department is allowed to reprocess some of the WIR waste in Washington 
and Idaho it would generate transuranic waste streams that DOE intends 
to send to WIPP. To date, the Department has discussed this strategy 
with Washington, Idaho, and South Carolina; but the State of New Mexico 
has yet to be included in these discussions. Will you commit to 
including New Mexico in the negotiations and work with the State on 
developing a solution?
    Answer. The State of New Mexico was represented in some of the 
discussions the Department has had with affected States on waste 
incidental to reprocessing. Pursuant to my commitment to you, since the 
hearing, we have stepped up our efforts to discuss this matter with the 
State, including productive conversation between Governor Richardson 
and the Deputy Secretary. We are committed to working with the State 
and the State's elected representatives to resolve issues relating to 
transuranic waste.
    Question. What is the basis for determining what transuranic waste 
is and what is the process by which you believe you can remove the 
fission products that would meet the criteria for permanent disposal at 
WIPP?
    Answer. Transuranic (TRU) waste is defined by the Waste Isolation 
Pilot Plant (WIPP) Land Withdrawal Act as ``waste containing more than 
100 nanocuries of alpha-emitting transuranic isotopes per gram of waste 
with half-lives greater than 20 years, except for (A) high-level 
radioactive waste, (B) waste that the Secretary of Energy has 
determined, with concurrence of the Administrator [of the Environmental 
Protection Agency, EPA], does not need the degree of isolation required 
by the disposal regulations, or (C) waste that the Nuclear Regulatory 
Commission has approved for disposal on a case-by-case basis in 
accordance with part 61 of title 10 Code of Federal Regulations 
(CFR).'' ``High-level radioactive waste'' is defined in the Nuclear 
Waste Policy Act (NWPA) as ``(a) the highly radioactive material 
resulting from the reprocessing of spent nuclear fuel, including liquid 
waste produced directly in reprocess and any solid material derived 
from such liquid waste that contains fission products in sufficient 
concentrations; and (b) other highly radioactive material that the 
[Nuclear Regulatory] Commission, consistent with existing law, 
determines by rule requires permanent isolation.''
    DOE believes that certain tank waste in Idaho and Washington is not 
high-level waste but rather is TRU waste. This is largely for two 
reasons.
    First, DOE believes that this waste is not ``highly radioactive 
material resulting from the reprocessing of spent nuclear fuel.'' 
Rather, in the case of Idaho, the waste, known as ``sodium-bearing 
waste,'' is waste primarily from decontamination activities and 
wastewater resulting from operations at the Idaho Nuclear Technology 
and Engineering Center (INTEC). This waste also contains trace amounts 
of radioactivity from first-cycle reprocessing wastes resulting from 
heels from these wastes left in the tanks after the first-cycle 
reprocessing wastes were removed and calcined in anticipation of their 
disposal in the spent fuel repository, along with some second- and 
third-cycle reprocessing wastes that remained in the tanks after most 
of that waste was also calcined in anticipation of disposal in the 
spent fuel repository. These wastes, approximately 1 million gallons, 
are currently being stored in the same tanks that were used to store 
waste from reprocessing. The total curies that have been removed and 
calcined represent on the order of 98 percent of the total INTEC curie 
inventory generated through spent fuel reprocessing. In the case of 
Washington, there is waste in approximately 20 tanks at Hanford that 
DOE believes resulted from decladding of fuel prior to reprocessing and 
from the cleanup of plutonium that occurred after the reprocessing of 
spent fuel. In DOE's view, this waste does not result ``from 
reprocessing,'' whose purpose is to recover uranium and plutonium, but 
rather from activities necessary to prepare the fuel for reprocessing 
and to remove impurities from the recovered metals to meet weapons 
production purity standards. To put the point a little differently, 
this waste is very different from waste from the ``first solvent 
extraction or similar process by means of which uranium and plutonium 
are recovered from irradiated reactor fuel.'' That was the definition 
of ``high level waste'' used by the Consultation and Cooperation 
Agreement between the State of New Mexico and DOE which contained the 
original prohibition on disposal of high-level waste at WIPP and that 
we believe was at the heart of what Congress had in mind when it 
defined ``high-level waste'' in the NWPA. The WIPP Land Withdrawal Act 
specified that this Agreement was unaffected by the WIPP Land 
Withdrawal Act. The radionuclide concentrations in these wastes are 
substantially lower than those contained in wastes from the first cycle 
of spent nuclear fuel reprocessing.
    Second, DOE believes that this waste meets the definition of 
``transuranic waste'' and has other radiological characteristics that 
make it similar to other defense TRU waste in the complex that is being 
disposed of at WIPP, i.e., alpha-emitting radionuclide concentrations 
that are greater than 100 nanocuries per gram.
    With regard to the removal of fission products, with respect to the 
Idaho waste, as explained above, the current tank inventory in Idaho 
represents about 2 percent of the radioactivity from the initial spent 
fuel waste inventory, because 98 percent of that radioactivity has been 
calcined. This has also resulted in removal of on the order of 98 
percent of the cesium, strontium, technetium and actinides from 
reprocessing that the waste originally contained. As for the Washington 
waste, it never contained fission products from reprocessing operations 
to begin with (except for possible limited cross-contamination in three 
tanks due to the tanks' having been used for multiple purposes during 
their operating life times), and it is expected to contain less than 1 
percent of the radioactivity from the Washington tanks.
    WIPP does not have specific radionuclide or fission product 
limitations for acceptable waste. In fact, it is specifically 
statutorily authorized to receive remote-handled transuranic waste (RH 
TRU), which generally contains significant amounts of fission products. 
Instead, the relevant limitations in WIPP's waste acceptance criteria 
are fourfold. First, there is a statutory cap on the volume of RH TRU 
that WIPP may accept. While much of the treated TRU from Idaho and 
Washington is expected to be contact-handled, some is expected to be 
remote-handled, and disposal of that waste at WIPP will have to comply 
with the statutory volume limits. Second, WIPP has received approval 
from EPA to accept remote-handled waste, but it is still awaiting 
action from New Mexico on DOE's request for modification of its 
Resource Conservation and Recovery Act (RCRA) permit, so again, no 
remote-handled TRU from either site would be able to go to WIPP until 
that approval has been received. Third, WIPP has a performance 
assessment demonstrating that disposal of a total assumed volume of 
contact-handled and remote-handled transuranic waste with certain 
characteristics satisfies EPA's standards for disposal of transuranic 
waste. The tank waste from Idaho and Washington under consideration for 
WIPP disposal has characteristics consistent with the assumptions in 
that performance assessment and therefore can safely be disposed of 
there. Finally, DOE has submitted to the State of New Mexico a request 
for a modification of its RCRA permit that would require it to submit a 
further Class III RCRA permit modification for tank waste it is seeking 
to dispose of at WIPP. If that modification is approved, DOE would have 
to comply with its conditions as well.

                    $500 MILLION SETTLEMENT FOR BNFL

    Question. Earlier this week, trade publications reported that DOE 
had agreed to pay British-owned BNFL for cost overruns related to 
cleanups in Tennessee and Idaho. What can you tell me about the status 
of these negotiations between the U.S. and British officials and if 
there is any truth to the fact that DOE would provide $500 million to 
compensate BNFL for what appears to be a bad investment?
    Answer. DOE is working to resolve several outstanding contract 
issues under the BNFL contracts in Tennessee and Idaho. There is no 
final agreement at this time, but any resolution we reach with BNFL 
will only be reached if we believe it is in the interest of the 
taxpayers consistent with the programmatic interests of the Department 
and will allow us to meet our cleanup commitments.

                 WASTE INCIDENTAL TO REPROCESSING (WIR)

    Question. This budget provides $350 million to be spent to fund 
cleanup of nuclear material designated as Waste Incidental to 
Reprocessing (WIR). The budget states that enormous savings can be 
achieved if DOE is able to reclassify nuclear waste streams and follow 
through with cleanup remedies that have been negotiated with each 
State. However, a recent Idaho court decision is blocking final 
disposition of the material. Until this court ruling is resolved or 
legislation is passed, a final remedy cannot be prescribed. Can you 
please provide what you believe to be the total cost estimates to clean 
up the material in Washington, Idaho and South Carolina if you must 
treat all of this material as high level waste, verses the potential 
cost savings that would be realized if some of this material can be 
treated as waste incidental to reprocessing?
    Answer. The Department's baseline life-cycle cost for implementing 
its accelerated cleanup plans at Washington, Idaho and South Carolina 
is $52 billion, if some of the waste can be treated as waste incidental 
to reprocessing. If the Department must treat all of the material as 
high-level waste, the life-cycle cost increases to more than $138 
billion. Under this worst-case scenario:
  --Retrieval of all tank reprocessing wastes and treatment for 
        disposal in a geologic repository could require as much as $69 
        billion over the current Environmental Management program life-
        cycle cost baseline.
  --As much as an additional $17 billion--and possibly more--would be 
        required to exhume and dispose of tanks and associated 
        components in a geologic repository.
  --It is difficult to estimate the additional costs the Department 
        would incur in terms of Federal repository fees. Under existing 
        cleanup baselines, the Department expects to produce 
        approximately 20,000 canisters of high-level waste for disposal 
        in a geologic repository; the fee associated with these 
        canisters is estimated to be $10 billion. Under a scenario in 
        which all tank reprocessing wastes currently anticipated to be 
        removed and disposed of as low-level waste are instead prepared 
        for disposal in a repository, the new baseline could approach 
        200,000 canisters. Thus, the fees could be significantly 
        greater. This canister estimate does not include exhuming the 
        tanks themselves nor associated piping, equipment, and 
        concrete. At this time, the Department does not have accurate 
        estimates of the volumes for these additional materials that 
        also might need to be placed in the repository. (Calculating 
        the additional fee is complicated by the Department's statutory 
        and contractual obligation to dispose of commercial spent fuel 
        and by the statutory and physical constraints on the capacity 
        of a repository at Yucca Mountain, Nevada. While the statutory 
        70,000 metric ton limit on waste at Yucca Mountain is already 
        exceeded by the current inventory of waste, Yucca Mountain's 
        physical capacity could well also be exceeded if the volumes of 
        waste the worst-case scenario contemplates are added to current 
        estimates.)
    Question. Can you please explain why you don't believe this 
material in question at each site qualifies as the high-level waste and 
the processes that will ensure that high-level radioactive waste 
remains separate?
    Answer. The U.S. Department of Energy (DOE), the U.S. Nuclear 
Regulatory Commission (NRC), and the Atomic Energy Commission (AEC) 
(the predecessor of both DOE and the NRC) have long been of the view 
that while most of the radioactive waste from reprocessing is ``high-
level waste,'' some of the material is not high-level waste, and is 
instead ``waste incidental to reprocessing.'' Reprocessing waste is 
currently stored in tanks at DOE sites in Idaho, Savannah River, and 
Hanford.
    DOE plans to solidify, treat and dispose as high-level waste the 
portion of tank waste that contains by far the vast bulk of the 
radioactivity. At Idaho, DOE already has finished calcining these 
wastes; at Savannah River, DOE currently is vitrifying them through the 
Defense Waste Processing Facility; and at Hanford, DOE will vitrify 
them in the new Waste Treatment Plant currently under construction.
    But DOE, the NRC, and the AEC have also long been of the view that 
some of the tank waste can instead be properly classified as ``waste 
incidental to reprocessing'' that may be managed and disposed of as 
low-level waste. These wastes do not pose the same risk to human health 
and the environment and can safely and lawfully be disposed of as low-
level waste because they do not need the degree of isolation that the 
more highly radioactive wastes require.
    To determine which tank waste may be managed in this fashion, DOE 
has used criteria developed originally through an iterative process of 
consultation with the NRC regarding particular tanks waste, and 
subsequently codified in the ``Waste Incidental to Reprocessing'' 
portions of Order 435.1, DOE's Order governing classification of 
nuclear waste. These criteria specify that to classify waste as low-
level WIR, DOE must remove as much radioactivity as possible, and that 
what remains must be solidified and put in a form that will meet 
performance objectives for disposal of low-level waste as set out in 10 
C.F.R. part 61--primarily, that it will not result in an annual dose to 
a member of the public of more than 25 millirems and that inadvertent 
intruders will also be protected.
    DOE believes that this approach is protective of public health and 
safety and consistent with the Nuclear Waste Policy Act's (NWPA) 
definition of ``high level waste.'' The NWPA defines ``high-level 
radioactive waste'' as: (A) the highly radioactive material resulting 
from the reprocessing of spent nuclear fuel, including liquid waste 
produced directly in reprocessing and any solid material derived from 
such liquid waste that contains fission products in sufficient 
concentrations; and (B) other highly radioactive material that the 
Commission, consistent with existing law, determines by rule requires 
permanent isolation.'' [emphasis added] DOE believes that the criteria 
described above properly distinguish between ``highly radioactive'' 
material from reprocessing that ``requires permanent isolation'' in the 
spent nuclear fuel repository and ``non-highly radioactive'' material 
from reprocessing that does not.
    We recognize that some doubt has been cast on the correctness of 
this view by the Idaho District Court decision in NRDC v. Abraham. The 
Department has appealed that decision and has also asked Congress to 
enact legislation to clarify this matter.

                       DEFINING HIGH-LEVEL WASTE

    Question. Part of the debate over WIR involves the rather unclear 
definition of high-level waste. We now identify waste depending on how 
it was generated, not on how radioactive it is--that doesn't make much 
sense. Do you agree that a serious National Academy of Sciences study 
to improve the definition of high-level waste might help clarify this 
issue and avoid the kind of debates you are now having with Waste 
Incidental to Reprocessing?
    Answer. The Department agrees that identifying waste depending on 
how it was generated rather than on its radioactivity does not make 
much sense. However, while a serious National Academy of Sciences study 
to improve the definition of high-level waste might help clarify this 
issue, such a study would not provide DOE the legal certainty it needs 
to make the kinds of decisions it must make to clean up the tank farms.
    DOE's accelerated cleanup plans for the tank farms at Idaho, 
Hanford, and Savannah River all depend, in part, on DOE's being able to 
classify certain waste from reprocessing as low-level or transuranic 
waste. DOE's problem is that the District Court has ruled that the 
underpinnings of these cleanup plans are contrary to Federal law, and 
that if it proceeds with key aspects of the current cleanup plans, the 
District Court has signaled that it will issue an injunction telling 
DOE to stop.
    Therefore, any new or different criteria DOE might promulgate, even 
if based on the advice of the National Academy of Sciences, would also 
likely be the subject of legal challenge. Unless Congress acts quickly 
to clarify the Department's authority to proceed, our efforts to clean 
up the tank farms at these sites, which are at the core of our 
accelerated cleanup plans there, will be largely paralyzed.
    Question. It is unclear from the budget how much material there is 
at each of the sites and the amounts of material DOE believes should be 
designated as high level, transuranic and low-level waste at each of 
the sites.
    Answer. DOE currently has roughly 91 million gallons of waste from 
reprocessing stored in tanks in Idaho, Savannah River, and Hanford. 
Stabilizing and disposing of this material and closing the tanks is the 
Department's single largest ongoing environmental risk-reduction 
project.
    DOE's plans at all three sites call for removing on the order of 99 
percent or more of the radioactivity from the tanks. At all three 
sites, DOE's plans then call for solidifying, treating and disposing of 
the vast bulk of the removed radioactivity from these stored wastes in 
a deep geologic repository for spent nuclear fuel and high-level waste. 
At two of the sites (Savannah River and Hanford) DOE's plans call for 
solidifying, treating and disposing of some of the removed waste, 
consisting of lower-activity salts that in most instances will have 
been further treated to remove additional actinides and cesium, and 
which will contain only a small fraction of the radioactivity from the 
tanks, as low-level waste on-site. Likewise, at two of the sites (Idaho 
and Hanford), DOE's plans call for solidifying, treating and disposing 
of some of the removed waste, again containing a small fraction of the 
tank radioactivity, as transuranic waste at the Waste Isolation Pilot 
Plant (WIPP). Finally, at all three sites DOE's plans call for grouting 
in place in the tanks a very small amount of residual waste remaining 
in the tanks.

Waste Destined for Spent Fuel Repository
    Specifically, of the 99 percent or more of the curies removed from 
the tanks, at Idaho, DOE already has finished calcining the wastes 
destined for the spent fuel repository, representing on the order of 98 
percent of the total tank waste radioactivity. At Savannah River, DOE 
is currently vitrifying the wastes destined for the spent fuel 
repository, representing on the order of 99 percent or more of the 
total tank waste radioactivity, through the Defense Waste Processing 
Facility. At Hanford, DOE is not as far along in the cleanup process, 
since it is still building the principal facility it will use to 
prepare waste for disposal at the spent fuel repository and developing 
other aspects of its plans. There too, however, DOE anticipates that it 
will treat and dispose of the vast bulk of the radioactivity in the 
spent fuel repository using the new Waste Treatment Plant currently 
under construction.

Waste Anticipated To Be Disposed of On-Site as Low-Level Waste
    In addition, of the 99 percent or more of the radioactivity to be 
removed from the tanks, at Savannah River and Hanford, DOE's plans call 
for retrieving and processing the lower-activity salt waste from the 
tanks that in most instances will have been further treated to remove 
additional actinides and cesium for disposal on-site as low-level waste 
in saltstone vaults at Savannah River and at a facility permitted under 
the Resource Conservation and Recovery Act (RCRA) for mixed low-level 
waste disposal at Hanford. Again, this waste represents a small 
fraction of the radioactivity from the tanks--on the order of 1 percent 
or less of the tank waste radioactivity at Savannah River and a small 
amount of the tank waste radioactivity at Hanford. At both sites, this 
waste would have to meet the performance objectives for disposal of 
low-level waste specified in 10 C.F.R. Part 61 under which a member of 
the general population cannot receive an annual dose of more than 25 
millirem from the residues, and an inadvertent intruder must be 
protected as well. In addition, at both sites, the waste would have to 
be disposed of in accordance with State environmental law permits 
because of its chemical constituents, and DOE would have to account for 
this waste disposal in overall site remediation and closure under the 
Comprehensive Environmental Response, Compensation and Liability Act 
(CERCLA).

Waste Potentially Disposed of as Transuranic Waste at WIPP
    Further, at Idaho and Hanford, of the 99 percent or more of the 
curies removed from the tanks, DOE's plans call for retrieving and 
processing some of the tank waste (representing a small fraction of the 
radioactivity in the tanks) for disposal as transuranic waste at WIPP. 
This would contain on the order of 1 percent of the tank waste 
radioactivity at Idaho and less than 1 percent of the tank waste 
radioactivity at Hanford. This includes the sodium-bearing waste which 
comprises the remaining liquids in the 8 tanks in Idaho, and the 
contents of between 8 and 20 tanks of the 177 tanks at Hanford. This 
waste would have to meet WIPP's waste acceptance criteria in order to 
be sent there. Its disposal there would have to be shown to be 
consistent with the assumptions made in WIPP's performance assessment, 
which demonstrates that the repository and the waste disposed of there 
complies with the Environmental Protection Agency's standards for 
disposal of transuranic waste and is protective of humans and the 
environment. It also would have to comply with any other relevant WIPP 
limits such as the WIPP Land Withdrawal Act's statutory limit on how 
much remote-handled transuranic waste may be disposed of at WIPP. In 
addition, DOE has committed to New Mexico to seek a specific WIPP RCRA 
permit modification from the State addressing these waste streams 
before sending them there.

Tank Residues
    Finally, at all three sites, DOE's plans call for grouting in place 
a very small amount of residual waste remaining in the tanks. DOE 
anticipates that these residues will constitute on the order of 1 
percent or less of the overall tank radioactivity. More importantly, 
under DOE's plans, when this process is complete, the residual waste 
grouted in place will have to meet standards for disposal of low-level 
waste specified in 10 C.F.R. Part 61, under which a member of the 
general population cannot receive an annual dose of more than 25 
millirem from the residues, and an inadvertent intruder must be 
protected as well. By comparison, a frequent flyer receives 
approximately 100 millirem per year from cross-country airline trips, 
and individuals receive at least 20 millirem from each medical X-ray. 
The treated and grouted residues will also have to meet State 
environmental law requirements with respect to their chemical 
constituents and will have to be accounted for in overall site 
remediation and closure under CERCLA.

                SMALL BUSINESS CONTRACTS AND EM CLEANUP

    Question. I realize that OMB is forcing DOE to increase the number 
of contracts they extend to small business and at the same time DOE is 
forcing the labs and sites to reduce their small business contracting 
just so DOE can meet its ``quota.'' I don't think it makes sense for 
DOE to manage a large number of small business contracts at each site. 
This is exactly what led to the frustration that created the NNSA out 
of the DOE. I'm so concerned about this trend that I've scheduled a 
hearing in the Energy and Natural Resources Committee for this subject. 
I fear that some of these procurements are placing contracts with small 
businesses that jeopardize the safe effective performance of critical 
work. There are two examples of small business set asides related to EM 
that concern me. The first is the very complex site cleanup for Paducah 
and the second is the draining of sodium coolant from the FFTF reactor 
at Hanford, which is also an extremely dangerous job. How can you 
assure me that EM is not jeopardizing effective completion of critical 
tasks with this rush to entrust procurements to small businesses?
    Answer. As part of its strategy to increase competition and the 
cadre of business firms with the core competencies to effectively meet 
the challenges of EM's accelerated cleanup mission, EM elected to issue 
competitive procurement actions set-aside for small business firms. 
Prior to making a final decision on competing a small business set-
aside contract, EM publishes a Federal Business Opportunities 
(FedBizOps) sources sought notice inviting firms to demonstrate their 
capabilities to perform the work, either alone or by teaming with other 
firms. Responses to these notices are carefully reviewed to ensure that 
qualified companies are available to perform the work prior to issuance 
of a final solicitation. This process was followed for both Paducah and 
the Fast Flux Test Facility contracts.
    Firms, large and small, competing to perform EM work scopes are 
held to the same high-level expectations. These firms must clearly 
demonstrate a robust safety program, sound technical approaches to 
safely complete the work, cost-effective work practices, commitment of 
a strong management team, and demonstrated experience in performing 
similar work. The same metrics for measuring performance after award 
are applied regardless of the size of the firm performing the work.
    EM is pursuing small business opportunities aggressively; and I am 
confident that sufficient checks and balances, management commitment, 
and accountability are built into the acquisition and project 
management processes to assure that the small business firms selected 
for these projects will contribute substantially to EM's success in 
meeting accelerated cleanup schedules.

                         RISK BASED END STATES

    Question. Earlier this year, EM raised serious concerns at Los 
Alamos and other sites when you asked each site to sign off on a so-
called Risk Based End State (RBES), which would serve as the benchmark 
measuring the end of cleanup at each site. I've heard concerns at some 
sites that they did not have enough time to involve the public in a 
decision of such serious impact on the people living and working at 
these sites. Has EM provided additional time at each site for 
development of the RBES, and is the public being seriously and 
significantly involved in development of each of these RBES site 
criteria?
    Answer. Stakeholder involvement is an essential part of the RBES 
process. The RBES documents will remain drafts for quite a while, 
possibly even 6 months, until we believe that we have adequately and 
openly addressed any issues or concerns with the public and with the 
regulators.

                  DOE PLAN TO CONVERT DEPLETED URANIUM

    Question. What is the status of the depleted uranium plants located 
at Portsmouth and Paducah?
    Answer. Construction on the depleted uranium hexafluoride (called 
DUF<INF>6</INF>) project is on schedule for start by July 31, 2004. DOE 
is working to issue the Environmental Impact Statement Record of 
Decision which must be completed prior to the start of construction.
    Question. Will these plants be able to accept waste material from 
outside the State?
    Answer. We note that DOE does not consider its DUF<INF>6</INF> to 
be waste and therefore, views the facilities as conversion facilities, 
not waste processing facilities. Some cylinders containing 
DUF<INF>6</INF> are being received in Portsmouth, Ohio, from the East 
Tennessee Technology Park in Oak Ridge, Tennessee. No other off-site 
materials are currently planned for conversion at these sites other 
than possible shipments between the two sites. However, there is 
nothing in the design of the plants that would preclude their use for 
other DUF<INF>6</INF>.
    Question. Is there any additional R&D to be undertaken to 
demonstrate the viability of these facilities?
    Answer. No. The dry conversion technology the facilities will use 
is a scaled up version of a process already commercially viable and in 
use at Richland, Washington, and in Germany.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Ms. Roberson, I understand you have decided to terminate 
at the end of this fiscal year the partnership DOE has with the General 
Services Administration to provide child care for Federal and 
contractor employees at Hanford. I also understand that child care is 
particularly tight in Richland, especially for infants, and that this 
move is likely to displace 60+ children. In addition to affecting 
operations of the existing facility, this decision almost certainly 
will kill the plans for a new state of the art facility, for which bids 
had already been received. Is DOE terminating this important employee 
benefit at all of its facilities or at ANY other site except Hanford?
    Answer. Employee benefits vary from site to site so a comparison of 
one single area does not provide a true measure of the benefits that 
are afforded our Federal and contractor workforce.
    The Department is hopeful that GSA will continue its plans for the 
new facility and sees no reason why our discontinuation of subsidy 
payments should be a hindrance toward that goal if GSA's survey is 
correct and the need for childcare in the Richland area is growing.
    If GSA decides to pursue other Federal partnerships in the Richland 
area, it would have many to choose from, including the Federal Bureau 
of Investigation, the Postal Service and the Environmental Protection 
Agency.
    Question. Why is providing childcare suddenly no longer a priority?
    Answer. EM's priority is environmental restoration. With regard to 
the childcare facility, earlier this year a DOE assessment revealed a 
level of participation and interest by Federal employees that was 
inconsistent with the amount of Federal dollars being spent to 
subsidize the childcare facility. Based on this assessment, and the 
shrinking of both the Federal and contractor workforces as cleanup 
projects reach completion, DOE believes these funds would benefit a 
much broader range of people if invested in the workforce to accelerate 
Hanford cleanup.
    Question. Have you considered a longer transition period to ensure 
DOE will continue to be a good corporate neighbor and allow a new, high 
quality facility to be developed?
    Answer. The notification period to GSA is 120 days, taking us 
through the end of September 2004. This should be sufficient for the 
private childcare facility operator to seek funding from other 
entities.
    Again we are hopeful that GSA will continue to pursue its idea of a 
new facility.
    Question. Will DOE (or GSA) be liable for costs incurred in the 
design, bid proposals, etc. for the new childcare facility that will 
now (likely) not be built?
    Answer. GSA is the sole Federal agency responsible for the 
construction of the new childcare facility. To date, we understand that 
GSA has spent $275,000 on architectural design and energy modeling 
contracts but has not awarded the construction contract for the new 
childcare facility, so neither costs nor penalties are currently being 
incurred.
    Question. Ms. Roberson, contractors at the Hanford site and the 
Hanford Atomic Trades Council have for years successfully negotiated 
pension plan and other cost effective agreements--with the full 
approval and endorsement of DOE. It is my understanding that the DOE is 
actively pursuing new contracts for multiple projects, specifically the 
Fast Flux Test Facility Closure Project, the 222 S Analytical Services 
Project, and the River Corridor Closure Project. I am very concerned 
that these Requests for Proposals (RFPs) contain a new two-tiered 
pension system that only requires 5 years of pension contributions from 
the winning bidder. Some might see this move as a back door attempt by 
the DOE to reduce their costs by reducing requirements for pension 
contributions.
    Hanford employees have remained dedicated to completing the 
challenging tasks of the mission. This spirit of labor/management 
cooperation will be seriously jeopardized if workers are now told that 
the pension benefits they have earned will need to be reduced in order 
to save DOE money. I would like to know what you intend to do to 
maintain the level of pension benefits workers have been promised and 
have earned through years of their hard work at Hanford?
    Answer. DOE agrees that the addition of new contractors and 
multiple pension plans for Hanford employees may have potential impacts 
on workers. However, the DOE Richland Operations Office will ensure 
that the new contracts minimize any such issues. The Department 
anticipates responsive resolution of any issues that may arise.
                                 ______
                                 
  Questions Submitted to the Office of Environment, Safety and Health

            Questions Submitted by Senator Pete V. Domenici

                    REPORTING OF INJURY AT DOE SITES

    Question. I was disappointed to read in the Washington Post that an 
Inspector General's draft report found that DOE failed to report a 
significant number of injuries that occurred at DOE sites. The 
Inspector General found that DOE maintained ``inaccurate and incomplete 
accident and injury data.'' This article also alluded to the fact that 
accelerated cleanup contributed to the behavior of not reporting worker 
injury. Assistant Secretary Cook, since the responsibility for worker 
safety and environmental protection falls under your watch; I would 
like a full explanation as to how the IG has come to these conclusions. 
Are these allegations of under-reporting accurate and if so, where and 
to what extent has this occurred within the DOE complex?
    Answer. We take all issues raised by the IG very seriously, 
especially those involving safety. The Inspector General has a rigorous 
process for generating reports and part of that process is asking for a 
review of the draft report for factual accuracy. Our initial findings 
indicate that many of the conclusions are based on out-of-date or 
incorrect information. We identified and began corrective actions on 
some of the items identified in the report over a year ago. In other 
cases, the Program Offices have taken other measures to get up-to-date, 
accurate information directly from the field sites, to resolve the 
delay time in getting information into the data system. I do not agree 
that the accident statistics for the Department are under-reported.
    Question. What are you doing about the current findings of the 
Inspector General that DOE is not accurately reporting worker injuries?
    Answer. We are providing comments to the Inspector General on the 
inaccuracy of some aspects of the report as it addresses reporting 
worker injuries while continuing to implement the changes that have 
been underway for over a year to correct other issues.
    Question. Why are we learning of this activity from the Inspector 
General and not your office? What are you doing to correct this?
    Answer. Actions were already underway by my office to correct the 
known problems with the reporting system, and by the Program Offices to 
obtain accurate information in other ways until these actions were 
completed.

                    OVERSIGHT REORGANIZATION REFORM

    Question. Ms. Cook, your testimony references oversight changes and 
restructuring of your Office in 2002 and 2003. In 2002, you noted that 
the independent oversight functions were removed from your office and 
you now work to promote ``safe and environmentally compliant conduct of 
work.'' In 2003, your restructuring efforts describe cuts to management 
and new focus on ``e-government initiatives.'' If you aren't performing 
oversight in areas of worker safety--what office is?
    Answer. The Office of Independent Oversight and Performance 
Assurance performs independent oversight of safety and security for the 
Department of Energy.
    Question. Did any of the changes since 2002 result in your 
inability to hold DOE contractors to the highest level of worker 
safety?
    Answer. DOE holds its contractors to the highest level of worker 
safety. EH writes the policies and requirements and provides technical 
assistance to the program offices who implement these requirements. The 
Office of Independent Oversight evaluates DOE and contractor compliance 
with these requirements. EH continues to analyze the information 
provided by the Office of Independent Oversight, especially where 
contractors may not be in compliance, in order to refine the 
requirements to achieve the right outcomes; protecting our workforce 
and the public. The changes in EH over the last several years has 
allowed us to better focus on setting the right policies to drive the 
right performance.

                           DOE SITE PROFILES

    Question. Last year, DOE testified that it was in the process of 
developing site profiles to pull together the necessary site data in 
order to speed up the case approval process for workers that were made 
sick while working for the Department. DOE's testimony stated that by 
developing a complete understanding of the occupational hazards at each 
of the DOE sites, it will help the doctors in evaluating claims of 
exposure based on the hazards a worker may have been exposed to and 
when. The site profiles will significantly improve the doctor's ability 
to do their job. Where do we stand on the development of site profiles 
and how much is being spent in fiscal year 2004 and how much have you 
provided for this effort in fiscal year 2005?
    Answer. DOE already provides all available medical, work history, 
work exposure and facility information to the Physician Panels. We 
consider the information DOE has been providing to the panels to be 
adequate to support Physician Panel deliberations. With respect to 
``site profiles'', the term is not clearly defined and the Department 
believes that creating site profiles as commonly defined by advocates 
of this process would be a costly and time consuming effort that would 
not provide substantial assistance to Part D applicants. Further, it is 
not clear whether there is even adequate data to profile toxic 
exposures at DOE facilities in any reasonable way. Regulatory 
requirements for the collection and maintenance of information relevant 
to ionizing radiation exposures, such as the data used by NIOSH for 
Part B, predate and far exceed such requirements for occupational 
exposures to potentially toxic chemicals (Part D) at worksites. Such 
requirements, referred to as job-exposure matrices, can be 
exceptionally difficult, labor intensive, and expensive, if they are 
scientifically feasible at all.
    In fiscal year 2004, with the recent $23.3 million appropriations 
transfer that Congress approved, DOE will spend roughly $49 million to 
collect, compile, categorize and summarize the information required by 
the Physician Panels process. Of this, roughly $24 million will be 
spent on collecting information from the field sites and $25 million 
will be spent on data quality control, compiling, categorizing, 
summarizing and post-panel quality control. In fiscal year 2005, $14 
million is being requested for these functions.
    Question. How much will it cost and how long will it take to 
develop a site profile at each of the 15 largest DOE facilities?
    Answer. Currently, DOE is soliciting information on how to scope a 
project for providing a ``site overview.'' This project would provide 
for each site a generally standard format and improved categorization 
of existing information. At this time DOE does not have a specific 
dollar figure for this project. As discussed above, DOE believes that 
the limited value to a qualitative assessment on some pre-defined set 
of agents does not justify the high cost for developing this 
information and, therefore, DOE has no current plans to conduct or 
prepare comprehensive ``site profiles'' for DOE's facilities.
    Question. Can you provide for the record a timeline as to when you 
expect to have site profiles for the sites?
    Answer. DOE does not have a timeline for the development of site 
profiles. As discussed above, DOE believes it would not be prudent to 
develop and prepare ``site profiles'' as that term is commonly defined. 
However, DOE is investigating the development of site overviews that 
would better package existing data by site.

                             BUDGET DETAILS

    Question. The fiscal year 2005 request fails to provide the same 
level of detail for the Office of Environment, Safety and Health as 
provided in the fiscal year 2004 request, especially in the area of the 
Energy Supply--Health Account. In addition to providing fewer details 
of your spending priorities there is also significantly less money. The 
budget provides $45 million. This is $22 million less than was provided 
in fiscal year 2004. I would appreciate a written description of your 
program budgets within each of the following accounts--Health, Employee 
Compensation, and Corporate Safety.
    Answer. The budget is broken down in detail commensurate with the 
total budget amounts. However, the budget request was based on certain 
assumptions.

Under Health
    Occupational Health ($15,902,000).--This includes former worker 
medical screening, former beryllium worker surveillance, medical 
monitoring of former workers from Rocky Flats, integrated DOE 
occupational medicine support, and a portion of the funding for the 
Radiation Emergency Accident Center/Training Site (REAC/TS).
    Public Health ($13,500,000).--This includes funding to other 
agencies, including the National Institute for Occupational Safety and 
Health (NIOSH), the National Center for Environmental Health (NCEH) and 
the Agency for Toxic Substances and Disease Registry (ATSDR) for 
independent energy-related studies relevant to DOE workers and 
neighboring communities.
    Epidemiologic Studies ($3,300,000).--This includes a collection of 
both medical and exposure information to expand understanding of the 
health effects of radiation, chemical and other hazards to current DOE 
workers and the public.
    International Programs ($12,520,000).--This supports the upgrading 
and validation of our knowledge of radiation health effects among 
workers and populations exposed to ionizing radiation in the former 
Soviet Union and Spain, participation in the life span study of the 
Hiroshima and Nagasaki exposed population and environmental monitoring 
to support resettlement activities as well as special medical care for 
a specific group of radiation-exposed individuals in the Marshall 
Islands.
    Total.--$45,222,000.

Under Employee Compensation
    For EEOICPA, the fiscal year 2005 budget request is $43 million for 
the operations of the EEOICPA Part D program, which includes the 
following activities and funding allocations. Resource centers jointly 
managed with the Department of Labor are funded at $2.4 million. These 
centers provide outreach to potential EEOICPA applicants and support 
during the application process. Collecting and producing medical, work 
history, work exposure and facility information data from the DOE field 
sites are provided $14 million. Processing the Part D cases up to the 
Physician Panels, paying for the Physician Panels and providing for 
quality controls are funded at $24.6 million. Additional Federal staff 
to manage the 200 percent increase in case processing and the 900 
percent increase in Physician Panel determinations that will be 
required to eliminate the backlog of Part D applications at DOE in 2006 
is provided $2 million.

Corporate Safety.--$10,883,000
    Performance Assessment/Information Management ($2,000,000).--This 
provides for the analysis and certification of DOE's performance by 
synthesizing operational information, and also provides web-based 
information technology support for effectively distributing safety and 
health information.
    Quality Assurance ($6,483,000).--This provides quality assurance 
policies and requirements to support current DOE missions, and performs 
evaluations and accreditations to ensure that the health and 
environmental data that is generated by DOE is technically defensible. 
This includes the operation of the Radiological and Environmental 
Science Laboratory, a Federal reference laboratory that performs much 
of the Department's evaluation and accreditation services.
    Facility Safety ($1,600,000).--This supports appraisals of 
accidents, facility authorizations bases and safety allegations, and 
special safety reviews on specific topics such as seismic analysis, 
fire protections, facility design and the startup/restart of 
facilities.
    Enforcement ($800,000).--This activity covers the statutory mandate 
of the Price-Anderson Amendments Act of 1988 to enforce compliance with 
Code of Federal Regulations nuclear safety requirements at DOE sites 
and the enforcement of the Worker Occupational Safety and Health Rule.
    Question. Where do you propose to make the $22 million in spending 
cuts from the fiscal year 2004 appropriation to meet this year's 
request?
    Answer. The DOE EH health budget includes a variety of activities. 
There are several items in the health budget that require less funding 
in fiscal year 2004 comparable appropriation is $22 million more that 
the fiscal year 2005 request. The comparison to prior year funding is:

                             FUNDING SUMMARY
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Program/Activity Health Fiscal Year 2003 Comparable               50,051
 Appropriation..........................................
Program/Activity Health Fiscal Year 2004 Requests.......          66,660
Program/Activity Health Fiscal Year 2004 Comparable               67,335
 Appropriation..........................................
Program/Activity Health Fiscal Year 2005 Requests.......          45,222
------------------------------------------------------------------------

    Of the total decrease of $22 million, several items account for a 
decrease in the request of $16 million from fiscal year 2004 to fiscal 
year 2005 includes:
  --Decrease $12 million for international health studies. DOE's role 
        in certain studies is reduced as they are coming to closure. 
        The Department also plans to use carryover balances to meet 
        some fiscal year 2005 requirements. DOE is evaluating its 
        responsibilities and future involvement in these studies.
  --Decrease of approximately $3 million for public health studies 
        around DOE sites because studies have concluded. These studies 
        are conducted by Health and Human Services (HHS) agencies. This 
        is transitioning to smaller, more highly focused studies, and 
        it is expected that HHS will complete the DOE studies in fiscal 
        year 2007.
  --Decrease of approximately $1 million for DOE occupational health 
        programs, due to efficiencies to be realized by combining the 
        12 individual worker screening programs into a comprehensive 
        nationwide program. The nationwide programs will provide the 
        most efficient and effective method to guarantee that all 
        former DOE workers are offered the opportunity to participate 
        and will be served consistently across the complex.
    Question. Please provide a summary of the Marshall Islands Program 
budget for fiscal year 2003, fiscal year 2004, and proposed for fiscal 
year 2005, which presents the Program's budget components, describes 
the activities to be changed, and the reasons for such changes.
    Answer. The following breakdown of the Marshall Islands Program is 
provided for fiscal year 2003, fiscal year 2004 and fiscal year 2005.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year
                        Program Activity                               2003       2004 Allocated       2005
----------------------------------------------------------------------------------------------------------------
Medical.........................................................           2,340           2,100           2,100
Environmental...................................................           3,950           2,200           1,900
                                                                 -----------------------------------------------
      TOTAL.....................................................           6,290           4,300           4,000
----------------------------------------------------------------------------------------------------------------

    There are no activities to be changed in the level of services 
provided as part of medical surveillance and treatment of radiation-
related conditions in fiscal year 2005. The medical program provider 
has managed the program for 6 years, therefore the program is under 
review and options for its future design and management are being 
considered. Upon review of options with Federal partners, the options 
will be presented to the Government of the Republic of the Marshall 
Islands, and the governments of the two affected atolls for discussion.
    For the environmental program, the changes in fiscal year 2004 were 
directed at clearing up the analysis backlog of the environmental 
samples gathered form the Marshall Islands and the preparation a final 
analytical summary report to support future program planning purposes. 
To date $4.3 million has been allocated as detailed in the above chart. 
Other than reductions associated with Congressionally directed prior-
year offsets and rescissions, the only difference between appropriated 
and allocated-year-to-date is $1.5 million. That amount is being held 
in reserve to address additional activities which will be developed in 
conjunction with the Marshallese during the annual June-July meeting 
sponsored by DOE.
    The field missions for fiscal year 2004 were suspended to allow the 
scientists to focus on this backlog. The suspension did not delay any 
work required to assist in resettlement of Rongelap Island. In fiscal 
year 2005, the environmental program will support resettlement 
activities on Rongelap Island and the network of whole body counting 
facilities. The funds requested are adequate for these two activities.

                          DOE AND HHS STUDIES

    Question. DOE and HHS have signed cooperative MOUs over the past 15 
years that require DOE to provide funding to the National Institute for 
Occupational Safety and Health (NIOSH) for epidemiological studies on 
former DOE workers. I understand that the existing MOU will expire at 
the end of this year. Will you sign another agreement to provide for 
independent health studies of former DOE workers?
    Answer. It is the intention of DOE to develop, in cooperation with 
HHS organizations, a new MOU for the conduct of independent health 
studies. A draft revised MOU has been prepared; following internal 
review it will be sent to HHS for comment.

                    MARSHALL ISLANDS HEALTH TESTING

    Question. The traditional mission of the Marshall Islands Program 
has been to monitor health and the environment in the four affected 
communities. In the 1990's, the Program entered into MOAs with the four 
Atolls to support remediation and resettlement activities, but DOE's 
level of commitment to these new activities is unclear. Does DOE regard 
its support for remediation and resettlement activities as dependent on 
its traditional monitoring activities?
    Answer. DOE is committed to and will continue to meet its 
responsibilities to provide medical surveillance and treatment for 
radiation-related conditions among the exposed population on Rongelap 
and Utrik Atolls and to support resettlement activities. DOE will be 
negotiating annual work plans with each of the four atolls to assure 
continued environmental monitoring support for resettlement.
    Question. Are these activities undertaken on an ``as funds 
available'' basis, or would DOE request funds if necessary to support 
the remediation and resettlement activities set forth in the various 
MOAs?
    Answer. DOE annually requests funding that will assure continuity 
in medical surveillance and treatment of radiation-related conditions 
and support for resettlement activities. Environmental monitoring 
activities in the MOU's have in the past been supported on an ``as 
funds are available'' basis. It is DOE's intention to request and 
dedicate resources to meet its legislative responsibilities.
    Question. What is the status of DOE's MOAs with the four affected 
communities? Does DOE plan to extend the MOAs upon on their expiration?
    Answer. The Bikini MOU expired several years ago and has been 
replaced with an annual work plan; the Rongelap MOU extension expires 
this June; the Enewetak MOU expires in 2005, and the Utrik MOU in 2007. 
It is DOE's intention to explore with representatives of the four 
Atolls transitioning from MOUs to annual work plans that would focus 
activities on providing environmental monitoring support to 
resettlement.
    Question. Do you plan to have a physical DOE presence in the 
Marshall Islands, if so, where and what will their responsibilities 
entail?
    Answer. DOE is evaluating the need for a physical presence, beyond 
the logistical support office on Kwajalein Island, in order to provide 
environmental monitoring support to resettlement.

                    MARSHALL ISLANDS CARRYOVER FUNDS

    Question. It is my understanding that $1.5 million in fiscal year 
2004 funds has not been expended at this time. Is that correct? What 
work is not being performed in the Marshall Islands as a result of the 
withholding of this $1.5 million?
    Answer. It is correct that $1.5 million in fiscal year 2004 funds 
appropriated for the Marshall Islands are not currently planned to be 
expended in fiscal year 2004. This funding was identified for 
conducting an environmental mission to the Marshall Islands.
    Question. Given that there are 6 remaining months in this fiscal 
year, why hasn't this funding been obligated?
    Answer. It is felt that it is most important at this time to 
dedicate contractor resources to the development and publication of 
scientific and technical reports and articles on the latest 
radiological status. These reports and articles, providing the latest 
results of analysis of samples from previous environmental missions, 
will be critical to informing all parties in the conduct of 
deliberations concerning the Republic of the Marshall Islands Changed 
Circumstances Petition. The Department conducts annual meeting with the 
Marshallese and jointly prioritizes additional activities. These funds 
may be used for those specific activities or other follow-on activities 
jointly determined to be needed.
    Question. Could the remaining $1.5 million be used pursuant to 
DOE's MOAs with the four affected atolls? If yes, why hasn't DOE 
pursued this option?
    Answer. It is important that contactor efforts be dedicated to the 
development and publication of scientific and technical reports and 
articles analyzing the results of prior environmental missions at this 
time. It is DOE's intention to support activities in the MOU's 
consistent with these legislative responsibilities. The remaining $1.5 
million will be dedicated to the Marshall Islands program in the 
conduct of future activities in support of the medical care and 
resettlement activities.
    Question. Can this $1.5 million be reprogrammed to other activities 
within DOE or must it be expended within the Marshall Islands Program?
    Answer. It is DOE's intention to support its legislative 
responsibilities in the Marshall Islands. The $1.5 million could be 
reprogrammed in fiscal year 2004, with Congressional approval, but DOE 
has no intention of doing so at this time.

                   EXISTING SAMPLES--MARSHALL ISLANDS

    Question. What is the status of the previous samples that have been 
taken by Livermore scientists at the Marshall Islands?
    Answer. The DOE contractor is in the process of completing analysis 
and writing scientific and technical reports and articles to provide 
the latest data and information on radiological conditions on the four 
Atolls in the Marshall Islands.
    Question. Is it correct that, at this time, the samples have been 
analyzed and the Department is in the process of preparing a summary 
report? If yes, when will that report be available?
    Answer. Yes, the DOE contractor is in the process of preparing 
scientific and technical reports and articles on radiological 
conditions in the Marshall Islands. The contractors draft report is to 
be submitted to DOE for review. DOE has seen an early draft of the 
Whole Body Counting results, is awaiting a draft report on plutonium 
uptake data results, and expects a draft report on ``where we stand'' 
on the radiological characterization of the four Atolls in the near 
future. The contractor has not determined its delivery dates for the 
deliverables to DOE.

                    MARSHALL ISLANDS ANNUAL MEETING

    Question. Will Program officials hold their next annual meeting 
with representatives of the four Atolls in June 2004? If not, when will 
that annual meeting take place?
    Answer. DOE Program officials do plan to hold the annual meeting 
with representatives of the four Atolls in June 2004 timeframe.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Ms. Cook, why ramp down the Hanford Former Worker Program 
(Hanford FWP) if there are over 2,700 workers with significant past 
exposures and who have requested examinations waiting to be screened at 
that site?
    Answer. We are not ramping down the program. We are transitioning 
to a nationwide medical screening program that will serve all former 
workers from all DOE sites locally. The Hanford Former Production 
Worker Medical Screening Project was initiated in 1996 as a 5-year 
pilot project. Any former worker interested in medical screening who is 
not seen this year by the Hanford Former Production Worker Medical 
Screening Project will be seen by the nationwide program, which is 
scheduled to be in place in October 2004.
    Question. Ms. Cook, how will USDOE ensure that workers who are 
currently awaiting exams in the FWPs do not risk being dropped from the 
program in the transition to a national program (subject of new RFA)?
    Answer. DOE has provided the principal investigator of each site-
specific project with a toll-free number that can be given to 
individuals interested in screening but for whom the ongoing medical 
screening projects cannot see this year. Additionally, through the 
existing site-specific projects, DOE will soon mail an information 
package regarding the transition to a nationwide program. Included in 
this package is an authorization for individuals to sign requesting 
that their names and mailing addresses be provided to DOE. DOE will 
then send them additional information upon initiation of the new 
nationwide program.
    Question. Ms. Cook, has performance of medical screening grantees 
known as the former worker program been satisfactory?
    Answer. For the most part, yes. However, there are several lessons 
learned from this effort. These include the following:
  --DOE's central management of these projects is complicated by the 
        multiple management teams within each of the numerous 
        cooperative agreements, each with layers of their own 
        management and subcontractor management;
  --Multiple layers of management per project resulting in increased 
        overhead charges and fees;
  --Communication between DOE and participating organizations, as well 
        as participating organizations and former workers, is 
        cumbersome;
  --Recruitment of participants has been a major cost for many of the 
        projects, with additional years of funding for some projects 
        resulting in minimal increases in worker participation;
  --Coordination efforts between the FWP and the Former Beryllium 
        Worker Medical Surveillance Program at DOE sites have been 
        challenging;
  --The significant resource needs for each of the site-specific 
        efforts conducted to date has resulted in a delay in the 
        initiation of screening for former workers at remaining defense 
        nuclear sites.
    Question. Ms. Cook, how will the new national program coordinate 
State workers compensation and EEOICP claims (sub-part D), e.g. will 
the examination sites around the country be expected to file Washington 
State worker's compensation claims and sub-part D claims as workers 
currently get?
    Answer. The current programs were not expected to file state 
workers compensation claims on behalf of workers. The workers who 
participate in the new program will be directed to the Federal and 
State resource centers as appropriate, where they will get the 
assistance they need to file.
    Question. Ms. Cook, why are the Former Worker Programs (FWPs) being 
asked to destroy workers' data? What are the risks to privacy when such 
data are protected by Institutional Review Boards responsible for 
protecting human research subjects?
    Answer. The Former Worker Programs are being asked to handle 
records appropriately based on the workers' desires. The worker gets to 
decide what happens to their records. Of course, a worker may have 
their own records. Then the worker can decide if they would like the 
DOE to keep copies. The worker may also decide that they would like the 
former program to have copies of their records and use them for other 
purposes, but that is a decision to be made by each worker. 
Additionally, the clinics that conduct the medical screening under the 
FWPs are required by State law to maintain the workers' medical records 
for a certain number of years. Workers have the option of obtaining 
copies from these clinics in the future as well.
    Question. Ms. Cook, how will the Office of Worker Advocacy (OWA) 
obtain records from FWPs who are being told to destroy such records?
    Answer. The Office of Worked Advocacy can only obtain records from 
the worker, or with the worker's permission. The DOE does not have open 
access to workers' records.
    Question. Ms. Cook, has NIOSH reviewed the new RFA, as required by 
Section 3162 of the 1993 Defense Authorization Act?
    Answer. Section 3162 of the 1993 Defense Authorization Act does not 
require NIOSH to review the RFA. We have also referred back to the 
original MOU signed by Energy Secretary Hazel O'Leary and HHS Secretary 
Donna Shalala in August 1995, and this MOU does not call for HHS 
(NIOSH) review of DOE-issued RFAs either.
    Question. Ms. Cook, are lessons learned and experience from the 
FWPs during the 8 years of operation being utilized in the RFA?
    Answer. Yes, they are. The current program is expensive and 
cumbersome to operate when divided into 12 separate cooperative 
agreements. There are workers at many sites that are still waiting for 
an opportunity to have screening exams. We understand we must provide 
this screening more efficiently and effectively and we believe the 
nationwide medical screening program will accomplish this objective.
  --DOE's central management of these projects is complicated by the 
        multiple management teams within each of the numerous 
        cooperative agreements, each with layers of their own 
        management and subcontractor management;
  --Multiple layers of management per project resulting in increased 
        overhead charges and fees;
  --Communication between DOE and participating organizations, as well 
        as participating organizations and former workers, is 
        cumbersome;
  --Recruitment of participants has been a major cost for many of the 
        projects, with additional years of funding for some projects 
        resulting in minimal increases in worker participation;
  --Coordination efforts between the FWP and the Former Beryllium 
        Worker Medical Surveillance Program at DOE sites have been 
        challenging;
  --The significant resource needs for each of the site-specific 
        efforts conducted to date has resulted in a delay in the 
        initiation of screening for former workers.
                                 ______
                                 
    Questions Submitted to the Office of Civilian Radioactive Waste 
                               Management
            Questions Submitted by Senator Pete V. Domenici

                             BUDGET REQUEST

    Question. The President's budget requests $880 million for Yucca 
Mountain. A significant portion of this funding is to be paid for by 
fees assessed to utility customers. The fund will collect $749 million 
this year. The budget proposes that the annual receipts be reclassified 
as discretionary funds and then appropriated. As the former Budget 
Committee Chairman, I know you can't waive a magic wand to reclassify 
these fees. It requires legislation and some degree of cooperation. I 
am not optimistic this can be accomplished this year. However, if we 
fail to get agreement to reclassify the fees, the Senate Budget 
Resolution assumes a minimum level of funding of $577 million. If 
Congress is only able to provide $577 million, what activities will the 
Department be forced to defer in fiscal year 2005?
    Answer. National and Nevada transportation activities would again 
be deferred, with no reasonable chance for schedule recovery. Site 
infrastructure maintenance work would be delayed, and effort devoted to 
repository design and development would be reduced.
    Question. Will this significantly delay the opening of Yucca 
Mountain beyond the 2010 target date and can you estimate what impact 
this would have on litigation costs for the department?
    Answer. We are at the point where any reduction in our funding 
profile, in fiscal year 2005 or the out-years, will adversely affect 
the scheduled 2010 opening date for the repository. If funding for 
fiscal year 2005 is frozen at the fiscal year 2004 level of $577 
million, the Department's ability to meet the scheduled 2010 repository 
opening date will be severely compromised and most likely lost. To 
date, more than 65 claims have been filed by utilities in the Court of 
Federal Claims for breach of contract to recover monetary damages 
incurred as a result of the Department's delay. For each year of delay 
beyond 2010 that the Department is unable to begin accepting spent 
nuclear fuel from commercial reactors pursuant to the Department's 
contracts with utilities, the Department estimates that the utilities 
will incur costs of $500 million a year to store their spent fuel at 
utility sites, some portion of which the Department would be liable 
for. A delay in opening the repository could substantially increase the 
government's liability.

                YUCCA MOUNTAIN--METAL STORAGE CONTAINERS

    Question. I have read that Nuclear Regulatory Commission (NRC) 
Chairman Nils Diaz disputes the controversial evaluation made by the 
Nuclear Waste Technical Review Board regarding the corrosion analysis 
of the metal containers that will be used at Yucca Mountain. Dr. Chu 
could you please explain where you believe the science comes out on 
this issue and share with the committee how site managers have dealt 
with this issue?
    Answer. The EPA's radiation protection standards and NRC's 
licensing regulations require DOE to evaluate long-term repository 
safety based on risk to the public. This requires an assessment of the 
total system, and must take into account the likelihood of events 
occurring and their effect on public health and safety.
    The NWTRB's report focuses on a specific component of the 
repository system, namely the disposal canisters, and does not address 
the effect on the safety of the total system. In addition, the NWTRB 
position relies on the presence of very specific conditions in the 
repository tunnels, which DOE technical studies show are very unlikely 
and will have no significant effect on public health and safety.
    DOE's current design will meet the EPA and NRC regulations, and we 
will demonstrate this in our license application to the NRC. DOE will 
continue to discuss the corrosion issues with the NWTRB at their 
regularly scheduled public meetings. Finally, if required by the NRC, 
the issues will be fully and openly explored during the licensing 
proceedings.
    Question. Do you believe that the U.S. population would be safer to 
locate spent fuel in Yucca Mountain as opposed to leaving the waste 
where it currently is scattered across the country?
    Answer. As Secretary Abraham indicated in his Yucca Mountain Site 
Recommendation statement, spent nuclear fuel and high-level radioactive 
waste is currently stored in surface facilities at nearly 130 locations 
in 39 States awaiting final disposition. Most of these temporary 
storage facilities are located near major population centers, and 
because nuclear reactors need abundant water, are located near rivers, 
lakes and seacoasts. More than 161 million Americans live within 75 
miles of these temporary storage facilities. It is clearly preferable 
to locate these wastes at Yucca Mountain, on Federal land, more than 90 
miles from any major population center, where they would be placed 
1,000 feet underground.

                          YUCCA TRANSPORTATION

    Question. It is my understanding that the Department has not made a 
final decision as to whether it will use rail or truck transportation 
to move the waste to Yucca, or decided on a specific route. When will 
the Department make its final decision and begin the Environmental 
Impact Study?
    Answer. On April 2, 2004, I signed the Record of Decision selecting 
mostly rail as the transportation mode, and the Caliente corridor as 
the rail corridor in Nevada. To initiate the Environmental Impact 
Statement development process for a specific rail alignment within the 
corridor, DOE conducted five public scoping meetings in Nevada from May 
3 through May 17, 2004. The public comment period is scheduled to end 
June 1, 2004. We expect to issue the Draft EIS early next year and 
issue the Final EIS later in the same year.

                          SUBCOMMITTEE RECESS

    Senator Domenici. That's what it is. So we stand in recess 
until the call of the Chair.
    [Whereupon, at 11:45 a.m., Wednesday, March 31, the subcom-
mittee was recessed, to reconvene subject to the call of the 
Chair.]

</pre></body></html>
